<html>
<title> - THE CRISIS ON OUR NATIONAL FORESTS: REDUCING THE THREAT OF CATASTROPHIC WILDFIRE TO CENTRAL OREGON COMMUNITIES AND THE SURROUNDING ENVIRONMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 
      THE CRISIS ON OUR NATIONAL FORESTS: REDUCING THE THREAT OF 
     CATASTROPHIC WILDFIRE TO CENTRAL OREGON COMMUNITIES AND THE 
                        SURROUNDING ENVIRONMENT

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                        Monday, August 25, 2003

                               __________

                           Serial No. 108-51

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

89-089              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, August 25, 2003..........................     1

Statement of Members:
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Bonnicksen, Thomas M., Ph.D., Professor, Department of Forest 
      Science, Texas A&M University..............................    22
        Prepared statement of....................................    24
    Bosworth, Dale, Chief, Forest Service, U.S. Department of 
      Agriculture................................................     7
        Prepared statement of....................................    12
    Dessecker, Daniel R., Senior Wildlife Biologist, Ruffed 
      Grouse Society.............................................    34
        Prepared statement of....................................    36
    Goodman, Linda, Regional Forester, U.S. Department of 
      Agriculture................................................     8
        Prepared statement of....................................    12
    Johnson, Don, Owner, D.R. Johnson Lumber Co..................    68
        Prepared statement of....................................    69
    Lillebo, Tim, East Oregon Field Representative, Oregon 
      Natural Resources Committee................................    61
        Prepared statement of....................................    63
    Luke, Hon. Dennis, Commissioner, Deschutes County, Oregon....    53
        Prepared statement of....................................    55
    Marshall, John, Assistant Director for External and 
      Intergovernmental Affairs, Colorado Department of Natural 
      Resources..................................................    43
        Prepared statement of....................................    45
    Minnick, Ralph, Chief Financial Officer, Warm Springs Forest 
      Products Industries, Confederated Tribes of the Warm 
      Springs Reservation of Oregon..............................    71
        Prepared statement of....................................    73
    Sessions, John, Ph.D., University Distinguished Professor of 
      Forestry, Stewart Professor of Forest Engineering, Oregon 
      State University...........................................    29
        Prepared statement of....................................    31
    Shelk, John, Managing Director, Ochoco Lumber Company........    65
        Prepared statement of....................................    67
    Shepard, Ed, Assistant Director, Renewable Resources and 
      Planning, Bureau of Land Management, U.S. Department of the 
      Interior...................................................     9
        Prepared statement of....................................    12
    Stahl, Andy, Executive Director, Forest Service Employees for 
      Environmental Ethics.......................................    39
        Prepared statement of....................................    41
    Stiles, Les, Sheriff, Deschutes County, Oregon...............    56
        Prepared statement of....................................    57
    Weldon, Leslie, Supervisor, Deschutes National Forest, Oregon     5


OVERSIGHT FIELD HEARING ON THE CRISIS ON OUR NATIONAL FORESTS: REDUCING 
 THE THREAT OF CATASTROPHIC WILDFIRE TO CENTRAL OREGON COMMUNITIES AND 
                      THE SURROUNDING ENVIRONMENT

                              ----------                              


                        Monday, August 25, 2003

                     U.S. House of Representatives

                         Committee on Resources

                            Redmond, Oregon

                              ----------                              

    The Committee met, pursuant to call, at 2:00 p.m., at the 
Deschutes County Fairgrounds Expo Center, 3800 SW Airport Way, 
Redmond, Oregon, Hon. Richard W. Pombo [Chairman of the 
Committee] presiding.
    Members Present: Representatives Pombo and Walden.
    The Chairman. The Committee on Resources will now come to 
order. I'd like to recognize a gentleman from Oregon. Mr. 
Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I want to 
welcome you to Central Oregon and our Committee to Central 
Oregon for this hearing. At this time I would like to welcome 
the Oregon National Guard Youth Challenge Program who will--
they will post the colors and then they will proceed to say the 
pledge of allegiance. If everybody could stand, please.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. Thank you. I'd like to extend my thanks to 
the Oregon National Guard Youth Challenge Program for 
presenting the colors today. It's my pleasure to be here with 
Congressman Walden in Central Oregon to take a closer look at 
the nation's forest health and wildfire crisis. In so many ways 
the State of Oregon has been ground zero in the debate about 
the future of our forests. Year after year, summer after summer 
Oregon has been stuck in the crossfire of catastrophic 
wildfires.
    With memories of the Biscuit Fire still fresh in folks 
minds, Central Oregon is experiencing another horrific episode 
with the B&B Complex Fire. Like so many fires of the west, in 
the last few years this fire is burning hot, fast and 
destructive leaving a path of ecological destruction in its 
way. I understand a number of homes have been evacuated and 
certainly our thoughts and prayers are with those individuals.
    Today we also mourn the loss of eight firefighters who were 
killed yesterday in a traffic accident returning to Oregon from 
a wildfire in Idaho. Our hearts go out to the families of those 
who are lost.
    The scope of America's forests health crisis cannot be 
overstated. This nation has a stunning 190 million acres of 
forest and wooded lands at unnaturally high risk of 
catastrophic wildfire and large scale insect and disease 
outbreaks. These forests are clogged with thickets of 
underbrush and other flammable material. They are a lightening 
strike or an errant campfire away from exploding.
    And yet because of excessive procedural requirements, 
appeals and lawsuits, forest managers are only treating about 
two million acres a year. Even with an imminent threat of large 
scale catastrophic wildfire endangering a community or an 
important source of drinking water, it routinely takes three to 
5 years for Federal foresters to get projects through the maze 
of bureaucracy and red tape, three to 5 years to get approval 
for a project that would protect a home or a watershed. And 
that's outrageous.
    When you consider the devastating impact of these fires on 
our forests, our community, our air, water and wildlife, this 
glacial response is totally unacceptable. The process is 
fundamentally broken and law makers have an obligation to fix 
it. That's what the Healthy Forest Restoration Act would do. It 
would give land managers the tools to protect our air, water, 
wildlife and communities from the ravages of catastrophic 
wildfire while meaningfully streamlining bureaucratic 
procedures to build unprecedented lengths to protect the 
public's critical role in the management of our forest assets. 
Environmental groups can continue to appeal and litigate 
projects until they are blue in the face. They just won't be 
able to kill projects through unending delay tactics.
    The bill passed the House of Representatives on an 
overwhelming bipartisan basis. A remarkable victory in the face 
of a well-funded lobbying campaign by so-called no cut 
environmental groups. The margin of that victory underscores 
the strength of public sentiment behind this legislation.
    Outrageously some Democrat Senators, themselves part of the 
no-cut crowd, are talking about filibustering this legislation. 
And in other words, using procedures to prevent this wildly 
supported bipartisan legislation from even getting an up or 
down vote. I wonder what are they afraid of? Why not debate the 
bill, vote on the bill and let the cards fall where they may.
    In the House of Representatives republicans and democrats 
prove that protecting our forests, wildlife and communities 
from catastrophic wildfire is not a partisan issue. Republicans 
and democrats put party politics behind us and crafted a 
legislative road map that will give foresters and scientists 
the tools to address the nation's forest health crisis. For 
those familiar with Washington, D.C. politics, you know that 
the House of Representatives is often a very partisan place. If 
we can rise above partisan considerations, I have to believe 
that the senate can too. I'd like at this time to recognize my 
friend and colleague, Mr. Walden.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. I'd like to thank 
Deschutes County for providing us with the opportunity to host 
this deal here at the fairgrounds, and I'd especially like to 
acknowledge the county commissioners who are here today 
especially those from Deschutes County for hosting our 
Resources Committee Hearing and for hosting the President of 
the United States who happened to drop by last week. I want to 
thank you, Mr. Luke, DeWolf and Daly. Thank you for your extra 
efforts on our behalf and on the President's.
    I'd also like to thank the Deschutes County fairgrounds 
staff for all of their hard work they put into this event as 
well as the President's visit last week. I'd like to thank 
Deschutes County Sheriff Les Stiles, his staff and the Oregon 
State Police for their involvement in today's event along with 
the city of Redmond Police. It's great to see Redmond Mayor 
Allen Unger here as well. The manager of the Redmond Airport, 
Carrie Novick, thank you all for your help and your hard work. 
I truly appreciate the support that Central Oregon has shown us 
as we have held or are holding this hearing.
    I also want to thank and acknowledge representatives from 
our two Senators' staff who I am told are here with us today. 
Both Senator Smith and Senator Wyden staff are here. Susan 
Fitch with Senator Gordon Smith staff, Matt Hill with Senator 
Gordon Smith staff, Janet Brown and Kathy Eckman with Senator 
Wyden's staff. We thank you for joining us today. Thanks for 
being here.
    Mr. Chairman, I appreciate the comments you made with 
regard to H.R. 1904. As a life-long Oregonian, and I have said 
it before, I like my forest green, not black which is sort of 
the difference in our clothing today. You are dressed in black. 
I am dressed in green. Our forests are suffering the same fate. 
As we sit here and discuss this bill and hear from expert 
testimony, stands of live trees, stands of dead trees that 
burned before are being engulfed in flames. Our valleys and our 
air sheds are filled with smoke. Our watersheds are threatened. 
Some of the treasures that we hold, Camp Sherman, for example, 
and other areas lie in the path of what could be total 
destruction.
    It's time for us to come together, pass this legislation in 
a bipartisan way so that our professional foresters and our 
communities can get together and in an expedited way fix the 
problems with our forests, remove the hazardous fuels, the 
overstocking so that when we get the fire and we will, it won't 
be catastrophic in nature and as destructive and out of control 
as we're seeing right now.
    Mr. Chairman, I am going to keep my remarks to that. I have 
a prepared statement I will submit for the record. And again I 
want to thank you for your courtesy in allowing us to have this 
hearing here. And I think it's fair to say that members of the 
public will be able to submit written testimony for the record 
even though today's testimony is invited panel testimony. Is 
that correct, Mr. Chairman?
    The Chairman. Without objection your opening statement will 
be included in its entirety in the record, and the hearing 
record will be held open for 2 weeks to allow interested 
members of the community the opportunity to submit written 
comments that will be included in the hearing record.
    Mr. Walden. Thank you, Mr. Chairman. I thought it would be 
appropriate for us and the audience to get an update at the 
very beginning, Mr. Chairman, on the status of the fires that 
are to the west of us. I don't know how you want to proceed on 
that, but clearly there's a lot of interest.
    The Chairman. Well, if I may before we begin the formal 
testimony I'd like to ask Chief Bosworth if he has someone with 
him who could give us an update on the fires here locally.
    Mr. Bosworth. Yes, Mr. Chairman. I have Forest Supervisor 
Leslie Weldon, Supervisor of the Deschutes National Forest to 
do that.
    The Chairman. Thank you. Leslie, if you could join us at 
the witness table here.
    Mr. Walden. We can have somebody bring those over. I am 
sure there is a lot of interest in the audience. Perhaps we can 
put it where we all can see.
    [The prepared statement of Mr. Walden follows:]

 Statement of The Honorable Greg Walden, a Representative in Congress 
                        from the State of Oregon

    Thank you, Mr. Chairman. I appreciate having the opportunity to 
offer opening remarks today. I'm pleased to welcome you to central 
Oregon to examine an issue that has affected many of the residents of 
Deschutes, Crook and Jefferson counties--the threat that catastrophic 
wildfire poses to our communities, public lands, municipal water 
supplies and wildlife.
    As we've seen over the last several weeks, and most recently with 
President Bush's visit to Deschutes County last Thursday, the threat of 
wildfire outbreaks is a constant variable in the daily equation of life 
in central Oregon. Currently, the Booth and Bear Butte fires are 
burning actively in areas of heavy fuels, steep terrain, and in remote 
areas previously decimated by beetle infestation. The estimated area 
burned so far for both of these fires is 25,800 acres. On Saturday 
evening Oregon National Guard helicopters, vehicles and personnel began 
arriving to assist with suppression efforts. The 25,800 acres that have 
burned in this fire are in addition to the 28,000 acres that burned as 
a result of the Davis, Link and 18 fires.
    Unfortunately, the fires currently burning in central Oregon and 
Oregon as a whole mirror what is transpiring in Idaho and Montana, 
where approximately 310,000 acres have recently burned. And earlier 
this year we saw a wildfire in Arizona that destroyed more than 250 
structures and precipitated the evacuation of 450 families near the 
community of Summer Haven. The possibility of a similar, and perhaps 
more dire, situation exists in California, where officials have 
established evacuation plans for residents living near Los Angeles due 
to the threat of major wildfire outbreaks. But, as many experts in the 
forestry community have stated, the threat of catastrophic wildfire and 
the crisis facing our forests is not unique to the West.
    The dangerous build up of hazardous fuels on forest floors, 
outbreaks of disease and insect infestation combine to form a truly 
national problem afflicting every state and region in America. In the 
South over 57 million acres of forestlands are at high risk of beetle 
infestation. In other regions of the country the situation is equally 
severe. An insect called the hemlock woolly adelgid is destroying 
forests throughout the mid-Atlantic and Appalachian regions, while in 
Michigan the introduction of the emerald ash borer in 2002 has proven 
to be so devastating--already killing or damaging seven million trees--
that in March Governor Granholm formally requested assistance from the 
Department of Agriculture to help combat the spread of the borer to the 
state's remaining 692 million ash trees.
    The national scope of America's forest health crisis demands a 
national response. Fortunately, that is precisely what is provided by 
H.R. 1904, the Healthy Forests Restoration Act, which I co-authored 
with you, Mr. Chairman, and our colleague from western Colorado, Scott 
McInnis. The House approved H.R. 1904 more than three months ago on May 
20 by an overwhelming, bipartisan vote of 256 to 170--including the 
support of 42 Democrats. It's not often that a national environmental 
measure of this magnitude is approved with such strong, bipartisan 
support.
    While America's forests are diverse, many of the problems that 
afflict them are uniform across the nation. The biggest culprits to 
proper management are the procedural hurdles that tie the hands of our 
federal land managers. As we have seen here in central Oregon with the 
stalled implementation of the McCache Vegetation Management Project, 
combined these problems tie the hands of forest managers and prevent 
projects that would improve forest health, help prevent catastrophic 
fire and safeguard our communities. As Chief Bosworth, has stated:
    ``I've got 37 years with the U.S. Forest Service, and over the 
years I have seen us get to a situation where there are more and more 
regulatory requirements, and less and less opportunity for professional 
foresters and biologists to make decisions out in the field. We end up 
spending more time in windowless rooms behind computer screens doing 
analysis, and in a lot of cases it doesn't lead to a better decision. 
We've gotten ourselves to where we just can't get work done on the 
ground. People expect us to get work done on the ground, and that's 
what we're here for.''
    The Chief aptly terms this ``analysis paralysis.''
    Too often foresters are required to propose as many as six to eight 
alternatives to simple forest treatment projects under the National 
Environmental Policy Act (NEPA), knowing that most of them will never 
be utilized. As managers of the federal government's purse strings, we 
have a duty to ensure that we cease the current trend of shoveling 
taxpayer dollars at wasteful paperwork while we starve our forests of 
attention and stymie foresters from implementing their expertise.
    While H.R. 1904 requires that hazardous fuel removal projects must 
go through the NEPA process, it does not force the Forest Service to 
draft alternative plans that they know will never be implemented. It 
also encourages greater public participation by codifying the 
bipartisan Western Governors Association 10-Year Strategy's robust 
public input and participation requirements, ensuring that interested 
persons will have numerous opportunities to engage decision makers 
during all phases of a project's development and implementation.
    Without expediting forest treatment projects, the outbreak of 
disease and bug infestation and the build-up of hazardous fuels across 
our country will only grow worse. Last year taxpayers spent well over 
$1.5 billion dollars fighting raging fires, and this year Congress once 
again increased annual funding for hazardous fuel reduction programs 
under the National Fire Plan to over $400 million. As we continue to 
invest more in fire prevention and forest health programs, it is 
critical that we match this investment with the tools our foresters 
need to actively manage the crisis at hand.
    After years of attempting various approaches, H.R. 1904 struck a 
chord of common sense. It is not only supported by such diverse groups 
as the National Association of Home Builders, the National Association 
of Counties and the National Volunteer Fire Council, but it is also 
supported by groups representing professional foresters like the 
Society of American Foresters and the Western Forestry Leadership 
Council whose members see the deplorable health of our federal 
forestlands firsthand. And, finally Mr. Chairman, I would like to 
emphasize the bipartisan support that this bill received in the House. 
Nearly 60% of the members of the House supported this bill on final 
passage. More recently, a slightly modified version of H.R. 1904 passed 
the Senate Agriculture Committee by voice vote.
    Mr. Chairman, I'd like to close by thanking the people of Deschutes 
County for giving us the opportunity to hold this hearing at the 
fairgrounds today. I'd also like to take the opportunity to enter into 
the record editorials from the Bend Bulletin, Grants Pass Daily 
Courier, The Observer, the Wall Street Journal, Central Oregonian and 
the Wallowa County Chieftain in support of the Healthy Forests 
Restoration Act.
                                 ______
                                 

            STATEMENT OF LESLIE WELDON, SUPERVISOR, 
               DESCHUTES NATIONAL FOREST, OREGON

    Ms. Weldon. Thank you. What I'd like to do is just give a 
very quick update of the B&B Complex which includes the Bear 
Butte Fire which is burning on the northern part of the 
Deschutes National Forest and on to the Confederated Tribes of 
the Warm Springs Reservation and also the Booth Fire which is 
burning in Sisters adjacent to Suttle Lake and adjacent to the 
Metolius Basin.
    I will start with the Booth Fire. Acre wise as of this 
morning we are looking at a fire of about 31,000 acres. We are 
still experiencing some growth on the fire primarily to its 
western and northern flanks here. We are feeling pretty 
strongly that we have got a line that can be called contained 
and secured along the eastern flank. Again Camp Sherman and the 
Metolius Basin in this area are our highest priority and we are 
making sure that we have got strong lines and are watching 
carefully that there's no spread of the fire continuing to the 
east.
    Along the fires burning into wilderness area, we are 
expecting a continuing trend of dry weather and may even 
experience some additional growth in this fire with the weather 
that we are anticipating. We are probably a long ways away from 
full containment on this fire. I think we are only talking 
about 20 percent. Even though this line is black, we usually 
give it some time to make sure we are firm before we truly call 
it contained.
    On the Bear Butte Fire, we are looking at an acreage of 
approximately 6,100 acres as of this morning. We are feeling 
pretty strongly about lines we have been able to put in on the 
eastern flank of the fire. This fire too is burning into 
portions of the wilderness. We had limited access and a lot of 
hard work by hot shot crews to get some hand lines in. And 
again there's possibility of an opportunity for growth on this 
fire with the weather we are expecting over the next couple of 
days. A lot of folks work really hard on the fires, but we are 
still in a position where there may be some additional growth 
on both of these. Hopefully we have got things secure to the 
point where we won't have communities threatened from these 
fires.
    A little bit more info on where we have been for this year. 
This is the fourth and fifth project fires in Central Oregon, 
and through today we have about 67,000 acres that have burned 
on the Deschutes National Forest with fires that began the last 
week of June and are continuing. As with last year with the 
Cache Mountain Fire we are experiencing a lot of benefit from 
places where we have done fuels treatments and seeing a drastic 
change in fire behaviors when those fires hit those burned 
areas, dropped to the ground, give us a strategic advantage for 
fighting fires and also create a much safer situation for 
firefighters.
    We got examples through the 18 Fire which started about 4 
weeks ago where our treatments change fire behaviors. We have 
got examples of portions of the Davis Fire. We even witnessed 
portions of these two fires here in particular the Booth Fire 
where we had truly change in fire behavior to the degree that 
we have been able to be a lot quicker in our suppression in 
those areas. And I think throughout Oregon we have had about--I 
think our figure was $8 million that have been expended this 
year fighting wildfire. In Central Oregon our number is 
approaching about 20 million. Large fires like these we will be 
topping spending about a million dollars a day with all the 
suppression resources that are brought in during the most 
intense periods of fire fighting. And if there's any questions, 
that's pretty much a briefing of where we are at.
    Mr. Walden. All right. Do you have the crews you need?
    Ms. Weldon. We do. We are getting the resources that we 
need.
    The Chairman. Thank you very much.
    Mr. Walden. Thanks, Leslie.
    The Chairman. I'd like to welcome our first panel that's 
going to testify here today. We have Dale Bosworth, who is the 
Chief U.S. Forester who is accompanied by Linda Goodman, the 
Regional Forester of the Pacific Northwest Region, and Mr. Ed 
Shepard, Assistant Director of Renewable Resources and 
Planning, Bureau of Land Management. Thank you for joining us 
here today. Chief, we are going to just begin with you, and 
your entire written testimony will be included in the record. 
If you can summarize that, and just for the sake of time, we 
appreciate that. Thank you.

              STATEMENT OF DALE BOSWORTH, CHIEF, 
                      U.S. FOREST SERVICE

    Mr. Bosworth. Thank you, Mr. Chairman, Congressman Walden. 
It really is good to be here. It's good to be in Oregon. I 
think that Redmond, Oregon is a good place. It's a good setting 
to be discussing the efforts to improve the health of our 
nation's forest and also the grasslands. And part of it is 
because of the proximity we are right now to the Deschutes 
National Forest, the Ochoco National Forest, the Crooked River 
Grasslands. There is something like 1.6 million acres of Bureau 
of Land Management public lands in this area. Even with all 
attention though that we have some problems, some contentious 
issues, I think we need to take a minute and maybe reflect on 
some of the tremendous positives that are associated with 
national forest lands in Oregon.
    I'd just like to briefly point out a few things. There are 
15 national forests in Oregon. There's two national recreation 
areas. There's one national grasslands. There's 15.7 million 
acres of rolling hills and rugged hills of beautiful country. 
It covers a range of multiple uses. About 2.1 million acres of 
wilderness. It provides solitude for an awful lot of people. 
There is some diverse recreation opportunities both developed 
recreation and disperse recreation opportunities. There's fish 
and wildlife habitat, tremendous fish and wildlife habitat. 
Clean water. There's also commodity production and economic 
contributions to be made. There's many, many dedicated Forest 
Service people doing the very, very best in Oregon to care for 
the land and serve people, and I think that they would all 
agree and the people who live here would agree that Oregon is a 
wonderful place to visit. It's a wonderful and beautiful place 
to live.
    Now I'd like to talk a little bit about it's 49 days since 
I met with you in Montana and testified. That was on July 2. 
Here we are today on August 25. Since that point we have burned 
1,698,000 million acres. 1,698,000 acres have been burned by 
wildland fires. About 628,000 of that was on national forest 
lands. 17 people have died since then, 318 structures have been 
burned, 75 of those are homes. Currently we have 57 large fires 
that are burning in 10 western states.
    We have testified several times over the last year on 
extremely important issues surrounding forest health before the 
House of Representatives and the Senate, and I think that the 
President was right on target with his introduction of the 
Healthy Forest Initiative. And the Department of Agriculture 
strongly supports HFI as well as 1904 Healthy Forest 
Restoration Act of 2003.
    We are living in a time that has great issues, and some 
people and organizations would argue the timber harvest levels 
represent the greatest threat to the public forests. However 
loudly the voice or strongly felt and held these views might 
be, I don't think they portray the reality of the management 
needs for the public forests now or over the next several 
decades. I believe that some of the greatest threats to the 
forest and grasslands include the fire danger that's facing us 
right now, the unnatural accumulation of fuels.
    And I think that invasive species is a huge problem, is a 
huge threat, to our nation's forests and grasslands. Nationwide 
invasive species cover an area that's a third larger than the 
state California, and then insects and disease problems that we 
have from outside this country. Our goal is healthy forests, 
and our goal is healthy forests so people can enjoy these 
resources for generation after generation after generation.
    In some cases that's going to mean restoration of 
conditions so that the forest can remain healthy. For example, 
because we have been so successful in terms of suppressing 
wildfires and because we have been unable to do some of the 
needed thinning, we have fuel buildup in our forests that we 
are faced with.
    Ponderosa pine, I think, is a great example. Historically 
most ponderosa pine forests were relatively open. You have a 
few dozen trees per acre. Today they might have hundreds or 
perhaps even thousands of trees per acre. In a drought all 
these trees can fuel catastrophic wildfire resulting in the 
potential loss of homes, loss of communities, municipal water 
sources, wildlife habitat. It can take decades of action to 
restore these forests provided our society is willing to focus 
on this issue and to commit the needed resources.
    Federal forest and range lands across the country are also 
facing unusually high threats from the spread of invasive 
species, invasive weeds and insects and disease. Frequency, 
extent and timing of recent outbreaks are out of the ordinary. 
Changes in tree stand density, in species composition and 
structure due to decades of excluding or immediately 
suppressing fire, lack of active management and extended 
drought are factors that have affected insect infestation 
outbreak patterns. The central focus needs to be on what we 
leave on the land and we need to quit arguing about what it is 
that we are taking from the land.
    We also have issues with processes that have grown to the 
point where the paperwork may impair our ability to act in a 
timely manner. The administration proposed actions in 
conjunction with the authorities proposed in H.R. 1904 will 
allow us to update our procedures to act in a timely manner, 
and it will also provide appropriate public participation and 
environmental review and protection.
    Mr. Chairman, I will ask Regional Forester Linda Goodman to 
make a few specific comments about the Biscuit Fire so that we 
can maybe have some discussion about that.

        STATEMENT OF LINDA GOODMAN, REGIONAL FORESTER, 
                      U.S. FOREST SERVICE

    Ms. Goodman. Thank you. Thank you for having us, Mr. 
Chairman and Congressman Walden. The Biscuit Fire burned nearly 
500,000 acres as you well known costing over $150,000,000 for 
suppression alone. Over 45 percent of the Siskiyou National 
Forest burned at varying intensity and effect including a 
complete reburn of the 100,000 acre Silver Fire and all but a 
few hundred acres of the Kalmiopsis Wilderness. The Biscuit 
Fire left us with an important lesson, the need to treat 
hazardous fuels at the landscape scale.
    We have completed planning and decisions on eight projects. 
Specifically we have completed documents for road maintenance, 
immediate reforestation needs, special forest products and 
hazard tree felling and removal. Through extensive cooperation 
and outreach, seedlings were planted on nearly a thousand acres 
this spring including a 10-acre spot with a local high school. 
Road crews are completing repairs on over 200 miles of road. 
Recreation trails are signed for hazards and crews are working 
on 40 miles of trails. Hazard trees along roads are marked, and 
sales sold to date total 5.4 million board feet of timber.
    We will be releasing a draft EIS sometime in October for 
salvage logging, fuels treatment, reforestation and all 
connected actions will address five primary issues: Recover 
merchantable dead timber before its economic value is lost; 
restore habitat for species that rely on older forests; 
restore, maintain and enhance fish and wildlife habitat; reduce 
risks of catastrophic wildfire to nearby communities and to 
adjacent private lands; and last learn and share our knowledge 
about large fires and fire recovery. Several alternatives are 
being evaluated including one that directly reflects the work 
of Dr. John Sessions of Oregon State University.
    Among our proposals is the construction and maintenance of 
an extensive network of fuels management zones. These are 
linear features located on ridges and existing roads that are 
intended to provide safer, more defensible space for the use of 
prescribed fire and for fighting and containing wildfire. These 
fuel breaks will compartmentalize the landscape and reduce the 
chances of fires getting as large as the Biscuit Fire.
    We are also working with the research community to test how 
we can best re-establish and maintain late successional habitat 
across the landscape in dry forest types. We are testing three 
different approaches: One that's a low intensity approach; 
second one a more intensive approach that includes our most 
aggressive economic recovery of dead timber; and third the use 
of prescribed fire and salvage. I will turn it back over to you 
now.
    The Chairman. Thank you. Mr. Shepard.

         STATEMENT OF ED SHEPARD, ASSISTANT DIRECTOR, 
                   BUREAU OF LAND MANAGEMENT

    Mr. Shepard. Mr. Chairman, Congressman Walden. Thank you 
for the opportunity to testify today. Good to be back in 
Oregon. The need to restore our nation's public forests and 
rangelands to long-term health has never been greater. That's 
why the Department of the Interior strongly supports H.R. 1904, 
the Healthy Forest Restoration Act of 2003.
    East of the crest of the Cascades in Oregon and Washington 
the BLM manages approximately 223,000 acres of forest. It's 
estimated that due to fire, insect infestation and disease 
nearly 87 percent of these forest lands have been altered from 
their historic conditions and are at moderate risk of losing 
key ecosystem components.
    The BLM has addressed this problem in the Eastside Forest 
and Woodland Management Action Plan for Oregon and Washington. 
The plan focuses on aggressively restoring these woodlands 
through thinning and prescribed fire. The plan will also help 
reduce the threat of catastrophic fires that have impact on 
small communities and resources including beyond the forest 
ecosystems critical rangeland habitat important for livestock 
and for the sagebrush and the spread of invasive species.
    Since the President announced the Healthy Forest Initiative 
last year, I am pleased to report both the Secretary of the 
Interior and Agriculture have taken several steps to help 
implement the President's plan. These include the publication 
of joint guidance allowing multiple projects to be considered 
under one Endangered Species Act consultation and some current 
direction on how to consider and balance potential short term 
effects and the long term beneficial impacts to endangered 
species while evaluating projects; rule changes that encourage 
early and meaningful public participation in project planning 
for important hazardous fuels projects; new categorical 
exclusions for certain hazardous fuels reduction projects and 
proposed fire rehabilitation projects with sideboards to ensure 
that these are used appropriately; new proposed regulations 
authorizing agencies to make determination on actions not 
likely to adversely effect listed species without informal 
consultation and concurrence with the Fish and Wildlife or NOAA 
Fisheries; guidance from model environmental assessment for 
fuel treatment projects that enhance the administrative 
processes.
    The BLM Rogue River hazardous fuel EA is such a project. 
This 8,000 acre project was released for public comment just 
last week. 190 residents live within the Hellgate recreation 
section of the Rogue River and support for this project in the 
local community is strong. Project implementation is 
anticipated to start this fall.
    And finally the implementation of stewardship contracting 
that allows the BLM and Forest Service to enter into long term 
contracts with the private sector, nonprofit organizations, 
local communities and other entities to help achieve important 
land management objectives. In 2003 the BLM has two planned 
stewardship contracts in Oregon, one in Medford and one in 
Baker City. These projects focus on reducing extremely high 
fuel loads in the wildland urban interface and in bug infested 
areas while also improving fish and wildlife habitat. We 
believe that these actions will provide Federal lands managers 
with the tools they need to restore these lands to the 
condition where they can resist disease, insects and 
catastrophic fire. However, the Administration also believes 
that the additional tools and authorities provided for in H.R. 
1904 are needed in Oregon to fully implement forest restoration 
on a large scale basis in a meaningful timeframe.
    The Forest Service and BLM also completed a number of 
significant actions associated with implementation of the 
National Fire Plan in 2002. We have awarded 38 grants in Oregon 
totaling approximately $5.5 million to state agencies and local 
communities to perform hazardous fuels reduction projects, 
provide education and prevention programs, and to find uses for 
the by-products of hazardous fuels reduction projects.
    For example, in John Day we have provided $91,000 to 
complete an interface hazardous fuels inventory and a hazardous 
fuels public education program. We have allocated $1.9 million 
to 191 fire districts in Oregon. Funding was used for training, 
equipment purchase and fire prevention activities on a cost-
share basis. The town of Fossil, for example, was able to 
purchase a new pump, foam unit and personal firefighting 
protective gear with some of money.
    We have conducted hazardous fuels reduction treatments on 
190,232 acres in Oregon. About 50 percent of these acres were 
treated within the wildland urban interface areas. An example 
of these treatments is the Bly Mountain interface fuels 
reduction project that resulted in over 4,000 acres of 
thinning, brush removal, slash piling and prescribed burning 
adjacent to BLM managed lands. This also employed 35 local 
people and two local subcontractors.
    We have completed 86 projects covering nearly 71,000 acres 
of forest restoration and rehabilitation of burned areas in 
Oregon and awarded 30 Forest Service economic action program 
grants to rural communities and businesses including the 
Ashland watershed protection program. This cooperative venture 
includes the city of Ashland, the Forest Service, Oregon 
Department of Forestry and private landowners and has resulted 
in treatment to over 100 acres within the city limits of 
Ashland.
    Regional Forester Goodman talked about the Biscuit Fire and 
the salvage actions they have there. BLM also had a fire 
started about the same time in southwest Oregon. The Timbered 
Rock Fire started from a lightning strike and burned 27,000 
acres. About 12,000 acres of that was BLM managed land mostly 
in late successional reserve timber stands under the northwest 
forest plan. Restoration and rehabilitation efforts are 
currently being analyzed in a draft EIS down there.
    In addition to supporting timber salvage opportunities, the 
EIS's proposed alternative analyzes actions designed to restore 
the area to the late successional forest conditions. It's 
expected we will start salvage operation and restoration 
activities in the spring of 2004. Another part of the proposal 
on the Timbered Rock was it would include a number of studies 
conducted by scientists from Oregon State University and USGS 
BRD program to answer some of the concerns associated with 
timber salvaging and fire restoration.
    Mr. Chairman, these are just a few examples of the ongoing 
efforts in support of the President's Healthy Forest 
Initiative. We believe that these actions along with H.R. 1904 
provide the much needed authorities so that the agency can move 
forward in a timely and effective way to restore the conditions 
of our forest and rangelands. Thank you for the opportunity to 
appear today and I'd be glad to answer any questions.
    [The joint prepared statement of Mr. Bosworth, Ms. Goodman, 
and Mr. Shepard follows:]

 Statement of Dale Bosworth, Chief, Forest Service, U.S. Department of 
 Agriculture; Ed Shepard, Assistant Director, Renewable Resources and 
 Planning, Bureau of Land Management, U.S. Department of the Interior; 
and Linda Goodman, Regional Forester, Pacific Northwest Region, Forest 
                Service, U.S. Department of Agriculture

    Mr. Chairman:
    We appreciate your invitation to participate in today's field 
hearing to discuss the threat of catastrophic wildfires to central 
Oregon communities. Redmond, Oregon, is an appropriate setting to 
discuss efforts to improve the health of our Nation's forests and 
rangelands given its proximity to the Deschutes and Ochoco National 
Forests, the Crooked River National Grasslands, and to approximately 
1.6 million acres of Bureau of Land Management (BLM) public lands. As 
we have testified in recent hearings on forest health before the House 
of Representatives and the Senate, the Departments of Agriculture and 
the Interior strongly support the President's Healthy Forests 
Initiative and H.R. 1904, the Healthy Forests Restoration Act of 2003.

Background
    We are living in a time of great issues and great debate. Some 
people and organizations argue that timber harvest levels represent the 
greatest threat to public forests. However loudly voiced or strongly 
held these views may be, they do not portray the reality of the 
management needs of public forests now or over the next 100 years. 
Today, the removal of timber and other active vegetative management 
efforts on federal lands before wildfires occur, coupled with sensible 
suppression actions when wildfires do occur, can lead to improvements 
in wildlife habitat; enhance watershed and ecosystem conditions; and 
reduce hazardous fuels. These active efforts can also address key 
issues associated with America's forests, grasslands and rangelands--
the protection of communities from catastrophic wildfire through the 
reduction of the harmful effects of destructive invasive species and 
pathogens.
    The need for action to restore our Nation's public forests and 
rangelands to long-term health has never been greater. Catastrophic 
fires are just one consequence of the deteriorating state of forest and 
rangeland health that now affects approximately 190 million acres of 
public land, an area triple the size of Oregon. Last year, wildfires 
burned about seven million acres of public and private lands across the 
Nation. This resulted in the destruction of over 800 primary residences 
and the evacuation of tens of thousands of people from hundreds of 
communities. Oregon alone saw nearly 1 million acres burned, well above 
the ten-year annual average of 308,000 acres burned for the entire 
State. In addition, wildfires in Oregon destroyed 131 structures and 27 
residences last year. Collectively, central Oregon (including the 
Deschutes and Ochoco National Forests and the BLM Prineville District) 
experienced 72,000 acres of forests and public lands burned, more than 
double the ten-year annual average. In addition to the direct costs of 
suppressing fire and the loss of property and infrastructure, the other 
economic impacts to small communities can be devastating.
    Although wildland fire activity so far this year has been less than 
the average of the last ten years, we have seen some indications of the 
potential for destructive wildfires. As the fire season pushes north we 
are continuing to see large fires in Idaho and Montana. Currently there 
are 4 large fires totaling over 26,000 acres on Federal lands in 
Oregon. While this fire season has not yet produced the severe and 
enormous fires Oregon experienced in 2002, the on-going drought coupled 
with a recent series of wet and dry thunderstorms have significantly 
increased the potential for fire activity. All indications are that 
given the current conditions, the potential for large and severe fires 
in Oregon continues to exist.
    An underlying issue is that many of our forests have become 
overgrown and unhealthy. We don't want to oversimplify--many forests 
are healthy, and some forest types were always dense. On the public 
forests, millions of acres adapted to frequent fires are at risk from 
wildland fires that could compromise human safety and ecosystem health.
    Ponderosa pine is a prime example. Historically, most ponderosa 
pine forests were relatively open, with a few dozen trees per acre. 
Today, they might have hundreds or even thousands of trees per acre. In 
a drought, all those trees can fuel a catastrophic fire resulting in 
the potential loss of homes, communities, municipal water sources, and 
wildlife habitat. It will take decades of action to restore those 
forests, provided our society is willing to focus on this issue and 
commit the needed resources.
    Federal forests and rangelands across the country are also facing 
unusually high threats from the spread of invasive species and insect 
attacks. Insects and pathogens have historically existed in our forests 
and rangelands. However, the frequency, extent, and timing of recent 
outbreaks are out of the ordinary. Changes in tree stand density, as 
well as in species composition and structure, due to decades of 
excluding or immediately suppressing fire, the lack of active 
management, and extended drought, are factors that have significantly 
affected insect infestation outbreak patterns. The result is the death 
of millions of trees across California, Utah, Arkansas, Michigan, 
Minnesota, the Mid-Atlantic States and the South. Further, the 
checkerboard pattern of land ownership in Oregon presents more 
challenges for federal land managers. Fires and insect infestations 
that begin on private or public lands can spread to the other quickly 
causing significant property damage and posing threats to public health 
and safety.

Healthy Forests Initiative
    Recognizing the existing crisis, President Bush proposed the 
Healthy Forests Initiative (HFI) in August 2002. This initiative is 
based upon a common-sense approach to reducing the threat of 
catastrophic wildfires by restoring forest and rangeland health. Our 
goal is to ensure the long-term safety and health of communities and 
natural resources in our care. Our responsibility is to ensure the 
long-term health of our forests and rangelands for the use, benefit and 
enjoyment of our citizens and for generations to come. The President 
directed Federal agencies to develop several administrative and 
legislative tools to restore deteriorating Federal lands to healthy 
conditions and assist in executing core components of the National Fire 
Plan, established in 2000. Since the President's announcement in August 
of 2002, the Secretaries have taken several administrative actions to 
implement components of HFI, which include the following:
    <bullet> Endangered Species Act Guidance--On December 11, 2002, 
the Fish and Wildlife Service (FWS) and National Oceanic and 
Atmospheric Administration Fisheries (NOAA Fisheries) issued joint 
guidance that allows multiple projects to be grouped into one 
consultation and provides direction on how to consider and balance 
potential short- and long-term beneficial and adverse impacts to 
endangered species when evaluating projects. The goal is to recognize 
that project-specific, short-term adverse impacts on species need to be 
weighed against the longer-term watershed level benefits to those and 
other species that such projects will achieve.
    <bullet> CEQ Memorandum & Model Environmental Assessment 
Projects--CEQ Chairman Connaughton issued guidance addressing the 
preparation of model environmental assessments (Model EA) for fuels 
treatment projects that improve administrative processes. These 
guidelines are now being applied on both Forest Service (FS) and 
Department of the Interior (DOI) agency model fuels-treatment projects. 
Some of these Model EA's are now out for public comment, including the 
BLM Rogue River Hazardous Fuels Reduction Project, located within the 
Hellgate Recreation Section of the Rogue National Wild & Scenic River. 
The purpose of the Rogue River Model Project is to reduce the hazardous 
fuels load on approximately 8,000 acres of public and private land 
comprising the Hellgate Recreation Section. There are approximately 190 
residences within this area. The proposal and analysis assume public 
participation, yet there is no obligation for a landowner to 
participate. Scoping responses have indicated a broad level of public 
support. On BLM-managed lands, contingent upon fire season work 
restrictions, project implementation is anticipated to start in the 
fall of 2003. The BLM Medford District Office anticipates completing 
this project within two years after beginning its work.
    <bullet> Appeals Process Reform--Both the United States Department 
of Agriculture (USDA) and DOI made rule changes designed to encourage 
early and meaningful public participation in project planning, while 
continuing to provide the public an opportunity to seek review or to 
appeal project decisions. This enables issues to be resolved earlier in 
the project planning process, allowing for a more expedited application 
of hazardous fuels reduction projects.
    <bullet> Categorical Exclusions (CE)--Both USDA and DOI have 
established new categorical exclusions, as provided under the National 
Environmental Policy Act, for certain hazardous fuels reduction 
projects and for post-fire rehabilitation projects. These new CEs 
shorten the time between identification of hazardous fuels treatment 
and restoration projects and their actual implementation on the ground.
    <bullet> Proposed Section 7 Counterpart Regulation--FWS and NOAA 
Fisheries have proposed Section 7 joint counterpart regulations under 
the ESA to improve Section 7 consultation procedures for projects that 
support the National Fire Plan. The proposed regulations would provide, 
in some situations, an alternative to the existing Section 7 
consultation process by authorizing the agencies to make certain 
determinations without project-specific consultation and concurrence of 
the FWS and NOAA Fisheries.
    The Consolidated Appropriations Resolution, 2003 (Public Law 108-
7), signed into law on February 20, 2003, contains stewardship 
contracting authority, which allows the FS and the BLM to enter into 
long-term contracts with the private sector, non-profit organizations, 
local communities, and other entities to help achieve important land 
management objectives. In FY 2003, the BLM will implement stewardship 
contracting on a limited basis. Two planned projects are in Oregon, one 
is in Medford and the other is in Baker City. The focus of the projects 
is to reduce extremely high fuel loads in the wildland urban interface 
and in bug-killed stands while also improving fish and wildlife 
habitat. Environmental analyses for portions of both projects are 
complete and project work could be started this fall. These projects 
will generate significant economic support to local communities in 
Oregon.
    Region 6 of the FS is moving forward to implement the expanded 
stewardship contracting authorities along with the 12 Pilot Stewardship 
projects in the Region. Nine of these are in Oregon. There are three 
projects on the Wallowa-Whitman National Forest and one project each on 
the Winema, Siuslaw, Rogue River, Deschutes, Willamette, and Siskiyou 
National Forests. Three projects are complete, four are under contract, 
and two will have contracts awarded this fall or winter. The completed 
projects and those under contract are estimated to have generated 
significant wages in the local communities while accomplishing forest 
health, fuels reduction, and watershed improvement treatments.
    The public input period for the joint agency guidance for long-term 
implementation of stewardship contracting closed on July 28, 2003. The 
agencies are completing formal analysis of the input for consideration 
in the development of final agency guidance which should be available 
sometime this fall.
    We believe these administrative actions will provide federal land 
managers with useful tools as they work to restore public forest and 
rangelands to a condition where they can resist disease, insects, and 
catastrophic fire.

BLM Eastside Oregon and Washington Forests
    BLM public domain forests in Oregon and Washington are concentrated 
east of the crest of the Cascade Mountains and comprise 223,000 acres 
of public domain forests. Due to fire, insect infestation, and disease 
we estimate that nearly 87 percent of these forestlands have been 
altered from their historic conditions and are at moderate to high risk 
of losing key ecosystem components, such as old forest characteristics, 
soil productivity, and sensitive species habitat.
    In December, 2002 BLM-Oregon issued an Eastside Forest and Woodland 
Management Action Plan for Oregon and Washington to address much needed 
forest health restoration needs. The Action Plan, developed as a 
supplement to the President's Healthy Forests Initiative, identifies a 
strategy for aggressively restoring these forestlands to a more stable 
ecological condition by reducing stand density through thinning, 
favoring species composition that more closely resembles historical 
conditions, reintroducing prescribed fire where practical, and making 
use of biomass energy opportunities where they exist. The Plan's goal 
is to create more stable forested ecosystems that are less vulnerable 
to fire, insects, and disease.

National Fire Plan
    The National Fire Plan's 10-year Comprehensive Strategy and 
Implementation Plan, adopted in August, 2001, by federal agencies and 
western governors, calls for reducing hazardous fuels through more 
active forest and rangeland management. The Plan was prepared in 
collaboration with county commissioners, state foresters, and tribal 
officials. It establishes a framework for protecting communities and 
the environment through local collaboration on thinning, planned burns 
and forest restoration projects.
    The FS and BLM completed the following actions associated with 
implementation of the National Fire Plan in 2002:
    <bullet> Awarded 38 grants in Oregon totaling approximately $5.5 
million to state agencies and local communities to perform hazardous 
fuels reduction projects, provide education and prevention programs, 
and to find uses for the by-products of hazardous fuels reduction 
projects. For example, John Day, Oregon, was provided $91,000 to 
complete an interface hazardous fuels inventory and a hazardous fuels 
public education program.
    <bullet> Allocated $1.9 million to 191 fire districts in Oregon. 
The funding was used for training, equipment purchase, and fire 
prevention activities on a cost-share basis. The town of Fossil, for 
example, was able to purchase a new pump, foam unit, and personal 
firefighting protective gear.
    <bullet> Conducted hazardous fuels reduction treatments on 190,232 
acres in Oregon. About 48 percent of the acres treated were within 
wildland urban interface areas. An example of these treatments is the 
Bly Mountain Interface Fuels Reduction Project which resulted in over 
4,000 acres of thinning, brush removal, slash piling and prescribed 
burning adjacent to BLM managed public lands.
    <bullet> Completed 86 projects covering nearly 71,000 acres of 
forest restoration and rehabilitation of burned areas in Oregon.
    <bullet> Awarded 30 Forest Service Economic Action Program grants 
to rural communities and businesses including the Ashland Watershed 
Protection Project. This cooperative venture includes the City of 
Ashland, the Forest Service, Oregon Department of Forestry and private 
landowners and has resulted in treatment to over 100 acres within the 
city limits.

Timbered Rock Fire
    The Timbered Rock Fire started on July 21, 2001, from a lighting 
strike and burned 27,000 acres in southwest Oregon, including 12,000 
acres of BLM-managed public lands, mostly in late successional reserve 
timber stands. Restoration and rehabilitation efforts are currently 
being analyzed in a draft EIS. In addition to supporting timber salvage 
opportunities, the EIS's proposed alternative analyzes actions designed 
to restore the area to late-successional forest condition. This would 
be done by improving roads and reducing sedimentation, increasing 
hazardous fuels reduction projects, and improving anadromous fish 
habitat. The public comment period for this project closes on October 
15, 2003. We hope to sign a Record of Decision in December 2003, which 
would allow for salvage operations and restoration activities to 
commence in the spring of 2004.

Biscuit Fire
    The Biscuit Fire burned nearly 500,000 acres at a cost of over 
$150,000,000 for suppression alone. Over 45 percent of the Siskiyou 
National Forest burned at varying levels of intensity and effect, 
including a complete re-burn of the 100,000 acre Silver Fire and all 
but a few hundred acres of the Kalmiopsis Wilderness. The Biscuit Fire 
left us with an important lesson, the need to treat hazardous fuels at 
the landscape scale.
    We have completed planning and decisions on 8 projects. 
Specifically, we have completed documents for road maintenance, 
immediate reforestation needs, special forest products, and hazard tree 
felling and removal. Through extensive cooperation and outreach, 
seedlings were planted on nearly 1,000 acres this spring, including 10 
acres with the local high school. Road crews are completing repairs on 
over 200 miles of road. Recreation trails are signed for hazards, and 
crews are working on 40 miles of trail. Hazard trees along roads are 
marked. Sales sold to date total 5.4 million board feet of timber.
    We will release a Draft EIS for salvage logging, fuels treatments, 
reforestation and all connected actions which will address five primary 
issues: 1) recover merchantable dead timber before its economic value 
is lost; 2) restore habitat for species that rely on older forests; 3) 
restore, maintain, and/or enhance fish and wildlife habitat; 4) reduce 
risks of catastrophic wildfire to nearby communities and to adjacent 
private lands; 5) learn, and share our knowledge, about large fires and 
fire recovery. Several alternatives are being evaluated including one 
that directly reflects the work of Dr. John Sessions of Oregon State 
University.
    Among our proposals is the construction and maintenance of an 
extensive network of Fuels Management Zones. These are linear features 
located along ridges and existing roads that are intended to provide 
safer, more defensible space for the use of prescribed fire and for 
fighting and containing wildfire. These fuel breaks will 
``compartmentalize'' the landscape, and reduce the chances of fires 
getting as large as the Biscuit Fire.
    We are also working with the research community to test how we can 
best re-establish and maintain late successional habitat, across the 
landscape, in dry forest types. We are testing three different 
approaches: 1) a low intensity approach; 2) a more intensive approach 
that includes our most aggressive economic recovery of dead timber; and 
3) the use of prescribed fire and salvage.

Costs
    There is no question that fighting these fires was expensive--the 
cost in FY 2002 for all wildfire suppression was almost $1.6 billion. 
We are in the process of establishing new procedures that will focus on 
cost containment strategies in suppressing wildfire and eliminating 
unnecessary expenses; establishing clearer financial management 
accountability of incident commanders and line officers; and providing 
for improved controls and incentives for suppression costs.

H.R. 1904
    As mentioned earlier in this statement, the Departments of 
Agriculture and of the Interior strongly support H.R. 1904. The bill 
sets out a flexible yet comprehensive approach to forest health and 
hazardous fuels reduction on our Nation's public rangelands and 
forested areas. H.R. 1904 provides more efficient procedures for USDA 
and DOI to plan and conduct hazardous fuels projects on up to 20 
million acres of federal land that are most at-risk from wildfires 
while preserving public input in agency decision-making. Projects would 
be selected through a collaborative process involving local, tribal, 
state, Federal, and non-governmental entities as described in the 10-
Year Comprehensive Strategy and Implementation Plan. H.R. 1904 will 
provide agencies with the latitude necessary to reduce the risk of 
damage to communities and municipal water supplies and at-risk federal 
lands from catastrophic wildfires.

Conclusion
    Mr. Chairman, the Departments of Agriculture and of the Interior 
are committed to working with Congress, State, local and tribal 
officials, and the public to advance common-sense solutions to protect 
communities and people, and to restore forest and rangeland health. We 
believe that H.R. 1904 provides the much needed authorities for the 
agencies to move forward with the President's Healthy Forests 
Initiative. We were encouraged to see prompt action by the House on 
H.R. 1904. We hope the Senate takes up the measure soon after it 
returns from the August recess. Thank you again for the opportunity to 
appear here today to discuss healthy forests and issues specific to 
central Oregon. We will be glad to answer any question you may have.
                                 ______
                                 
    The Chairman. Thank you. I thank the entire panel for their 
testimony. Chief Bosworth, in the last 3 weeks I have been in 
ten states in the west and have had the opportunity to visit a 
number of national parks and Forest Service lands, BLM lands, 
and it was somewhat surprising to me that one of the top two or 
three issues that was brought to my attention by the park 
superintendents, the forest managers and the mid-level managers 
throughout the west was the Healthy Forest Initiative. And 
every one of them took great pains to either point out areas 
that they had already had the opportunity to do work in or to 
point out areas where they desperately need to step in and do 
some work. And in the midst of being out in the middle in 
essence of what's fire season and seeing a number of fires that 
were burning throughout the west, I found it quite interesting 
that that is something that was on the minds of so many people 
that are on the ground, the guys that are doing the work on the 
ground. And I notice that when we had the presentation on 
what's happening with the local fire here, that she talked 
about areas that had been treated and areas that hadn't been 
and how that plays into their ability to actually fight these 
fires. What have you seen on a system-wide basis in terms of 
areas where you were actually able to do some work in the last 
year or two and what impact did that really have on fires?
    Mr. Bosworth. Mr. Chairman, there's a number of examples 
around the country that I have seen personally and other 
examples that I have been told about where we have done some 
treatment either with thinning and then followed up with 
prescribed burning or in some cases just prescribed burning 
where when a wildfire gets started and got to those areas, the 
fire dropped down to the ground and burned on the ground and 
gave our folks an opportunity to get a handle on the fire.
    The problem is that we haven't done enough of it and in 
many cases the areas treated just are simply too small yet. The 
way some of these fires burn if you have an area that you have 
treated that's 40 acres or 50 acres or 60 acres, that's a drop 
in the bucket. We have some that are five, six, seven, eight 
thousand acres that made a big difference.
    When I talked to Forest Service people, the firefighters as 
well as the line officers and other folks that are out there on 
the ranger districts and forests and the researchers that are 
following up and saying these things, I don't think there's any 
doubt in the Forest Service people's mind that if we do the 
thinning and then we reintroduce fire in these dry pine types, 
that makes a big difference. And if we can be more strategic in 
the location of those and we get more of the dollars to ground 
to get those treatments, most all of us believe it will make a 
big difference in those certain types, in those dry pine types 
particularly.
    The Chairman. I had an opportunity to see in the north rim 
of the Grand Canyon where they had several different--there's 
one forest but several different levels of protection that what 
been put in, and it was interesting to see what happened when 
they had a lightning strike and fire came in where they hadn't 
done anything--where the Forest Service which has a big part of 
the land on the north rim hadn't done anything, it just wiped 
it out and there was just bare ground left over. But in one 
area where it had been treated, there were still trees there. 
There were still green trees there. It was a very striking 
visual to actually see it and what had happened in that north 
rim.
    Mr. Bosworth. There's a number of cases where you can see 
it from the air and it particularly gives you a very good 
perspective of where it just looks like an island of green in a 
sea of black. If you go find out what was in that island of 
green, that was an area that we treated, we had done some 
thinning, and we maybe had done some prescribed burning. The 
fire still burned through there, but it burned on the ground. 
It did the way that fires are supposed to burn in that kind of 
country and that particular timber type.
    The Chairman. In that particular case at first I didn't 
even notice that the fire had gone through that one area. That 
as it was pointed out to me and I started to look, you could 
see that there was some black on the trees as it went through. 
But the trees were still alive versus the other areas where 
everything was just burned to the ground. There was nothing 
left.
    Mr. Shepard, you talk about some of the things that BLM is 
doing now in trying to keep up with the President's initiative. 
What is the biggest holdup in actually carrying this out on a 
system-wide basis?
    Mr. Shepard. There's a number of issues that we are trying 
to address. One of the problems we have had in BLM for a number 
of years our infrastructure has left us and we don't have the 
forest that we used to have. We don't have the current 
inventories. So we are trying to catch up in a lot of these 
ways to where our problems are. We are trying to address that, 
and we have in the President's budget. We have some additional 
money to put some more foresters on the ground. We found that 
when we have foresters in place, we have actually done a pretty 
good job of aggressively treating the problem.
    The Chairman. I thank all of you for your testimony. Want 
to recognize Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. I too want 
to thank you for your comments today. I direct this question to 
both the Chief and Mr. Shepard. And that has to do with 
probably one of the principal issues that the opponents raise 
regarding H.R. 1904 and that is whether it will allow for 
basically clear-cutting old growth stands. And I guess the 
first question I ask is how many definitions are there of old 
growth for forest types? In all seriousness there are some who 
say it is a diameter limit that we are after and yet that may 
not apply depending on what forest you are in and to define old 
growth, east side, west side, Doug fir versus pine. Can you 
speak to that issue?
    Mr. Bosworth. I can't answer the question about how many 
definitions there are because I know there's a lot. The point 
is my view is that the definition of old growth in the Pacific 
Northwest on the west side would probably be different than on 
the east which would be different than it would be in western 
Montana which would be different than it would be in Louisiana 
which would be different than what it would be in some parts of 
the northeast. To come up with a definition that we are going 
to apply across the United States is very, very difficult.
    I hear people referring to mature old growth. That they say 
anything over 80 years old is mature old growth and should stay 
out of that. Other people talk about three-, four-hundred-year-
old trees that have stands, timber stands, that have certain 
stand structure. For instance, some decayed trees that provide 
for certain characteristics. And so it really depends upon 
where you are at and what it is you are trying to achieve.
    Mr. Walden. So is it possible to come up with one 
definition that would apply nationwide to every forest?
    Mr. Bosworth. I can't see how that would make sense.
    Mr. Walden. Mr. Shepard?
    Mr. Shepard. I would agree. I don't see any one definition 
that would fit nationwide or even from forest to forest.
    Mr. Walden. Let me ask you this question too. Because as 
you go out in the forest, sometimes you will see one big 
healthy tree right next to one big diseased tree. If you had a 
diameter requirement that precluded you from cutting certain 
trees, certain diameter, wouldn't that therefore require you to 
leave the diseased tree standing next to the healthy tree?
    Mr. Bosworth. Well, that could be the case. Obviously that 
may be the case. On the other hand it may be you want to leave 
the diseased tree for some purpose as well. To me a diameter 
doesn't make sense because I don't believe there is any kind of 
science basis specifically for diameter limits. On the other 
hand a silviculturist or a fuel specialist or someone else 
looking at a specific area and having done some surveys and 
looking at that area, they may say a certain diameter limit 
would make sense for that one area that we carefully examine. 
But to try to say across a large area with some diameter limit 
is what you ought to use for fuels treatment, for example, to 
me it doesn't make sense.
    Mr. Walden. Now, in H.R. 1904 we say these hazardous fuels 
reduction programs need to be done in accordance with relevant 
forest plans. Wouldn't that take into account the local 
decisionmaking as far as managing each forest for its best use 
or its best ecology?
    Mr. Bosworth. Yes. The forest plans have been developed 
with a lot of public involvement. They are plans that define 
the direction that the forests are going both in terms of what 
kind of planned use we are going to make of it and what kind of 
standards and guidelines would apply. And they should be what 
guides us. They should be what guides us in our fuels 
treatments as well as other activities. I think it's 
appropriate to have this legislation point out that we still 
need to use the forest plans as a guide.
    Mr. Walden. Don't those relevant forest plans also already 
include old growth management standards and guidelines?
    Mr. Bosworth. They do.
    Mr. Walden. So those guidelines would stay in effect under 
this act?
    Mr. Bosworth. Those guidelines would stay in effect under 
this act. That's correct. That's nothing in there that changes 
under laws or the forest plans that I can see.
    Mr. Walden. Then let me ask you directly is it your intent 
as head of the Forest Service and yours with BLM, to the extent 
you have a direct supervision, is it your intent go out and cut 
old growth to pay for the hazardous fuels reduction treatment?
    Mr. Bosworth. No. That's not the point at all. I think 
where people get confused is I think there's some value in 
doing thinning and utilizing mainly small diameter material 
that you would remove in a thinning fuels treatment project. It 
may be trees that are six inches in diameter, eight, ten inches 
in diameter, and there may be something on occasion that may be 
larger than that because that's what needs to be removed in 
order to leave the right number of trees on the land.
    But it makes sense to utilize that material if you can, and 
that utilization would help pay for some of the treatment. It 
may not pay for all of it, but it may help. It may defer the 
cost to some degree. In a lot of cases we don't have the 
necessary infrastructure in terms of sawmills or other ways of 
utilizing materials in parts of the country. It's disappeared 
and you can't even get any value out of it because there's no 
one to purchase it. It would be good to be able to utilize that 
material rather than paying somebody to haul it out to a 
landfill or burn it onsite.
    Mr. Walden. Mr. Shepard?
    Mr. Shepard. The material that would be left, the material 
that we remove would be prescribed by our silviculturist, 
biologist and fuels managers to meet the objectives for that 
land, and that may include taking some big trees where that 
would be necessary to meet those efforts.
    Mr. Walden. Let me ask you another question and that is the 
debate over where this hazardous fuels work should be 
concentrated. As you know, this legislation calls for it to be 
done in wildland urban interface, in our watersheds, in areas 
of threatened and endangered habitat where the species recovery 
plan calls for this kind of hazardous fuels reduction to take 
place and then elsewhere. But those are the top priorities. 
There are others who argue that 70 to 80 percent of the work 
should be done within a half a mile of the communities. Is 
there a scientific basis for doing it only a half mile out? How 
does fire behave if that is as far as you go? Should we be out 
in the watersheds?
    Mr. Bosworth. There is some research that would show that a 
very short distance from a structure is what actually causes 
the structure to ignite. Maybe it's 40 feet or a hundred feet 
or something like that. People would argue you really don't 
need to do anything except for that close to a structure. And I 
would argue that what you have done is you have saved a house, 
but you have lost a home because a home is a whole lot more 
than just a structure. A home is your community. It's your 
watershed. It's your surrounding. It's your neighbors.
    And so I think what we need to be doing is we need to be 
focusing first on the areas close to the community so that we 
can do the kind of treatments and help protect the communities. 
But we also need to be working out of the communities over time 
into the municipal watersheds. There's other values that are 
natural resource values that are extremely important.
    I give you as an example in California last year we had a 
fire called the McNally Fire which threatened some of the giant 
sequoias. Those are natural treasures. And there are enough 
trees that grow up under those giant sequoias that if you got a 
fire into those trees, they would be like a ladder and go up 
and get into the crowns of the sequoias and could kill some of 
those huge trees. Is that what we want? I don't think so. I 
think what we need to be doing is thinning from below and 
thinning some of those smaller diameter trees out of there. And 
there may not be a home anywhere near there, but those giant 
sequoias are still worth trying to save.
    Mr. Walden. Mr. Shepard?
    Mr. Shepard. I think you have to look at the Hayman Fire, 
and I understand a witness is going to talk about that a little 
bit later. But you see the damage that was done--
    Mr. Walden. That's in Colorado?
    Mr. Shepard. Yes, in Colorado. The damage that was done to 
the Denver watershed by that fire was pretty incredible. So I 
think we have to look at our priorities, and the priorities 
that the Administration have placed are pretty similar to 
what's in H.R. 1904. And we need to concentrate on those areas, 
but we need to treat our important areas of the forests on a 
broader scale than just around the residents.
    Mr. Walden. Chief, the legislation requires that your 
agency only do one alternative under NEPA and one no action 
alternative, but it does not preclude you from doing additional 
alternatives if you thought that was necessary. Correct?
    Mr. Bosworth. That's correct. It allows us to limit it to 
one alternative if that's what we would like to do. I'd like to 
explain that a little bit. The way that we do these projects 
and the way we are moving to the future is an up-front 
collaborative way with the community. You sort of start off 
with a broad perspective looking at all sorts of options and 
choices, and when I am working with people you continue to 
narrow that down until you come up with a proposed action. And 
normally then we end up developing a whole bunch of 
alternatives to that proposed action which takes lot of time, 
it takes a lot of analysis, and often doesn't--may or may not 
add any value to the decisionmaking or to the disclosure to the 
public. The opportunity here would be that we have narrowed it 
down to a proposed action by working with the public, and we 
would be able to move forward if we chose with just the one 
alternative. If we believe there's good reason to have 
additional alternatives, nothing precludes that.
    Mr. Walden. Thank you. I have been asked by members of the 
media over the last few months if this bill were to become law, 
when could you take advantage of it? Would it apply to the next 
season? What kind of a timeframe do you think we are on?
    Mr. Bosworth. If legislation was passed and signed by the 
President, we would be able to move very quickly. My concern is 
that people might expect that because we have got that 
legislation out, we are not going to have any more fires next 
year. That's not going to be the case. It's going to take us a 
number of years of hard work with some help and tools like this 
in order to be able to achieve the kind of treatments that we 
need to achieve to make a big difference.
    It may take 15 years before we really start seeing 
significant differences, but the longer we wait, the worse it 
gets. We're working hard now, but I believe that we are losing 
ground. I believe that right now we probably have more acres 
each year going into conditions that are moderate and high risk 
than we are removing just because of how fast this is going.
    Mr. Walden. Can you describe for us too what it costs to 
fight a given fire versus what it might cost to go in and 
treat?
    Mr. Bosworth. It varies quite a bit, but I'm going to have 
Linda Goodman give you some specifics for some fires here and 
situations here in Oregon that I think are pretty good examples 
of what it cost.
    Ms. Goodman. Thanks, Dave. For the Link Fire that was here 
in Central Oregon and for the Clark Fire, the average cost per 
acre was $1,700 per acre and $2,500 per acre. To do a 
prescribed burn we have an average of around somewhere 
depending on whether it's close to urban interface $200 up to 
less than $1,000. So $200 an acre up to around $1,000 depending 
on again what kind of treatment we are doing. So those are 
rough estimates of our costs. You can see that it's much better 
for us to do prescribed burn or thinning than it is to fight 
the fire. Much cheaper.
    Mr. Walden. So $1,700 and $2,500 to fight the fires and 
$200 to $1,000 to do thinning or prescribed burn depending upon 
the type of treatment?
    Ms. Goodman. Right.
    Mr. Walden. Thank you very much. Mr. Chairman, that's all 
the questions I have at this time for our witnesses. Thanks 
again for your testimony.
    The Chairman. Thank you. Chief Bosworth, just before I 
excuse this panel, you mentioned in your opening statement that 
it's been the better part of a month and a half since we had a 
hearing in Seeley Lake, and as I am sure you are aware, shortly 
after we held that hearing that forest that surrounded where we 
had the hearing burned. And it was, I think, a real wake-up 
call to a number of members of the Committee who had been there 
and had the opportunity to see that beautiful area and to 
realize now that a good portion of it has now burned as a 
direct result of us not having the ability to get in there.
    Mr. Bosworth. I do realize that and I hope a lot of others 
realize that. It's a whole more reason why we need to move 
forward as quickly as we can. It's extremely frustrating for 
our folks in the field trying to do the kinds of treatments 
that need to be done so we can avoid some of those kinds of 
catastrophic wildfires and still not have the tools at hand to 
really do the job that needs to be done.
    The Chairman. Thank you. And I appreciate you and Ms. 
Goodman and Mr. Shepard making the effort to be here and 
participate in this hearing today. Thank you very much for your 
testimony. I'd like to call up our second panel of witnesses. 
On panel two we have Dr. Thomas Bonnicksen, Professor, 
Department of Forest Science, Texas A&M University; Dr. John 
Sessions, University Distinguished Professor of Forestry, 
Oregon State University; Mr. Daniel Dessecker, Senior Wildlife 
Biologist, Ruffed Grouse Society; Mr. Andy Stahl, Executive 
Director, Forest Service Employees for Environmental Ethics; 
and Mr. John Marshall, Assistant Director for External and 
Intergovernmental Affairs, Colorado Department of Natural 
Resources.
    Thank you. I welcome our second panel to testify today. I 
would like to remind our panel that your entire written 
testimony will be included in the record. If you can try to 
summarize your oral statement and hold it within 5 minutes. We 
do have the lights up here. The green light will stay on for 4 
minutes, the yellow light will come on when you have a minute 
to sum up, and then the red light will come on. When the red 
light comes on, I would appreciate it if you try to wrap it up. 
I would like to start with Dr. Thomas Bonnicksen.

          STATEMENT OF THOMAS BONNICKSEN, PROFESSOR, 
                  DEPARTMENT OF FOREST SCIENCE

    Dr. Bonnicksen. Thank you, Mr. Chairman. I will talk slow 
and say less so we can still be within 5 minutes. I am 
Professor of the Department of Forest Science at Texas A&M 
University. I am also affiliated with the forest foundation in 
California. I have been working on the restoration of America's 
forests and understanding and studying the history for about 35 
years now, and it's something that is near and dear to me is 
taking care of our forest heritage.
    I came up from San Bernardino a week ago where I am working 
on the beetle infestation problem where mortality now is 
approaching 90 percent overall and 100 percent on some ridges. 
It's a terrible tragedy that we have lost that forest. I fly 
here from Portland and I see a 10-mile long front of flame to a 
forest that never historically burned like the one I just saw. 
I know that our forests aren't healthy. We have had 50 million 
acres burned since 1990. We have lost 4,800 homes. And then, of 
course, the question is why?
    Well, we know all the basic answers. Fire suppression, 
removal of native Americans, logging, grazing, all the usual 
culprits. Let me tell you in my experience it now has gone 
beyond that. I studied forest restoration under Aldo Leopold's 
son, Starker Leopold. Restoration started with Aldo in 1934. So 
it's not a new idea. Also Harold Biswell and Ted Stone. In the 
'60s restoration was ahead of its time, but by the '80s it 
became a lot more accepted and two things happened. One, I co-
founded the society of Ecological Restoration in 1985, and that 
was about the same time that environmental activists stopped us 
from managing our forests. So we can say the usual culprits, 
but I think now since the mid '80s the real culprits are those 
who will not let us do what we have known for decades how to do 
which is restore health and diversity to our forests.
    So let me proceed with what I think are some of the myths 
driving this desire not to see us do the right thing and manage 
our forests. I will deal with old growth as a beginning. You 
asked how many definitions of old growth there are. I have 
found 75 in the scientific literature and the Forest Service 
manual has another 124. And I know there's more out there. I 
just don't want to look anymore.
    And the next question is how much old growth was there 
historically? One of the things that people think is that it 
covered the landscape. Well, I don't want to plug my book but I 
will. If you go on Amazon.com you will find America's Ancient 
Forests where I documented the 18,000 year history of North 
America's forests including Canada, and let me just give you 
some numbers, real numbers, scientific numbers. Mix conifer 
forest, 18 to 21 percent. Ponderosa pine forest along with 
forest in the south, 17 to 40 percent. Lodgepole pine in the 
Rocky Mountains, 30 percent. I could go on if you like, but 
some forests are more. Some forests are less. The point is it 
was not a sea of old growth.
    But yet what we have are groups that now want to stop us 
from managing and restoring our forests so that they can create 
a sea of old growth that never existed and which is leading us 
to the horrible devastation by insects in the south and by fire 
up here. Then they say these fires and infestations are 
natural. Well, if we were responsible for creating forests in 
which insects breed and fires rage, then it's not natural. We 
caused it. And what we are not doing is accepting our 
responsibility to correct our mistake.
    Let me give you another myth. Well, OK. Let's use 
prescribed fire. Nature used fire in the past. Let's use it in 
the future. It's impossible to use prescribed fire to correct 
this problem anymore. I can give you a litany of reasons from 
air pollution to the fact that fires escape on the average once 
every 20,000 acres burned. It is impractical, virtually 
impossible to use fire as a tool that we can manage our forest 
with.
    What about another myth. Thinning beyond 200 feet of a home 
adds no protection. Well, I don't know how many homes you have 
seen in the forest, but they are embedded in the forest. So if 
you thin 200 feet from a forest, there is no forest left 
basically. That's one thing. Unless you live in a concrete 
block house, no house embedded in a forest is safe. Period. I 
don't care what you do to it. You will make it safer, but you 
cannot make it safe.
    Think of it. If a hundred foot wall of flame approaches 
within 200 feet of a house, you can actually melt the windows, 
and firefighters know it can melt the headlights on their 
truck. It's just not going to work.
    How about the myth that fuel breaks--OK. We will concede a 
little bit. Maybe that will be good enough. We will have fuel 
breaks 600 feet maybe surrounding communities. The people who 
advocate this have never seen communities in forest. It would 
be like building a medieval castle wall around miles and miles 
and miles of houses. It wouldn't happen. We can't do that. It's 
too big and people are interspersed in the forest. Not only 
that, fuel breaks don't work.
    Now that's a pretty bold statement to make. But if you 
think about it, what's a fuel break? 40 to 60 percent can be 
covered. Almost everything underneath is removed so what you 
end up with are light flashy fuels that burn fast and you end 
up with more sunlight hitting the ground and you end up with 
higher densities in the understory. What does that mean? That 
means when the fire drops to the ground which it will in that 
fuel break, it will rush through it to the other side.
    So how do you keep that from happening? Well, you get a 
firefighter or a lot of firefighters in precisely the right 
part of that fuel break at precisely the right time. That's 
pretty tough to do when they are stretched thin on a big fire 
in the first place. Then you give them a little hose and you 
tell them when that one hundred foot wall of flame comes at 
you, I want you to squirt the hose on it. Well, first of all 
the first thing you do is say whoever told you to do that is 
crazy. Second of all you already know if you tried it once 
before that the water evaporates before it gets to the flames.
    So what good is the fuel break? If you can get there on 
time, its real value is that you can set a backfire relatively 
safely. So what does a backfire do? It burns the area the fire 
would have burned in the first place, and it says that what you 
are doing is sacrificing whole watersheds to protect the 
community. Now, that may be a worthy tradeoff, and that's what 
happened in (inaudible) when the fire was stopped and the 
community was protected by a back fire. But to me sacrificing 
the forest is a bad choice.
    So where does this lead us? We can't just let our forest 
grow thick, we can't use prescribed fire, we can't rely on 200 
feet of clearing, and we can't rely on fuel breaks. We have to 
deal with the real problem which is the forest itself. That has 
to be managed. And until that is managed, no community is safe 
and our forest will continue to be sacrificed to beetles and 
fire. I see I have a red light and I would like very much to 
answer any questions you have.
    The Chairman. Thank you. Before the gentleman begins I 
would just like to ask that our audience not respond positively 
or negatively to anything that is said. This is an official 
congressional hearing. The rules of the House require that we 
maintain decorum in the audience.
    [The prepared statement of Dr. Bonnicksen follows:]

Statement of Dr. Thomas M. Bonnicksen, Professor, Department of Forest 
 Science, Texas A&M University, Visiting Scholar and Board Member, The 
                 Forest Foundation, Auburn, California

INTRODUCTION
    My name is Dr. Thomas M. Bonnicksen. I am a forest ecologist and 
Professor in the Department of Forest Science at Texas A&M University. 
I am also a Visiting Scholar and Board Member of The Forest Foundation 
in Auburn, California. I have conducted research on the history and 
restoration of America's native forests for more than thirty years. I 
have written over 100 scientific and technical papers and I recently 
published a book titled America's Ancient Forests: from the Ice Age to 
the Age of Discovery (Copyright January 2000, John Wiley & Sons, Inc., 
594 pages). The book documents the 18,000-year history of North 
America's native forests.

UNHEALTHY AND DANGEROUS FORESTS
    Our national forests are growing older and thicker, some reaching 
astronomical densities of 2,000 trees per acre where 40-50 trees per 
acre would be natural. A forest can stagnate for many decades or even 
centuries under such crowded conditions. Consequently, plant and animal 
species that require open conditions are disappearing, streams are 
drying as thickets of trees use up water, insects and disease are 
reaching epidemic proportions, and unnaturally hot wildfires have 
destroyed vast areas of forest.
    Since 1990, we have lost 50 million acres of forest to wildfire and 
suffered the destruction of over 4,800 homes. The fires of 2000 burned 
8.4 million acres and destroyed 861 structures. The 2002 fire season 
resulted in a loss of 6.9 million acres and 2,381 structures destroyed, 
including 835 homes. These staggering losses from wildfire also 
resulted in taxpayers paying $2.9 billion in firefighting costs. This 
does not include vast sums spent to rehabilitate damaged forests and 
replace homes.
    The 2003 fire season is shaping up to be potentially as bad. Fire 
danger is very high to extreme in much of the Interior West, Northwest, 
and portions of California and the Northern Rockies due to overgrown 
forests, an extended drought, and insect damaged trees.
    Not only are fires destroying America's forests, bark beetles and 
other insects are killing trees on a scale never before seen. Forests 
in Arizona, the Northern Rockies, and California have been especially 
hard hit by beetles.
    I have been working in California's forests since the late 1960s. 
Never have I seen anything more dangerous than the overgrown, beetle-
ravaged forests of the San Bernardino and San Jacinto Mountains. I am 
concerned for the safety of people living in communities surrounded by 
these forests.
    About 90 percent of the pines will be dead when the beetles end 
their rampage. Then, forest communities like Lake Arrowhead and 
Idyllwild will look like any treeless suburb of Los Angeles. Whole 
neighborhoods are already barren of trees where houses once hid in a 
thick forest.
    This disaster affects everyone who cares about America's forests, 
but it is especially serious for the people who live and recreate in 
these mountains. Dead trees are falling on houses, cars, and power 
lines, and they could easily fuel a catastrophic wildfire. That's why 
arborists are cutting trees at a frantic pace, but they cannot keep up 
with the insects.
    Unfortunately, it is too late for the San Bernardino and San 
Jacinto Mountains. The original pine forest will be gone soon. We must 
start over, and we must do it fast before a wildfire turns what's left 
of the forest into brush and communities into rubble.

WHY FORESTS ARE UNHEALTHY AND DANGEROUS
    If we looked back two hundred years, 91 percent of our forests were 
more open because Indian and lightning fires burned regularly. These 
were mostly gentle fires that stayed on the ground as they wandered 
around under the trees. You could walk over the flames without burning 
your legs even though they occasionally flared up and killed small 
groups of trees. Such hot spots kept forests diverse by creating 
openings where young trees and shrubs could grow.
    Fires burned often enough in historic forests to clear dead wood 
and small trees from under the big trees, and they thinned some of the 
weak and diseased big trees as well. These were sunny forests that 
explorers described as open enough to gallop a horse through without 
hitting a tree. Open and patchy forests like this also were immune from 
monster fires like those that recently scorched Oregon, Arizona, 
Colorado, and California.
    Our forests look different today. They are crowded with trees of 
all sizes and filled with logs and dead trees. You can barely walk 
through them, let alone ride a horse.
    Now monster fires and hordes of insects are devouring trees with 
unprecedented ferocity because our forests are so dense. The role of 
drought in causing the problem is overstated. Drought contributes to 
the crisis, but it is not the underlying cause. There are simply too 
many trees.
    In the case of Southern California, the drought added more stress 
to an already unhealthy and dangerous forest, so bark beetles took 
control. They made the wildfire danger even more critical by killing 
trees, turning them into instant fuel. The smallest spark could cause a 
human catastrophe.
    Trees are so crowded they have to divide what little moisture is 
available in the soil. During normal rainfall years, the trees have 
barely enough moisture to produce the sap needed to keep out the 
beetles. They cannot resist attack during dry years. A healthy forest 
can survive a beetle attack during a drought with only moderate 
mortality. A thick and stressed forest cannot. Therefore, the drought 
triggered the insect epidemic, but it didn't cause it.
    We know how we got into this fix: forest management stalled because 
environmental activists, government officials, and politicians engaged 
in endless debates on how to look after our forests. Central to the 
debate is that environmentalists want thick forests. They lobbied for 
years to convert forests to old growth, which they define as dense, 
multi-layered, and filled with dead trees and logs. Meanwhile, trees 
grew and forests became thicker because they care nothing about 
politics. Now insects riddle our trees with holes and wildfires turn 
them into charcoal.
    The debates continue, and bark beetles have taken control of the 
San Bernardino and San Jacinto Mountains, as well as other western 
forests. It is time for people to shape the destiny of their forests 
instead of leaving the decision to mindless insects and the harsh 
indifference of wildfires.

MYTHS AND REALITIES ABOUT RESTORING HEALTHY FORESTS
    Some groups perpetuate myths about managing our national forests 
that they think help their cause. This does not serve the public 
interest. Our national forests are the people's forests. They belong to 
all of us and they should serve all of our needs. All of us also 
deserve to participate in making informed decisions about our forest 
heritage.
    Myth 1: Some groups argue that removing standing and fallen dead 
trees killed by wind, insects, or fire will not reduce the fire hazard.
    Experience and logic say that is false. Ask anyone with a fireplace 
if logs burn. If the dead trees are not removed, they will fall into 
jackstraw piles intermingled with heavy brush and small trees. These 
fuels become even more critical when they are dispersed among large 
live trees that escaped destruction. The logs will become bone dry by 
late summer, even earlier during a drought. Any fire that reaches these 
mammoth piles of dry fuel could unleash the full furry of nature's 
violence. This has happened before.
    The first Tillamook Burn in 1933 in Western Oregon blackened 
240,000 acres and dropped ash on ships 400 miles at sea. The second 
burn in 1939 brought the total to nearly half a million acres. However, 
the third fire in 1945 rushed through 173,000 acres, much of it in the 
earlier burns that were now filled with down timber and young trees.
    This time the fire destroyed everything, including nearly all the 
young trees and even seed stored in the soil. It took a massive effort 
in the 1950s and 1960s to restore the forest by planting 72 million 
seedlings, many of which were hand planted by school children and 
volunteers.
    We should not let this happen again. Acting quickly to rehabilitate 
a wind or insect ravaged forest, or a burned forest, creates long-term 
benefits that far outweigh any short-term changes that may be produced.
    For example, during the winter of 1995-1996, a windstorm caused an 
extensive blowdown of timber over about 30,000 acres in the area burned 
by the 1999 Megram Fire in northern California. This increased fuel 
loadings from 5-50 tons per acre to 100-300 tons per acre. The Forest 
Service accurately predicted that a wildfire of the size and type of 
the Megram Fire would occur after the blowdown.
    The Megram Fire burned 125,000 acres before it was controlled. 
Treated portions of the blowdown were less severely affected by the 
fire than untreated areas. The most effective treatment involved 
removing the majority of the logs. In addition, most damaged trees with 
less than 20 percent live crown were cut and removed. Then the slash 
was piled and burned, followed by understory burning. The remaining 
forest had 60 percent canopy closure, and numerous standing dead trees 
and logs were left for wildlife. This treatment reduced high severity 
mortality from the Megram Fire to 3 percent of the acres treated. In 
contrast, treatment without piling and burning increased the incidence 
of high severity mortality, while treatment with just piling and no 
burning cut mortality by nearly half.
    Myth 2: Some groups argue that massive beetle infestations and 
wildfires are a natural way for forests to thin and rejuvenate 
themselves.
    On the contrary, when human interference creates the conditions 
that allow beetles to thrive and fires to spread over vast areas that 
never burned that way in their known history, the resulting devastation 
cannot be natural. It is human-caused. Rather than deny our role we 
must accept responsibility for the crisis we created and correct the 
problem.
    Myth 3: Some groups argue that logging contributes to fire.
    This may have been true a century ago when branches and twigs often 
were left on the ground after harvesting. Current regulations and 
science-based forest management require removing such material. The 
result is a forest that is healthy and fire resistant rather than a 
fire hazard. Modern forestry has made huge strides in the last 50 
years, yet some groups continue to play on our emotions to advance 
their agendas--frequently advocating extreme positions like ``no-cut'' 
policies that have devastating effects on our forests.
    Myth 4: Some groups argue that thinning beyond 200 feet of a home 
adds no additional protection.
    First, many house are located among the trees, so clearing around 
the house means removing the forest in which they live. After all, big 
trees do burn and they drop flammable needles on roofs and decks. Even 
then, I would not live in such a house if thick forests filled with 
dead trees and piles of logs surround it. It matters little how clear 
the area around a house is if a 10-story wall of flame burning at 2,000 
degrees gets close to it. Certainly, people should reduce fuels around 
their homes because it does help a little. I just could not recommend 
it as the only defense against wildfire.
    Myth 5: Some groups argue that thinning narrow strips of forest 
around communities, or fuelbreaks, is more than adequate as a defense 
against wildfire.
    They think swarms of chewing insects and roaring wildfires coming 
in from surrounding public lands cannot penetrate these flimsy 
barriers. They could not be more mistaken.
    One obvious problem with fuelbreaks is that forest communities are 
spread out, with homes and businesses scattered over huge areas. It 
would be impractical, if not impossible, to create an effective thinned 
``zone'' to encompass an area so large.
    In addition, fuelbreaks are only valuable if firefighters are 
deployed who can attack the fire when it enters the area, drops to the 
ground, and moves along the forest floor. If no one is present to fight 
the fire in the fuelbreak, fire behavior studies show that the fire 
will accelerate through the cleared space--at ground level rather than 
through tree crowns, as in thick and overgrown forests--and erupt out 
the other side.
    Fuelbreaks won't protect anything unless they are fully staffed by 
firefighters at precisely the right time. That is highly unlikely in a 
big fire because there are just too few people available to fight the 
fire. Furthermore, there is always the danger of firefighters being 
trapped, which is another reason to avoid being in a fuelbreak during a 
monster fire.
    Even then, a catastrophic fire, roaring through hundreds of square 
miles of unthinned, overgrown forest is no respecter of narrow 
fuelbreaks. Fires often jump over railroad tracks and even divided 
highways. Furthermore, firebrands--burning debris--launched up to a 
mile in advance of the edge of a wildfire, will destroy homes and 
communities no matter how much cleared space surrounds them. In fact, 
the Los Alamos Fire of 2000--a prescribed fire that got out of hand--
burned many homes while sparing the surrounding thinned trees and other 
vegetation. The reason: Catapulted embers landed on roofs.
    Ironically, groups that want fuelbreaks instead of well-managed 
forests fail to realize that they are unnatural, sterile, and 
unsustainable. Removing all the little trees, and standing dead trees 
and logs, on a fuelbreak drastically reduces wildlife habitat. It also 
means there is no reproduction to replace big trees that die. Likewise, 
thinning the big trees on a fuelbreak to reduce the density of the 
canopy to improve fire resistant makes the forest even more unnatural. 
When done, a fuelbreak may resist crown fires, but it looks like a sea 
of telephone poles with nothing growing underneath.
    Like providing clearings around homes, fuelbreaks are a necessary 
part of a comprehensive community protection program. I just could not 
recommend them as the primary defense against wildfire.
    Myth 6: Some groups argue that there is no need to manage large 
areas of forest between communities.
    We must face the truth. Preservation does not work to solve the 
fire crisis because trees and shrubs keep growing and producing more 
fuel. Prescribed fire does not work because it is ineffective and 
unsafe in thick forests. Likewise, surrounding communities with 
fuelbreaks, and ignoring the area in between them, won't stop monster 
fires by themselves. Ultimately, a fuelbreak is most often used as a 
relatively safe place to set fires that deprive the wildfire of fuel. 
This means that we are sacrificing whole watersheds to fire and adding 
to the area burned.
    The reality is that there isn't any substitute for fixing the real 
problem. ``No-cut'' policies and total fire suppression have created 
forests that are dense, overgrown, tinderboxes where unnatural monster 
fires are inevitable. That means managing the forest to prevent fires 
in the first place. We have to restore our forests to their natural, 
historical fire resistance. Thinning and restoring the whole forest is 
the only way to safeguard our forest heritage, make our communities 
safe, and protect our critical water sources.
    Myth 7: Some groups argue that all fires are good and forest 
management is bad.
    They use this argument intentionally to divert public attention 
away from forests and focus it instead on communities. The truth is 
that today's monster fires are bad for forests and management is the 
only way to stop them.
    When a monster fire finally stops, it leaves a desolate landscape 
scarred by erosion and pitted with craters that formed where tree roots 
burned. The habitat for forest dwelling wildlife is destroyed, small 
streams are boiled dry, fish die and their habitat is smothered by silt 
and debris. The fire also bakes the soil so hard water cannot get 
through, so it washes away by the ton. All that is left are the 
blackened corpses of animals and fallen and standing dead trees. Often 
there are too few live trees left to even reseed the burn and the area 
soon becomes covered with a thick layer of brush that prevents a new 
forest from becoming established for many years.
    Historically, fire was part of America's forests. However, the 
monster fires we see burning nearly all of our forests today are 
unnatural. In the past, such fires burned only a few types of forest, 
and then only infrequently. Most forests burned often and gently, which 
kept them open and resistant to large fires.
    Furthermore, a historic forest was a mosaic of patches. Each patch 
consisted of a group of trees of about the same age, some young 
patches, some old patches, intermingled with bare spots and open 
meadows.
    It was a mosaic of patches. Patches of younger trees, bare spots, 
and open meadows served as natural firebreaks, while the weak and 
diseased trees under larger trees burned off frequently without turning 
into infernos.
    The variety of patches in historic forests helped to contain hot 
fires. Most patches of young trees, and old trees with little 
underneath did not burn well and served as firebreaks. Still, chance 
led to fires skipping some patches. Therefore, fuel built up and the 
next fire burned a few of them while doing little harm to the rest of 
the forest. Thus, most historic forests developed an ingenious pattern 
of little firebreaks that kept them immune from monster fires.
    Today, the patchiness of our forests is gone, so they have lost 
their immunity to monster fires. Fires now spread across vast areas 
because we let all patches grow thick, and there are few younger and 
open patches left to slow the flames. That is what is happening 
throughout the West.
    This is even more serious because monster fires create even bigger 
monsters. Huge blocks of seedlings that grow on burned areas become 
older and thicker at the same time. When it burns again, fire spreads 
farther and creates an even bigger block of fuel for the next fire. 
This cycle of monster fires has begun. Today, the average fire is 
nearly double the size it was in the last two decades and it may double 
again. Worst of all, these monster fires are converting natural fire-
resistant forests into unnatural and dangerous forests.
    Myth 8: Some groups argue that, if management is unavoidable, then 
deliberately set fires, or prescribed fires, are the best way to solve 
today's wildfire crisis.
    It is naive to believe we can have gentle fires in today's thick 
forests. Prescribed fire is ineffective and unsafe in such forests. It 
is ineffective because any fire that is hot enough to kill trees over 
three inches in diameter, which is too small to eliminate most fire 
hazards, has a high probability of becoming uncontrollable.
    Even carefully planned fires are unsafe. Each 20,000 acres burned 
in a fire is likely to produce one escaped fire. That means there could 
be as many as 243 escaped fires a year just from prescribed burning. 
That is unacceptable.
    Not only that, there are very limited opportunities to burn. All 
the factors, such as fuel moisture, temperature, wind, existence of 
defensible perimeters, and available personnel, must be at levels that 
make it relatively safe to conduct a prescribed burn. This happens so 
rarely that it would be impossible to burn large enough acreage each 
year to significantly reduce the fire hazard.
    Some groups also overlook what it was like when fires burned 
freely. Explorers often complained in their journals about the pall of 
smoke hanging over mountains and valleys. Today, health hazards and air 
pollution restrictions make extensive burning difficult and 
unpalatable. The public won't stand for smoky skies from prescribed 
fires and burned homes from inevitable escapes.
    Myth 9: Some groups argue that we should use taxpayer money to 
solve the wildfire crisis rather than involve private enterprise.
    A minimum of 73 million acres of forest needs immediate thinning 
and restoration to begin solving the fire crisis. Another 120 million 
also need treatment. Assuming that in most of these forests the same 
area burned once each 15 years on average historically, that means that 
each year about 4.9 million acres of seriously overstocked forest will 
have to receive an initial treatment. Subsequent maintenance treatments 
also must be done on a 15-year cycle since fuels will continue to 
accumulate. In short, the fuel reduction process will last forever.
    So, what would it cost to do the job right? Using average costs, 
and assuming that most if not all forests will require mechanical or 
hand treatment before prescribed burning, and assuming that prescribed 
burning will be feasible on all acreage, the total cost for the initial 
treatment would be $60 billion, or about $4 billion per year for 15 
years. Then it would cost about $31 billion for each of the following 
15-year maintenance cycles.
    In other words, an unending stream of tax money would be required 
to restore and sustain a healthy fire resistant forest. No one will pay 
this enormous cost.
    We cannot succeed without a partnership with the private sector 
because there is too little public money to do the job. That means 
private companies harvest and thin only the trees required to restore 
and sustain a healthy fire resistant forest. In exchange, they get to 
sell the wood and public expenditures are minimized. This is just 
common sense--why allow our forests to burn if we can use them in a way 
that also restores them?

RESTORING HEALTHY FORESTS IS ESSENTIAL
    Restoring healthy forests is the only effective way to address the 
fire crisis. However, fire is not the sole reason to restore our 
forests. Healthy, diverse, and ecologically sustainable forests of 
native species also support a wide range of wildlife and fish, protect 
water supplies, enhance local economies, and provide the public with 
scenic and recreational opportunities.
    Even so, the fire crisis must be resolved quickly and decisively. 
That means providing relief from excessive environmental and other 
regulations that impede the process of restoring healthy forests. We 
should not doom later generations to the unending cycle of destruction 
from fire and insects that we see today. Let's stop the debates, take 
action now, and do what is necessary to protect and restore our forest 
heritage.
                                 ______
                                 
    The Chairman. Thank you. Dr. Sessions.

STATEMENT OF JOHN SESSIONS, UNIVERSITY DISTINGUISHED PROFESSOR 
              OF FORESTRY, OREGON STATE UNIVERSITY

    Mr. Sessions. Thank you, Mr. Chairman. I am John Sessions, 
Professor of Forestry at Oregon State University. My testimony 
today concerns the Biscuit Fire and the opportunities to hasten 
forest regrowth and the costs of management delay. Protection 
of forested ecosystems and communities from effects of 
uncharacteristic wildfire involve three elements: One, creating 
forest conditions that reduce the risk of intense fires; two, 
aggressive control if wildfires occur that threaten life, 
property or resource values; and three, rapid restoration of 
forests or natural recovery of forests will be impeded by lack 
of seed source or competing vegetation. All three are 
important.
    I am going to concentrate on the rapid restoration of 
conifer dominated forests using the southwest Oregon Biscuit 
Fire as a case study. I will conclude with observations on 
making other southwest Oregon forests more fire safe.
    During the summer of 2002 the Biscuit Fire, the largest 
fire in recorded Oregon history, burned more than 400,000 acres 
over 54 days and cost more than $150 million in direct 
suppression costs. Almost all canopy was lost on more than 
200,000 acres. Most of the Biscuit was being managed for 
wilderness and old forest conditions to provide habitat for 
species that live in older conifer dominated forests and for 
recreation and watershed protection purposes.
    I wish to make seven points today regarding the Biscuit. 
Point one, the natural recovery of large and intensively burned 
areas of dry forest to mature conifer dominated forest in 
southwest Oregon is slow and uncertain. On dryer sites with 
large distances to seed trees naturally seeded areas will 
develop slowly and restocking by conifers may require a hundred 
years or more.
    Point two, well-established silvicultural techniques can 
hasten conifer forest regrowth. We have learned through $25 
million in research and more than 20 years experience that we 
can successfully plant conifers and with control of competing 
vegetation to double conifer growth rates. This can 
substantially reduce the time necessary to regrow a conifer 
dominated forest with large tree characteristics which is 
precisely the forest conditions called for in the northwest 
plan for much of the burned area.
    Point three, conifer regeneration costs rise rapidly as a 
function of time since wildfire. Immediately following intense 
fires conifer forests can be re-established at one quarter to 
one eighth the cost that will be required if planting is 
delayed 5 years. We estimate the cost for replanting intensely 
burned conifer forests outside of wilderness on the Biscuit 
will increase from $28 million in 2004 to almost $150 million 
in 2007. The use of herbicides could substantially reduce the 
establishment costs and increase forest restoration success.
    Point four, standing fire killed trees contribute to future 
fire risk. Significant concentrations of dead and dying trees 
in the Biscuit area will leave the landscape prone to large and 
intense wildfires for at least 60 years into the future further 
jeopardizing any potential for the forest to return to mature 
conifer dominated forest.
    Point five, salvage value of standing fire killed trees 
declines rapidly. Based on studies throughout the west, we 
estimate that approximately 22 percent of the fire killed 
volume that existed immediately after the fire has already been 
lost to deterioration, and by 2007 only volume in the lower 
logs of the larger trees will have any economic value.
    Point six, time is not neutral. The window of opportunity 
to rapidly restore these conifer forests is closing. Typical 
NEPA and sale preparation procedures now take up to 2 years. 
For green timber sales this time investment is reasonable. 
After a wildfire, however, the cost of delay are extreme. Green 
timber may increase 2 percent to 6 percent or more in volume 
and value during the NEPA process. But after a wildfire, fire 
killed trees will lose more than 40 percent of their value 
during the same period, and delays and subsequent forest 
regeneration will further increase costs.
    My concluding point. Action can be taken to make other dry 
forests more fire safe. To avoid the kinds of actions described 
in the Biscuit report, dense stands will need to be thinned and 
surface fuels will need to be treated ahead of fires. The best 
most ecologically sensitive and cost effective forest 
restoration after fire is to have forest conditions before the 
fire such that natural recovery under a normal fire regime is 
the best choice. Thank you for the opportunity to provide 
testimony.
    The Chairman. Thank you.
    [The prepared statement of Mr. Sessions follows:]

   Statement of John Sessions, University Distinguished Professor of 
  Forestry and Stewart Professor of Forest Engineering, Oregon State 
                               University

Introduction
    Mr. Chair, I am John Sessions, University Distinguished Professor 
of Forestry and Stewart Professor of Forest Engineering at Oregon State 
University. I have advanced degrees in civil engineering, forest 
engineering and a PhD in forest management. I have been teaching and 
doing research in forest planning and transportation planning at Oregon 
State University for almost 20 years. I also provide strategic planning 
support to the Oregon Department of Forestry (ODF) on the Tillamook and 
Elliott state forests.I I have prior experience in harvesting 
operations and management with the forest industry and 10 years 
experience with the USDA Forest Service at the district, forest, 
regional office, research station and Washington Office levels. I have 
provided planning advice and services to companies and agencies in 16 
countries on five continents. Specific experience relevant to my 
testimony includes hot shot crew fire operations experience, forest 
planning and fire modeling on the Congressionally mandated Sierra 
Nevada Ecosystem Project, the Applegate Project, and currently the 
Jackson County Wood Utilization and Fire Risk Reduction Project. 
Recently I was lead author of a study on management options on the 
Biscuit Fire that originated with a request by the Douglas County 
Commissioners, concerned about the large wildfires that occurred in 
southwest Oregon during 2002.
    Protection of forested ecosystems and communities over time from 
uncharacteristic wildfire effects involves (1) creating forest 
conditions that reduce the risk of uncharacteristically intense 
wildfire effects and change the behavior of fires so they are easier, 
safer and less costly to manage, (2) aggressive control if wildfires 
occur under uncharacteristic conditions and threaten life, property or 
resource values, and (3) rapid restoration of forests that burn with 
such intense effects that natural recovery of forests will be impeded 
by lack of seed source or competing vegetation. All three are 
important. I am going to concentrate on the rapid restoration of 
conifer-dominated forests in fire-prone landscapes after 
uncharacteristically intense wildfire in order to describe the 
significant ecological and economic costs that can result from 
management delays in decision-making and implementation. I use the 
southwest Oregon Biscuit Fire of 2002 as a case study.
    During the summer of 2002, the Biscuit Fire, the largest fire in 
recorded Oregon history, burned more than 400,000 acres over 54 days 
and cost more than $150 million in direct suppression costs. Most of 
this land was being managed for wilderness and old forest conditions to 
provide habitat for species that live in older conifer-dominated 
forests and for recreation and watershed protection purposes.
    The six points I will make are:
    1) natural recovery of large, intensively burned areas of forest 
in southwest Oregon to mature conifer-dominated forest is slow and 
uncertain
    2) well-established silvicultural techniques can hasten conifer 
forest regrowth
    3) conifer regeneration costs rise rapidly as a function of time 
since wildfire
    4) standing fire-killed trees contribute to future fire risk
    5) salvage value of standing fire-killed trees declines rapidly
    6) the window of opportunity to rapidly restore conifer forests is 
closing

Natural Recovery
    Historically, large areas of conifer forests that burned light to 
moderate in intensity reseeded naturally. Where seed is readily 
available and site conditions are conducive to Douglas-fir, the most 
common conifer in the Biscuit area, natural stands begin with seedfall 
of 100,000 or more seeds per acre yielding more than 1000 seedlings per 
acre. Over time, through inter-tree competition, the new forests self-
thin themselves to often fewer than 100 trees per acre by age 160. Seed 
crops occur naturally at irregular intervals. Most conifer seeds are 
wind dispersed and the majority fall within one tree height; 90% within 
two tree heights with some seeds being found at distances of 800 feet 
or greater. Given that a seed falls, the chance of it developing into a 
successful seedling is less than one in a hundred.
    On drier sites, with large distances to seed trees, naturally-
seeded areas may develop slowly and restocking by conifers may require 
100 years or more. Thus, natural recovery to the pre-fire conifer-
dominated forest can be a slow process. Although Douglas-fir is the 
most common conifer in the Biscuit fire area, other conifers also 
occur. Three important conifers in the area, Port-Orford-Cedar, Sugar 
Pine and Western White Pine, are threatened by non-native diseases. 
Disease resistant strains have been developed. Nature, alone, will not 
guarantee the long-term survival of these species without planting 
disease resistant stock.

Hastening Conifer Forest Regrowth
    By far, the most significant problem facing young conifer 
regeneration in the southwest Oregon region is competing vegetation. 
Following wildfire, shrubs and hardwoods reoccupy sites rapidly from 
seed stored in the soil and scarified by the fire and from sprouting. 
At lower elevations, grass can aggressively reoccupy sites. All three 
are vigorous competitors to conifers. Grasses and shrubs also provide 
habitat for birds and seed-eating rodents. Much of the conifer-
dominated forest that burned in the Biscuit fire was established during 
the waning years of the Little Ice Age (1800-1850). Current and likely 
future climates are more favorable to root-sprouting shrubs and 
hardwoods than when the burned forests originated. With limited amounts 
of soil moisture, competition from woody and herbaceous vegetation 
greatly reduces the survival and growth of conifers.
    At the request of community leaders in the late 1970's, a major 
cooperative research and technology transfer effort called the Forestry 
Intensified Research Program (FIR) was initiated by Oregon State 
University and USDA Forest Pacific Northwest Research Station, with 
strong support from Senator Mark Hatfield and Congressman Les AuCoin. 
The ensuing basic and applied research greatly expanded our knowledge 
of forest ecosystems in the region and identified silvicultural 
practices for successful reforestation after wildfire or timber 
harvests. Some experimental treatments have now been continuously 
monitored for 23 years. It has been demonstrated that rapid planting of 
conifers after wildfire can have more than a 90% success rate, and with 
control of competing vegetation, it is possible to double conifer 
diameter growth rates. This can substantially reduce the time necessary 
to regrow a conifer-dominated forest with large tree characteristics, 
which is precisely the forest conditions called for in the Northwest 
Forest Plan for much of the burned area. A tree's resistance to death 
by fire is related strongly to its diameter and height to the live 
crown. The faster the tree can grow and the larger its diameter the 
greater its chance of survival.
    In the absence of human assistance, we estimate that the larger 
conifer trees (>18 inches diameter) that provide much of the character 
of mature conifer forest and most of the habitat for old-growth-
dependent wildlife will take much longer to grow. On many sites, it 
will take 50 years or more to supplement the surviving larger trees, 
even with prompt regeneration, and up to 100 years to approach pre-fire 
conditions for 18-inch or larger trees. Without planting and subsequent 
shrub control, it could take more than 100 years to even re-establish 
conifer forests that will be anything like the pre-fire forests.

Conifer Regeneration Costs
    As an outgrowth of the FIR Program and related regeneration studies 
in the Northwest, OSU researchers have estimated (1) the initial cost 
of a variety of regeneration options, (2) the declining probability of 
success related to time, and (3) the differences of success on north- 
versus south-facing slopes. Immediately following intense fires, 
conifer forests can be re-established at one-quarter to one-eighth the 
cost that will be required if planting is delayed five years. Three 
important conclusions can be drawn from examining regeneration costs: 
(1) the most cost-efficient method of establishing conifers is 
immediate regeneration; (2) planting delays beyond the first three 
years (or less with aggressive sprouting) can substantially increase 
costs through poor survival and high restocking costs if competition 
from weeds and shrubs is not adequately addressed; (3) when delays are 
unavoidable, herbicides for site preparation and release will 
dramatically reduce costs of establishment over other reforestation 
options. We estimate that the cost for replanting the conifer forests 
on national forest lands within the Biscuit fire outside of Wilderness 
and outside of the low-productivity serpentine-derived soils will 
increase from $28 million in 2004 to $148 million in 2007. The use of 
herbicides could substantially reduce the out-year establishment costs 
and increase forest restoration success.

Future Fire Risk
    The adage ``lightning never strikes twice in the same place'' is 
not true. Lightning frequency tends to be higher in certain areas, such 
as southwestern Oregon. Although we do not know when fires will start, 
we do know what conditions create fire hazards. These conditions 
include (1) availability of snags that are easily ignited and, when 
combined with wind, can result in spot fires up to 1 mile away; (2) 
forest litter (fine fuels) and shrubs that provide opportunities for 
rapid fire spread; (3) down wood derived from decaying dead trees that 
contributes to high-intensity fires; (4) tree canopies that extend to 
the ground, providing fuel ladders to the tree crowns; (5) dense forest 
canopies that provide conditions for spread of crown fire; and (6) lack 
of access that can delay or prevent suppression. All of these 
contribute greatly to the difficulty in developing control strategies 
for new fires.
    We estimate there is an average of more than 160 fire-killed trees 
per acre in the Biscuit fire area. These trees will fall over time and 
create small and large logs that, while providing habitat for many 
different species and slowly returning organic matter to soils, also 
will fuel the intensity of future fires. We estimate that high numbers 
of snags will persist for several decades and that down wood 
accumulations on the forest floor will grow as snags fall and/or 
deteriorate, reaching maximum levels in 40 years and remaining at those 
levels for several decades. The numbers of snags and amount of down 
wood will be higher in more severely burned areas and lower in less 
severely burned areas, but are indicative of the trend. Significant 
concentrations of dead and dying trees in the Biscuit area will leave 
the landscape prone to large, intense wildfires for at least 60 years 
into the future, further jeopardizing any potential for the forest to 
return to mature conifer dominated forest.

Salvage Value
    If decisions are made to assist nature in forest recovery and 
reduce future fire and insect risks, actions could involve the removal 
of some fire-killed and fire-stressed trees. This is often referred to 
as salvage logging. We estimate that as much timber was killed in the 
Biscuit Fire as is harvested in the state of Oregon in a year, and is 
comparable to the entire annual export of timber producing countries 
such as New Zealand and Chile. Much of the timber in this condition 
that is located outside of designated Wilderness is accessible and 
could provide funds to offset restoration costs. Past experience 
indicates that the recovery value of fire-killed timber will decrease 
as trees deteriorate from checking, fungal decay, and woodborer 
activity. Based on studies throughout the West, we estimate that 
approximately 22% of the fire-killed volume that existed immediately 
after the fire will be lost during the first year and by the fifth 
year, only volume in the lower logs of the larger trees will have 
economic value. By the summer of 2003, we estimate that the economic 
loss due to timber deterioration will already be in the tens of 
millions of dollars.
    In areas of limited access such as the Biscuit fire area, 
helicopter logging provides an opportunity to quickly remove fire-
killed timber with little soil disturbance, and it can be done without 
the construction of any new roads, thus keeping roadless areas, 
roadless. Oregon is home to the majority of helicopter logging capacity 
in North America and the capacity exists to remove more than 2 million 
board feet per day. Helicopters were used to salvage significant 
volumes in the 1987 Silver Fire (within the Biscuit fire area) and the 
Rodeo-Chediski fire (White Mountain Apache Reservation, Arizona, 2002). 
Logs from fire-killed trees at the Slater Creek Salvage Sale (Boise 
National Forest, Idaho, 1993) were flown as far as 4 miles.

Time is Not Neutral
    Typical NEPA and sale preparation procedures now take up to 2 
years. For green timber sales, this time investment may be reasonable 
given the costs and benefits of the proposed actions. After wildfire, 
however, the costs of delay are extreme. Green timber may increase 2%-
6% in volume and value over the 2-year plan preparation and decision- 
making period. But, after a wildfire, fire-killed trees will lose more 
than 40% of their value during the same period, and delays in 
subsequent forest regeneration will further increase costs (Figure 1).
    Time is not neutral. If society or agency managers do not choose to 
expedite post-Biscuit-fire restoration so that action can begin by 2004 
and end by 2006 or 2007, then nature alone will determine the future 
habitats in as much as 400,000 acres of burned federal forests (nature 
alone will already determine the future of ecosystems in the 153,000 
acres burned inside the Kalmiopsis Wilderness Area). Without human 
intervention on the most intensely burned areas, future fire-burned 
landscapes, regardless of congressional or administrative intent, will 
likely be dominated by cycles of shrubs, hardwoods, and fires for a 
long time.

[GRAPHIC] [TIFF OMITTED] T9089.001

                                 ______
                                 
    The Chairman. Mr. Dessecker.

   STATEMENT OF DANIEL DESSECKER, SENIOR WILDLIFE BIOLOGIST, 
                     RUFFED GROUSE SOCIETY

    Mr. Dessecker. Thank you, Mr. Chairman. My name is Dan 
Dessecker. I am a senior wildlife biologist for the wildlife 
conservation organization called Ruffed Grouse Society. Too 
often in the past we have chosen to not manage our nation's 
forests for fear of placing at risk one or another species of 
forest wildlife. Unfortunately, these decisions failed to 
adequately consider the risks posed by inaction. Risk becoming 
increasing evident and a classic example forest is the Biscuit 
Fire Dr. Sessions just provided an excellent summary on.
    The Biscuit Fire burned 69,000 acres of critical habitat 
for the federally endangered northern spotted owl. This 
included 24 percent of all known nest sites in the Siskiyou 
National Forest. 49 nest sites. Many of these were located in 
what we called late successional reserves. These areas were set 
aside under the Northwest Forest Plan for ``protection'' from 
what was seen at that time to be the greatest threat to these 
areas that being active management. Obviously the Biscuit Fire 
makes us rethink that assessment.
    In 2002 in the southwestern part of the country more 
critical habitat for the federally endangered Mexican spotted 
owl was burned, and that was affected over the last decade 
through active forest management. Our well-intentioned efforts 
at species protection have obviously been substantially less 
than entirely successful. To protect at risk ecosystems and 
safeguard wildlife population, we must identify and create 
conditions wherever they exist, adjacent to communities, back 
country landscapes, wherever. Proposals to limit treatments to 
the wildland urban interface are both shortsighted and 
ecologically baseless. We must allow treatments on all 
landscapes, not simply those adjacent to communities.
    And this is one of the real strong points of H.R. 1904 
because it explicitly authorizes treatments based on need, not 
on location. From a purely ecological perspective or at from 
the perspective of this biologist, it is disappointing that 
where to treat is a point that's even being debated. And I 
think it allows us to ask those who would suggest that 
treatments within the wildland urban interface will suffice, we 
need to ask these folks are ecosystems outside of the interface 
not at least as ecologically important as those within?
    Now, in July of this year 22 wildlife conservation 
organizations from across the country representing four million 
members sent comments to the Senate and provided 
recommendations as to what should be included in the forest 
health legislation, and one of these recommendations was an 
explicit call for treating lands outside the wildland urban 
interface where appropriate to safeguard wildlife populations. 
If the primary goal is to protect in peril ecosystems and 
associated wildlife, we must treat hazardous conditions where 
we find them.
    Although I am from northern Wisconsin, I truly enjoy 
working in Oregon and elsewhere in the west throughout the 
year. It's important to remember that we have 384 million acres 
of forest east of the Great Plains. Over 52 percent of the 
forest in the U.S. Are east of the Great Plains. Of this 195 
million acres are dominated by oak. Our oak forests are 
declining throughout the eastern United States primarily 
because of two factors. We have eliminated natural fires from 
the landscape, and we are not adequately managing these forests 
at this time.
    Oaks dominated the eastern forest landscape for the past 
six to nine thousand years. Historically natural fires 
sustained our oak community by eliminating competition and by 
removing all or some of the forest canopy which allowed 
sunlight to reach the young oak allowing the oak to grow and 
indeed to maintain control of the stands. Oaks produce acorns, 
and acorns for many years are the very foundation for the 
wildlife food chain. Significant loss of oak forest in the 
eastern United States would be devastating to many species of 
game and wildlife because we as a society have interrupted 
natural disturbance regimes. We are literally watching the face 
of our eastern forest change before our very eyes. Sounds 
familiar, doesn't it? Yet because these changes are slow and 
readily visible only to the relatively trained observer, 
there's extremely little discussion of this loss of oak outside 
of professional circles.
    In conclusion, to effectively restore forest health and 
safeguard forest wildlife populations, we must keep two 
considerations in the forefront of our minds. One, we must 
treat hazardous conditions where we find them. And two, as we 
make management decisions, these decisions must balance short 
term risk to wildlife of proposed actions with a long term risk 
of inaction. Thank you for your time.
    The Chairman. Thank you.
    [The prepared statement of Mr. Dessecker follows:]

     Statement of Daniel R. Dessecker, Senior Wildlife Biologist, 
                         Ruffed Grouse Society

    Mr. Chairman:
    Man's disruption of natural disturbance regimes is arguably the 
single greatest threat to sustaining healthy forest ecosystems across 
the United States. The effects of catastrophic fires fueled by 
unnaturally dense vegetation have been well documented and are 
increasingly evident. Fires of uncharacteristic severity threaten the 
very existence of forest ecosystem components, including forest 
wildlife, that evolved through millennia in response to conditions 
wholly different from those that exist today.
    We can't turn the clock back a century or more to undo what man has 
done through well-intentioned efforts to ``protect'' our nation's 
natural resources. However, we can learn from past mistakes and 
recognize the critical role periodic disturbance plays in shaping our 
forest landscapes.
    Because of society's presence throughout, and influence on the 
forests of the western and eastern United States, it is generally not 
possible to allow natural fires to return to historic levels. 
Therefore, the active management of forest vegetation through 
prescribed fire and mechanical and other treatments is essential to 
help ensure long-term forest health and ecosystem integrity.
    Proposals to limit restoration activities to arbitrarily delineated 
zones surrounding rural communities, commonly referred to as the 
wildland/urban interface (WUI), are shortsighted and will not secure 
the health of our nation's forests. Proponents of such proposals must 
consider whether healthy, functional ecosystems outside of the WUI are 
as important as those within. Out-of-sight out-of-mind is not a solid 
foundation for sound resource policy.
    Limiting restoration activities to the WUI will pose a new series 
of problems by increasing the likelihood of human/wildlife conflicts. 
Thinning projects increase the amount of sunlight and moisture that 
reaches the forest floor. This in turn increases the production of 
succulent herbaceous forage for ungulates such as elk and mule deer. 
Migratory herds of elk and mule deer will find treated landscapes 
attractive as wintering areas, as will the large predators that prey 
upon these herds. Conflicts are inevitable as high-density wildlife 
populations compete for space with rural communities, competition that 
will occur literally in our own back yards.
    We must treat hazardous fuel conditions where we find them. The 
Biscuit Fire in southwest Oregon provides an example of the 
ramifications to wildlife of our failure to do so.
    During the summer of 2002, the Biscuit Fire consumed 500,000 acres 
in southwest Oregon. This total included 160,000 acres of Late 
Successional Reserve, lands set aside to ``protect'' them from active 
management, which was presumed to be the greatest threat to wildlife of 
old forests. As a result, 69,000 acres of critical habitat for the 
northern spotted owl was burned and 63% of this acreage experienced > 
50% canopy mortality, thereby significantly reducing its value as 
spotted owl habitat. The burn area included 49 known spotted owl nest 
sites, 24% of all known nest sites on the Siskiyou National Forest.
    It is not possible to assert with absolute certainty that 
mechanical thinning or other forest health restoration treatments would 
have negated the loss to the local population of spotted owls from the 
Biscuit Fire. However, neither is it reasonable to suggest that such 
treatments would have had no benefit. The Biscuit Fire offers a classic 
example of the need to balance the short-term risk to forest health 
from the implementation of active management and the long-term risk 
associated with the failure to do so.
    Like those in the West, the forests of the eastern United States 
are also changing as a result of man's disruption of natural 
disturbance regimes.
    Oak forests have dominated much of the East for the past 6-9,000 
years. Although recent trends vary by region, oak forests are declining 
through much of the eastern United States.
    Oaks, of course, produce acorns. Acorns provide food for many 
species of forest wildlife. In some years, acorn production is the very 
foundation of the wildlife food chain. The black bear, wild turkey, 
white-footed deer mouse and the mammalian and avian predators that prey 
on small mammals all thrive when acorn crops are abundant. As oaks 
decline in abundance, so too will this important food source and the 
wildlife it supports.
    Historically, fires likely played a significant role in maintaining 
oak forests. Young oak seedlings and saplings can survive periodic 
fires, whereas maples and other thin-barked tree species that compete 
with oaks for growing space are typically killed by fire. In addition, 
historic fires in oak forests killed some or many of the canopy trees, 
thereby increasing sunlight penetration to the forest floor. The 
combined effects of fire; reducing competition and providing additional 
sunlight for young oaks allowed this genus to long remain dominant on 
many sites throughout the East.
    By precluding natural fires and limiting the implementation of 
active management as a partial surrogate for fire, we are placing in 
doubt the future of oak forests and changing the face of our eastern 
forest landscape. As stated by Healy et al. (1997), ``The net result'' 
may be that the genus that dominated a vast ecosystem for thousands of 
years will be reduced to a minor component within a century.''
    The virtual elimination of fires in the East has not only 
complicated efforts to sustain oak and some pine forests, it has 
hampered the establishment of important young forest habitats and 
associated forest wildlife. Young forest habitats are dominated by a 
dense growth of shrubs and small trees that are free to flourish when 
the canopy of a mature forest is removed by fire, mechanical treatment, 
or some other disturbance.
    These habitats support a suite of wildlife species that do not 
exist in mature forest or exist only at very low population densities. 
Wildlife that rely upon young forest habitats include the ruffed grouse 
and American woodcock, two important game species pursued by almost one 
million sportsmen and sportswomen each year in the eastern United 
States. In addition, many types of nongame wildlife require the 
protection from predators afforded by thick, young forest habitats. The 
mourning warbler, field sparrow, yellow-breasted chat, and the golden-
winged warbler (classified by the U.S. Fish & Wildlife Service as a 
species of highest conservation priority), all nest almost exclusively 
in shrub-dominated or young forest habitats. These and many other 
wildlife species that require young forest habitats are declining in 
the eastern United States, as these habitats become increasingly rare.
    Forest inventory data document that young deciduous forest habitats 
(<20 years old) have declined by 41% over the past 2-3 decades in the 
eastern United States. Exceptions to this general trend include 
Minnesota and Maine where significant active forest management has 
occurred over the past 2 decades resulting primarily from the 
commercial regeneration of mature aspen and birch forests.
    Breeding Bird Survey data for the eastern United States from the 
U.S. Fish & Wildlife Service show that 50% of the bird species that 
nest in shrub-dominated or young forest habitats have decreased since 
the Survey was initiated in 1966, whereas only 24% of the bird species 
that nest in mature forests have decreased during this period. 
Conversely, 39% of the species that nest in mature forests have 
increased, while only 19% of the species that nest in young forests 
have increased. These data do not suggest that we ignore the 
demonstrated conservation needs of certain species characteristic of 
mature forest habitats. However, these data clearly document the 
compelling need to address ongoing declines of wildlife that require 
young forest habitats.
    In summary, disturbance is a natural component of forest ecology. 
By largely precluding natural disturbance, society has allowed the 
health of our nation's forests to deteriorate. Where it is possible to 
return disturbance to the landscape consistent with likely historic 
patterns, society should strive to do so. Where it is no longer 
possible to allow natural disturbance to play its role in sustaining 
healthy forests and associated wildlife populations, the only 
responsible option is to thoughtfully implement active management 
treatments.
    *** On 10 July 2003, 22 wildlife conservation organizations 
representing over 4 million hunters, wildlife resource professionals, 
and other conservationists provided recommendations to the United 
States Senate regarding legislative efforts to enhance the health of 
our nation's private and public forests and rangelands (attached).
    These recommendations included:
    <bullet> Emergency health conditions within the wildland/urban 
interface and municipal watersheds should receive priority, however, 
treatments outside of these areas on lands identified as at significant 
risk by assessment processes as referenced above may be necessary to 
protect and enhance components of ecosystem health, including essential 
wildlife habitats, and should be applied as appropriate.
    <bullet> During the development and review of proposals designed 
to address emergency health conditions, agencies should give equal 
consideration to both the short-term risks of forest and rangeland 
restoration activities and the long- term risks resulting from no 
action.
    <bullet> Projects designed to address emergency health conditions 
should not be subject to post-decision appeal.
    <bullet> Judicial review of projects designed to address emergency 
health conditions should be expedited.
                                 ______
                                 

                        Bear Trust International

                         Boone & Crockett Club

                    Bowhunting Preservation Alliance

                       Camp Fire Club of America

                  Congressional Sportsmen's Foundation

                           Conservation Force

                       Delta Waterfowl Foundation

                Foundation for North American Wild Sheep

                          Houston Safari Club

         International Association of Fish & Wildlife Agencies

                       National Rifle Association

                  National Shooting Sports Foundation

                     National Trappers Association

                    National Wild Turkey Federation

                           Pope & Young Club

                            Quail Unlimited

                     Rocky Mountain Elk Foundation

                         Ruffed Grouse Society

                       Safari Club International

                       Texas Wildlife Association

                        US Sportsmen's Alliance

                     Wildlife Management Institute

                             July 10, 2003

The Honorable Thad Cochran
Chair, Agriculture Committee
United States Senate
Washington, DC 20510

The Honorable Tom Harkin
Ranking Minority Member, Agriculture Committee
United States Senate
Washington, DC 20510

Dear Senators Cochran and Harkin:

    The organizations listed above represent hunters, anglers, natural 
resource professionals and others that share a strong interest in 
traditional conservation values and America's wildlife resources. We 
appreciate the opportunity to express our support for comprehensive 
legislative efforts to enhance the health of our nations private and 
public forests and rangelands. We believe that the prevention of 
uncharacteristic fires, insect infestations and disease outbreaks is 
essential to sustain fish and wildlife populations and other elements 
of healthy ecosystems and is, therefore, in the public interest. 
Likewise, it is important to ensure that fundamental environmental 
protections be maintained.
    The following recommendations may be helpful during deliberations 
of proposed legislative initiatives.
    Forest and rangeland emergency health conditions should be 
documented through an objective and science-based risk assessment 
process (e.g. National Fire Plan condition class ranking) and should 
account for regional variation in forest conditions and special habitat 
needs for at-risk fish and wildlife populations.
    Emergency health conditions within the wildland/urban interface and 
municipal watersheds should receive priority, however, treatments 
outside of these areas on lands identified as at significant risk by 
assessment processes as referenced above may be necessary to protect 
and enhance components of ecosystem health, including essential 
wildlife habitats, and should be applied as appropriate.
    During the development and review of proposals designed to address 
emergency health conditions, agencies should give equal consideration 
to both the short-term risks of forest and rangeland restoration 
activities and the long-term risks resulting from no action.
    State fish and wildlife agencies, which have authorities and 
responsibilities for fish and wildlife conservation on private and 
public lands, must be explicitly recognized as having a fundamental 
role in planning and assessment processes designed to address emergency 
health conditions.
    Public interests should be incorporated into project proposals for 
emergency health treatments on public lands through a cooperative 
process. Consideration should be given to establish a process that 
provides an opportunity for a pre-decisional challenge of projects by 
parties that previously have commented on project design.
    Projects designed to address emergency health conditions should not 
be subject to post-decision appeal.
    Judicial review of projects proposed to address emergency health 
conditions should give equal consideration to both the short-term risks 
of forest and rangeland restoration activities and the long-term risks 
resulting from no action.
    Judicial review of projects designed to address emergency health 
conditions should be expedited.
    During the implementation of emergency health treatment projects, 
the removal and sale of forest or rangeland products should be limited 
to situations where such removal is entirely consistent with the forest 
health objectives of the emergency treatment.
    Agencies should monitor the short- and long-term effects of 
emergency health treatments and adapt subsequent projects based on 
these assessments. These assessments should be conducted in cooperation 
with state fish and wildlife agencies.
    We sincerely appreciate your thoughtful consideration of our 
perspective. If you have any questions or comments, please don't 
hesitate to contact:

                               Sincerely,

           Jeff Crane, Congressional Sportsmen's Foundation: 
                 202-543-6850 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e141b18183e0d0e110c0a0d131b100d1217101550110c19">[email&#160;protected]</a>)

          Dan Dessecker, Ruffed Grouse Society: 715-234-8302 
                        (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="344653475051474774575c5d56554650415a1a5a5140">[email&#160;protected]</a>)

  Gary Taylor, International Association of Fish & Wildlife Agencies: 
                     202-624-7890 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="375043564e5b58457744445819584550">[email&#160;protected]</a>)

              Terry Riley, Wildlife Management Institute: 
                     202-371-1808 (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3e4953574a444c7e5f5152105d5153">[email&#160;protected]</a>)

    The Chairman. Mr. Stahl.

  STATEMENT OF ANDY STAHL, EXECUTIVE DIRECTOR, FOREST SERVICE 
               EMPLOYEES FOR ENVIRONMENTAL ETHICS

    Mr. Stahl. Good afternoon, Mr. Chairman. Mr. Walden. It's a 
pleasure to be here. My name is Andy Stahl. I am a forester. I 
work for Forest Service Employees for Environmental Ethics. I 
also raise sheep and hay on a ranch outside Lorane, Oregon and 
I live in a high fire risk area. In my forest fires don't 
naturally come through every five to 10 years as they do in 
Central Oregon. They don't burn cool. When my valley burns, 
it's going to burn hot, intensively.
    Most of the valley I live in is managed as commercial 
forest land. We have a very responsible timber company. They do 
thinning. They do some clear cutting. They are good neighbors. 
They know their forest is likely to burn especially as we move 
into a dryer climate situation. The chance of fire risk in my 
valley is very high.
    I built my house a year ago with hardy plank siding, a 
concrete product. It doesn't burn. I have a metal roof on the 
house. I keep all the brush back at least 30 feet and I have 
thinned my backyard. I removed all the white fir and I left 
oaks and a few large conifers with the branches thinned up at 
least 50 feet. I mow with my tractor every year.
    I want to tell you about Jerry Sorenson. Jerry is a logger. 
He lives at Oak Flat at the end of the Illinois River Road in 
the middle of the Biscuit Fire. Jerry has lived there off the 
grid eight miles from the nearest electricity with his wife for 
24 years. Born in Grants Pass, he knows the area. He knows fire 
is going to happen. So when the Biscuit Fire was headed to Oak 
Flat, Jerry got out his bulldozer and he put a line around his 
property, built his house with a metal roof, keeps his lawn 
watered, keeps the brush back from the house. He's an 
independent fellow. He didn't look for the Federal government 
for any help at all.
    The Biscuit Fire came through, went through Oak Flat, 
didn't take out a house. His practices worked. The Forest 
Service came in and lit a back fire the next day. The backfire 
escaped and burned down four houses. Jerry wasn't looking for 
help from the Federal government. Certainly not that kind of 
help. I'd like to submit for the record Jerry's story in his 
own words. This is an article in our magazine entitled, ``Who 
Needs Help Like This?'' With the Chairman's permission I'd like 
to append that to my formal comments.
    The Chairman. Without objection.
    Mr. Stahl. Thank you. It's time we try a different 
strategy. I think we all know that fire suppression for a 
hundred years hasn't had the consequences we intended for it. 
It was well intentioned. It didn't work out the way we had 
hoped. We are the first society in 10,000 years on this 
continent to wage war against fire. We think we are so smart, 
and yet for thousands of years before we arrived here millions 
of people lived in North America with fire. They managed fire. 
They worked with fire. They worked with their landscapes.
    I think we are smart enough to do it too, but it's going to 
take a new strategy. It's going to take a strategy that 
actually makes communities and homes resistant to fire. We know 
how to do it. And yet in Sisters Fire Chief Don Rowe pointed 
out in a recent article that most of the houses destroyed by 
fire have wooden shake roofs. There's still no building code in 
Sisters that requires metal roofs or other fire resistant 
roofs. We can do that. That's practical. In an area that is one 
of the fastest growing in the Nation in terms of home building, 
we can at least have that amount of foresight.
    Now, obviously creating fire resistant communities and 
homes is only a first step. It's a necessary step. Because I 
don't care how much you have thinned your forest, I don't care 
how much you have done prescribed burns, given the right 
conditions, drought, high winds, middle of summer, a fire can 
threaten a community. And unless those homes are ready for it, 
you will lose them. And that's just not fair to people because 
we can do better.
    Now we can do better in managing our forests as well. We 
know that on the dry site ponderosa pine forest that Chief 
Bosworth was talking about that fire suppression has created 
problems. We can do things. We can do brush removal. We can do 
prescribed burning. But for it to succeed it needs the public 
behind it. These are public lands. These are national lands. 
And you in Congress know that to pass legislation, you need 
bipartisan work. You need some consensus.
    It's no different than the forest land manager. They need 
people working together, and they need Congress to help bring 
people together. Not pull them apart. So it's time to end the 
partisanship, it's time to end the straw man, the nay saying, 
the bickering, and get on with the work that needs to be done.
    A good example of that locally is the Metolius River Basin 
project. If it works, it will be because people were brought 
together working together with accountability on the agency, 
and I think it's a good project and needs to go forward. Thank 
you.
    The Chairman. Thank you.
    [The prepared statement of Mr. Stahl follows:]

             Statement of Andy Stahl, Executive Director, 
           Forest Service Employees for Environmental Ethics

    Mr. Chairman and members of the Committee, I am pleased to testify 
today on behalf of FSEEE, a non-profit partnership of 500 Forest 
Service employees and over 11,000 citizen owners of our national 
forests.
    Central Oregon's forests have changed substantially during the past 
100 years. Fire suppression removed fire from its dominant role as a 
natural ecosystem process. Commercial logging removed most of the large 
pine trees that typified central Oregon's forests prior to European 
settlement. This combination has changed the structure and species 
composition of the area's forests. Tree density has increased 
dramatically, tree size (as measured by diameter) has decreased 
dramatically, and tree species has shifted to favor grand fir and 
lodgepole pine at the expense of ponderosa pine (Youngblood and Riegel, 
1999).
    As a young forest management student in the late 1970s, my ecology 
class visited the Pringle Falls Experimental Forest southwest of Bend, 
Oregon. We saw the effects that fire suppression has had on tree 
species composition. I saw hundreds of small white fir seedlings dot 
the understory beneath the mature pines. Cyclical climate change also 
played a role as the cooler and wetter weather common to the '60s and 
'70s increased the range of white fir further downslope on the eastside 
of the Cascade mountains.
    Central Oregon's human population has also changed substantially 
during the past 100 years. Formerly a region dependent upon lumbering 
and livestock, central Oregon is now one of the nation's premiere 
recreation and retirement communities. Population growth in the three-
county region during the 1990s averaged 3.5% annually, more than double 
the state-wide average of 1.6%. Job growth is highest in computing and 
technology, education, health, and social services. Outdoor recreation 
and tourism are central Oregon's most important economic engines with 
4.5 million overnight visits to the region annually.
    The challenges facing Deschutes and Ochoco national forest 
employees as they seek to sustain ecosystems across about 2.5 million 
acres are also substantial. Forest Service managers and scientists know 
that the 100-year ad hoc experiment of suppressing fire has had 
unintended consequences. As a result, fires burn hotter and less 
controllably in today's denser forests with smaller trees. And the 
region's robust economic growth has put more homes built without regard 
to fire risk in harm's way.
    In sum, 100 years of fire suppression and logging have created 
conditions that threaten central Oregon's natural resources and 
communities.
    Thus it is inexplicable that the solution proposed by President 
Bush and some members of Congress emphasizes fire suppression and 
commercial logging, the very practices that created today's crisis. The 
federal government continues to attempt to suppress over 99% of all 
wildland fires. The Forest Service continues to measure its success not 
in terms of ecosystems restored, but in fires put out. The President's 
Healthy Forest Initiative, as embodied in H.R. 1904, promotes 
commercial logging at the expense of citizen participation and 
oversight of the forests we own.
    As Benjamin Franklin said: ``The definition of insanity is doing 
the same thing over and over and expecting different results.''
    It is time we tried a different strategy, one that addresses 
independently the protection of communities, on the one hand, and the 
restoration of forest ecosystems, on the other. These goals are not the 
same. They involve different landscapes, constituencies, and practices. 
Protecting communities alone will not restore ecosystems. Nor will 
restoring forest ecosystems protect homes and communities.
FSEEE's Community Protection Strategy for Central Oregon
    Homes burn when they ignite. This simple truism means that 
protecting homes from wildland fire requires preventing ignition. Two 
factors alone affect home ignition--the flammability of the home and 
the amount of heat that reaches the surface of the home.
    As Sisters, Oregon, Fire Chief Don Rowe has pointed out, most 
houses that are destroyed by fire in central Oregon have wooden shake 
roofs (Strannigan, 2001). Requiring that fire-resistant materials be 
used in new home construction and remodeling would do the most to 
protect communities and homes from fire.
    Forest Service research shows that limiting flammable vegetation 
from within 100 feet of a home reduces the amount of heat that reaches 
the home's surface during a fire sufficiently to prevent ignition of 
plywood and other common building materials, even during high-intensity 
fire events (Cohen, 2003). Vegetation management within this home 
ignition zone is primarily the responsibility of private property 
owners. To the extent the federal government believes it has a role to 
play, it can do so through grants, loans, technical assistance through 
extension programs, and education through the Firewise program. FSEEE 
is also assisting with homeowner education through our mascot Reddy 
Squirrel whose motto is ``Forest Fires Happen. Be Ready.'' See http://
www.fseee.org/whosreddy.htm.
    Creating fire-resistant homes and home ignition zones is the only 
proven method of protecting communities from wildland fire. However, 
there is some anecdotal information that suggests that thinning and 
brush removal within the wildland/residential interface may assist 
firefighters. Such buffers around communities are expensive to create 
and must be maintained regularly to provide a bona fide fuel break. 
Thus it is important that scarce federal funds for such purposes be 
targeted to the land immediately adjacent to communities and not 
squandered in the backcountry.
FSEEE's Ecosystem Restoration Strategy for Central Oregon
    The ecological processes that shape central Oregon's forests are 
fairly well understood. The Pringle Falls Experimental Forest, the 
first to be established in the nation, has been the site for ecological 
research since 1931. These long-term studies have highlighted the 
importance of fire as an ecosystem process, examined the relationship 
between fire, shrubs and mule deer, and explored treatment alternatives 
for the control of dwarf mistletoe, among many other inquiries.
    The consensus view of ecologists is that fire is necessary, but not 
sufficient, to restoring these ecosystems. For example, fire restores 
the shrubs and forbs upon which mule deer rely for browse. In fire's 
absence these shrubs, e.g., bitterbrush, become increasingly woody and 
lack the succulent leaves and young growth deer prefer (bitterbrush 
also fixes nitrogen in the soil at the rate of 1 kg/ha/year, making 
this essential nutrient available for tree growth). Meeting the State 
of Oregon's mule deer population objectives for hunters will require 
fire on a landscape scale not seen since the advent of fire suppression 
policies in the early 20th century.
    However, low-elevation, xeric forests in central Oregon have lacked 
widespread fire for so long (on the order of 10 natural fire rotations 
have been suppressed) that fire threatens to replace rather than 
rejuvenate forests. Tree densities in these ponderosa pine stands must 
be reduced substantially through thinning or other mechanical treatment 
before fire is restored. The Metolius Basin project exemplifies the 
multi-step process necessary to restoring fire to these forests (USDA-
Forest Service, 2003).
    Thinning treatments that attempt to impose a forest structure 
inconsistent with natural fire regimes are unlikely to restore 
ecological processes. For example, thinning that seeks to convert a 
low-frequency, high-severity fire forest (e.g., subalpine fir/mountain 
fir) to a stand structure consistent with a high-frequency, low-
intensity fire forest (e.g., ponderosa pine) will likely forfeit many 
of the forest's natural processes and resources (e.g., woodpecker 
habitat). This is not forest restoration--it is forest type conversion.
    No matter how ecologically meritorious, forest restoration projects 
will not succeed unless the public owners of national forests concur. 
Public acceptance is best gained through a collaborative approach that 
ensures disclosure and accountability. Those who seek to short-circuit 
public processes, as proposed by H.R. 1904, are penny-wise and pound-
foolish. For example, the Metolius Basin project's success will be due, 
in no small measure, to the Forest Service's conscientious efforts at 
full disclosure, collaboration, and accountability.
    Just as homeowners must bear the cost of protecting their homes 
from inevitable wildland fires, so, too, the federal government must 
bear the cost of restoring national forest ecosystems. A century of 
well-intentioned fire suppression combined with removal of commercially 
valuable and fire-resistant large trees has created a forest structure 
that requires investment, not further exploitation. Although the 
thinning of some forest stands may produce commercially viable wood 
products, for the most part, central Oregon forest restoration will 
require practices whose costs exceed their financial returns to the 
government (Aycock, 2002). Unless and until the Congress makes these 
investments, the ecological health of central Oregon's forests will 
continue to suffer.
    Central Oregon has been inhabited for 8,000 years, yet our society 
is the first that has proven itself incapable of living with fire. The 
economic and ecological cost of our hubris is enormous. The most 
challenging and profound change that must occur before central Oregon 
ecosystems are restored is an end to our society's war on wildland 
fire. More fires, under appropriate conditions, must be permitted to 
burn. Land managers must be rewarded for returning fire to fire-
dependent landscapes. Homes and communities must be made fire resistant 
so that we may end the war and learn to live with fire.
Citations
    Aycock, Scott, ``Wildfire Risk and Treatment Methods Report 
(Draft),'' Central Oregon Partnerships for Wildfire Risk Reduction, 
March 29, 2002 (http://www.coic.org/copwrr/Interim%20Report%202.pdf).
    Cohen, Jack, ``Thoughts on the Wildland-Urban Interface Fire 
Problem,'' June 2003 (http://www.plumasfiresafe.org/cohen.htm).
    Strannigan, Shawn, ``Fire Chief Urges New Fire Safety Ordinance,'' 
Nugget Newspaper, July 17, 2001.
    USDA-Forest Service, ``Metolius Basin Forest Management Project 
Environmental Impact Statement,'' July 2, 2003, (http://www.fs.fed.us/
r6/centraloregon/projects/units/sisters/metoliusbasin/rod-text.shtml).
    Youngblood, Andrew and Gregg Riegel, ``Reintroducing Fire in 
Eastside Ponderosa Pine Forests: A Longterm Test of Fuel Treatments,'' 
in Proceedings of the Joint Fire Science Conference and Workshop, June, 
1999 (http://jfsp.nifc.gov/conferenceproc/T-04Youngbloodetal.pdf).
                                 ______
                                 
    The Chairman. Mr. Marshall.

        STATEMENT OF JOHN MARSHALL, ASSISTANT DIRECTOR, 
            COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. Marshall. Mr. Chairman, Mr. Walden. I appreciate the 
opportunity to testify in front of you today. I'd like to share 
with you a little bit about the Hayman Fire which was the 
biggest in the state's history. I brought some slides and 
pictures that will help me tell the story more eloquently than 
I could with words alone.
    The Hayman Fire began last June and burned 138,000 acres. 
It burned in the upper south watershed right outside of Denver 
which is the primary watershed for the city of Denver. Over 1.3 
million residents receive their water from that watershed. It's 
about 20 miles outside the city of Denver proper and closer to 
that obviously to the suburbs.
    Throughout the last 6 years we have seen many fires in the 
Upper South Platte that have damaged the watershed. A couple of 
those right here. Here is a picture of Strontia Springs 
Reservoir after a 12,000 acre fire came through dropping the 
equivalent of 13 years worth of sediment load into the 
reservoir after one heavy rainfall.
    In perspective the Cheesman Reservoir which is the primary 
water source unit in the upper south right in the--it is the 
epicenter of the Hayman Fire. We have not yet had a rain quite 
like that directly on the reservoir, but as the next slide will 
show you, we have had rain events and runoff that have provided 
a lot of damage to the wildlife in that area. In fact recently 
less than 3 weeks ago we had a rain event which actually has 
caused upwards of 90 percent mortality in one of our premier 
cold water trout fisheries in the Upper South Platte. This 
picture here was taken after the runoff which also has caused 
problems. Our biologists estimate we will face this problem for 
the next 5 years.
    One of the biggest frustrations with this scenario is that 
our fish and wildlife over the last 6 years has invested $9 
million trying to improve aquatic habitat and to protect the 
watershed. The Hayman Fire obviously caused a real problem for 
us in that regard.
    Next slide. This is Highway 67 the main artery that goes 
through the Pike National Forest next to the Hayman Fire. Five 
feet worth of sediment and burned refuse was strewn across the 
highway closing it down for upwards of a day less than 3 weeks 
ago. Another reservoir on Missionary Ridge, the second biggest 
fire in the state's history was burning simultaneously with the 
Hayman in the southwest part of the state by the city of 
Durango. A pretty telling picture. That reservoir also supplies 
the main water supply for the city of Durango and is now 
costing them I am told millions.
    Next slide. Some of the air quality problems. Move to the 
next slide you can see the day before the Hayman Fire. If you 
move to the next slide, you can see the day of when the Hayman 
Fire exploded visibility less than one mile. Particulate matter 
levels the highest that we have ever recorded them and we did 
have one fatality as a result of smoke.
    Next slide. Two of the major species that were affected by 
the fire, on the left you see the Pawnee Montane Skipper 
butterfly. This butterfly occurs one place in the world and 
that is the Upper South Platte watershed. Almost 50 percent of 
the skippers habitat has now been burned in the last 6 years. 
We are not entirely sure what the status of the species is at 
this point because it has gone into somewhat of a dormancy. 
Biologists tell us they expect next year to have a better feel 
for it, but we know we have lost at the very least in 6 years 
half of the species habitat.
    My friend, Mr. Dessecker, mentioned the Mexican spotted 
owl. 40 percent of critical habitat and acres were burned in 
the Hayman for the Mexican Spotted Owl.
    The Canada lynx is not an interesting one. The state has 
spent a lot of money introducing that species and now 
successfully have them reproducing in the wild. 68,000 acres of 
lynx habitat was burned in the Missionary Ridge Fire less than 
a year ago. We see here the effects of proper treatments in 
western Colorado. This is the Bucktail Fire that occurred last 
year. Some can argue about the effects that this has, but in 
Colorado experience this is the difference between absolute 
devastation and what we would consider to be fairly 
regenerating status.
    Next slide, please. The Hayman Fire, if there is any lesson 
it is the importance of landscape scale treatments. In addition 
to the weather being helpful, the only thing that stopped the 
Hayman Fire was a large scale 5,000 acre treatment. There were 
a lot of treatments that were strewn throughout the fire of a 
thousand acres, and while these were helpful, they obviously 
don't work when a fire runs 12 miles in a matter of 8 hours.
    As a concluding statement I'd like to tell you real briefly 
about the areas surrounding Cheesman Reservoir. A 7,400 acre 
parcel that has never been logged, never been grazed and what 
the Rocky Mountain Research Station in Fort Collins considered 
the crown jewel of ponderosa pine. And at the risk of making 
this somewhat trite, old growth ponderosa pine. We know that 
there was a significant number of three-hundred-year-old trees 
and in fact were many six-hundred-year-old trees across that 
landscape. After the Hayman Fire across 95 percent of that 
landscape there was 100 percent mortality. I want to repeat 
that. Across the 7,400 acre old growth landscape, we had 100 
percent mortality across 95 percent of it.
    The President refers to the threat to old growth that fire 
presents. Never was that more true than on the Hayman Fire. 
With that, Mr. Chairman, I'd like to accept any questions you 
and Mr. Walden have.
    [The prepared statement of Mr. Marshall follows:]

            Statement of John Marshall, Assistant Director, 
                Colorado Department of Natural Resources

    Ladies and gentlemen of the Committee, my name is John Marshall and 
I currently serve as an assistant director of the Colorado Department 
of Natural Resources. It is my distinct honor to come before you and 
provide some information about the degraded water quality, aquatic 
habitat, and wildlife impacts that catastrophic fires have had, and 
continue to have on the State of Colorado.
    As you well know, the 2002 Hayman fire was the largest wildfire in 
Colorado's recorded history, burning some 138,000 acres in and around 
the Pike National Forest--less than 20 miles from the Denver 
Metropolitan Area--at a cost of $40 million in suppression costs. The 
totality of the Hayman fire, the Missionary Ridge fire, and some 2,000 
other wildfires statewide was unprecedented. I would like to share with 
the Committee just a few of the impacts that these fires had on the 
natural environment in Colorado.
    The Hayman fire was started on June 9, 2002. Severe drought and 
unseasonably dry weather, exacerbated by unnatural fuel accumulations 
throughout the forest, had left the Pike a virtual tinderbox. In a move 
not often seen by wildfire ecologists, the Hayman fire crowned and made 
a 12-mile run in half of a day's time. It destroyed almost everything 
in its path, including threatened and endangered species habitat and 
imperiled one of Denver's largest municipal water supplies.
Water Quality
    The impact of catastrophic wildfires on forested watersheds is 
difficult to underestimate. The Denver Metro Area is primarily served 
by the Upper South Platte River drainage located within the Pike 
National Forest. The Denver Water Department, which supplies 1.2 
million users in the Metro area, owns several storage facilities in the 
Upper South Platte drainage. One of the most significant storage 
facilities in the drainage is the Cheesman Reservoir, which is also at 
the heart of where the Hayman fire burned. In fact, some of the most 
severely burned stands are directly within the Cheesman drainage. If 
history is any indicator, this fact bodes very poorly for Denver's 
drinking water.
    In 1996, the 12,000-acre Buffalo Creek fire--which is located just 
north of where the Hayman fire burned in the South Platte watershed--
burned above a drainage leading to another Denver Water storage 
facility in the Upper South Platte basin. Heavy rains a month later 
caused flash flooding across the denuded landscape, washed out a state 
highway and deposited 600,000 cubic yards (hundreds of thousands of 
tons) of sediment into Strontia Springs Reservoir--the equivalent of 13 
years of sediment load in a few short days. To date, the State Forest 
Service estimates that more than $25 million has been, or will be spent 
as a result of the comparably small Buffalo Creek fire.
    Colorado's concern, and more acutely, the concern of Metro Area 
water users, is what will then happen to drinking water supplies when a 
heavy rain falls above the Cheesman Reservoir site in the middle of the 
Hayman fire burn area--an area roughly 10 times the size of the Buffalo 
Creek fire and above a reservoir roughly 6 times the size of Strontia 
Springs Reservoir. It is estimated that Denver's Upper South Platte 
River water supplies would be cut off for upwards of three days if a 
major event occurs in and around Cheesman reservoir. Perhaps most 
disturbing is the fact that this threat of incapacitation may persist 
for up to five years. We are looking at a potentially disastrous 
situation, despite the mammoth $7 million flooding mitigation effort by 
the Denver Water Department. Denver Water has constructed very large 
sediment barriers, but granular granite sediment across such an immense 
landscape still has the potential to do tremendous damage to the 
reservoir and to the basin as a whole.
    In short, the Hayman fire has already affected the quality of 
Denver's drinking water. Just three weeks ago, Highway 67 was blocked 
with more than five feet of burn-area refuse after a major rain event. 
Unfortunately, our forest professionals tell us that the threat of 
landslides and massive sedimentation will not subside until vegetation 
has been reestablished. Because of the heat and intensity of the fire, 
many of the soils are incapable of supporting vegetation without 
scarification or other expensive mitigation efforts.
Endangered Species
    Recently, massive fish kills have been occurring across Colorado as 
a result of major rain events on last year's catastrophic wildfire 
sites such as the Hayman fire and the Million fire. Colorado's top 
aquatic wildlife biologists speculate that fish kills above the North 
Fork confluence of the South Platte river may be as high as 90 percent. 
While we will not know final figures for some time, the prospect of 
losing 90 percent of one of the state's premier cold water fisheries is 
devastating, to say the least. We have also witnessed nearly 70 percent 
mortality of brown trout along parts of the Rio Grande river where last 
year's Million fire burned in southern Colorado. We estimate that these 
fish kills will continue for upwards of five years.
    The Pawnee Montane Skipper butterfly is a federally threatened 
species, listed under the Endangered Species Act (ESA) in 1987. It is 
found in only one place in the world and that is the Upper South Platte 
River watershed area. The total amount of suitable habitat burned since 
1996 is 12,026 acres, or 48.3 percent of the mapped suitable habitat. 
Based on the USFS fire severity mapping for the four major fires since 
1996, it is estimated that the skipper population has been extirpated 
from about 30 percent of its former habitat since 1996. The fires of 
2002 alone burned 39% of known skipper habitat. The species is now 
believed to be in a drought-induced dormancy, so official population 
estimates will not be known for some time, although few skipper have 
been observed since the fire. Needless to say, the Hayman fire has put 
tremendous stress on an already sensitive species.
    Over 40,000 acres burned within the boundary of designated critical 
habitat for the Mexican Spotted Owl. There were several other 
threatened or endangered species that lost habitat--either known or 
suitable--in the Hayman fire, including the Bald eagle, Preble's Meadow 
Jumping Mouse, and Canada lynx.
    We also lost an undetermined number of big game species, such as 
elk. Because the fire burned so early in the season, elk calving was a 
factor and state officials estimate that cows and calves were lost due 
to the immobility of young at that point in the season. The Hayman fire 
did not burn the primary range of elk, but wildlife officials are still 
unsure about the total impact to the herds in that area.
Conclusion
    Colorado experienced a wildfire season in 2002 unlike anything we 
have faced before. The largest two fires in our recorded history--the 
Hayman and Missionary Ridge fires, respectively--not only burned 
simultaneously, but represented nearly half of the total acreage burned 
in the entire state in 2002--well over half a million acres in all. 
There are contributors to unnatural wildfires like these that are 
beyond our control, such as weather and drought. But the unmitigated 
fuel levels across Colorado's 22 million acres of forested lands is not 
beyond our control.
    The federal government owns two-thirds of Colorado's forested 
acres. Reducing the fuel levels on those lands is a monumental task 
with which Congress will have to wrestle. There are enormous roadblocks 
that the federal land management agencies are facing in their effort to 
reduce dangerous fuels throughout the West. We know that the actions we 
are asking the federal agencies to take will come at significant 
costs--though these costs can and should be reduced through effective 
tools like stewardship contracting. But we would ask Congress to keep 
in mind the cataclysmic costs that inaction would have on the 
landscapes of our forests.
    At the state level, Colorado has taken the initiative to address 
forest health conditions. Colorado Governor Bill Owens has now signed 
into law a bill requiring state land management agencies to manage 
state-owned forested lands to reduce the threat of catastrophic 
wildfire and to improve wildlife habitat and water quality. The only 
problem is that this bill only deals with state-owned lands, some 1% of 
Colorado's forests.
    Catastrophic wildfires like that of the Hayman can be avoided 
through aggressive and coordinated fuels reduction treatments. We know 
thinning works. Science and research support these findings. Treatments 
in and around the Hayman fire dramatically altered fire behavior. But 
to be effective, treatments must occur on a landscape scale. It is for 
these reasons, among many others, that the State of Colorado whole-
heartedly endorses the Bush Administration's Healthy Forests Initiative 
and the Healthy Forests Restoration Act now before the Senate.
    Colorado has passed legislation that will allow us to use thinning 
to restore healthy ecosystems in state-owned forests. But we must have 
action from the federal government to provide thinning on a landscape 
scale in Colorado. Our best efforts simply cannot effect the volume 
necessary to avoid Hayman-type catastrophes in the future unless they 
are mirrored by federal land managers. Nothing short of that will 
provide the necessary protections for our precious air, water, and 
wildlife.
    Our analysis provides the following findings:
    1. The key to reducing the risk of catastrophic fire in Colorado 
is to return Colorado's forests to a more fire resistant, resilient 
condition; and
    2. There are active management techniques that can speed up the 
process of returning forests to a more natural, fire resistant 
condition.
    3. Obsessive focus on short-term species protection impedes long-
term habitat protection and sustainable ecosystems.
                                 ______
                                 
    The Chairman. Thank you, and I thank the entire panel for 
your testimony. Mr. Stahl, I'd like to begin if I can in 
listening to your testimony is it your opinion that as a goal 
that our number one priority should be the protection of homes 
and communities to the exclusion of the rest of the forest? I 
am trying to understand exactly where you are coming from on 
that.
    Mr. Stahl. They are certainly not mutually exclusive goals. 
However, it strikes me as irresponsible to protect the rest of 
the forest and fail to protect the homes and communities. 
Whatever you do in the rest of the forest short of paving it is 
not going to eliminate fire. We are going to have fire. In 
fact, some of the most intense wildfires burn on lands with 
hardly any fuels. Cheat grass. Great example. Mr. Walden knows 
that. If you are talking about fast moving fires, cheat fires 
move fast. It will take out a home in nothing flat. So we need 
to protect homes. We need to protect communities. That doesn't 
mean that we don't need to do things in the woods too, but 
let's not lose site of the homes and communities because of the 
battle in the forest.
    The Chairman. I don't disagree with you on that. I think 
that both are important and what we tried to address in the 
legislation was both. And there's been a lot of people that 
have made the argument before and since we have passed the 
legislation through the House that the only thing we ought to 
worry about is the urban wildland interface.
    Mr. Stahl. I would say that the problem for homes and 
communities addresses a totally different landscape than H.R. 
1904 addresses. Homes and communities burn based on what 
happens on private land. Now that's not your Congress's direct 
responsibility. But you do have a role that you could play 
through grants, through extension of work, through working with 
communities, through conditioning state aid on the basis of 
building codes.
    So there are some creative solutions for a Federal role in 
dealing with that ignition zone around houses. I recommend that 
you expand H.R. 1904 or other legislation to address those 
issues because that's what your fire chiefs, that's what your 
rural fire departments are crying out for no more so than in 
Deschutes County where it's a major issue.
    The Chairman. Dr. Bonnicksen, when you look at this problem 
and the scope of this problem that we have in front of us, how 
do you propose that we deal with it in terms of beginning to 
manage or getting back to managing our public lands?
    Dr. Bonnicksen. Well, I would definitely agree especially 
in San Bernardino where I have actually told people when I have 
talked to them in their homes that I would suggest they start 
taking their belongings down the mountain. That's how serious 
it is.
    The Chairman. And specifically you are talking about the 
Lake Arrowhead area?
    Dr. Bonnicksen. Yes. What I am saying that that's a 
microcosm of what we are going to face throughout the west and 
are beginning to face throughout the west. And I see it as a 
very, very bad omen. We definitely have to encourage people to 
make their homes more fire resistant. I couldn't agree with 
that more. That helps. We definitely have to start at the 
interface to provide as much protection as we can to 
communities. So I would suggest that we go through those two 
steps and then work our way out from those fuel breaks into the 
forest itself because just protecting the home and the fuel 
break alone will not protect the community. It will only help 
protect the community. We have to restore the forest itself.
    Now, the scale of this one would think and using my 
perception of the historic forest in North America and by 
forest type I can tell you the scale is mammoth, but it's not 
insurmountable. The only thing that would make it 
insurmountable is to expect the tax payer to pay for it. If we 
talk about the 73 million acres that are at greatest risk of 
fire right now, I have made what I now think after spending 
another year on the ground looking at this problem are very 
conservative estimates that in the 15-year period of time to 
treat that 73 million acres it would cost approximately $60 
billion. I know think that's conservative. At the end of that 
15-year period of course the first year's treatment would 
require maintenance. I estimate that will cost $31 billion 
every 15 years into the indefinite future. That's constant 
dollars.
    There's absolutely no way in the world we can do that. If 
we can't do that with taxpayers money, then we have two 
choices. One is to continue to allow these unnatural monster 
fires to burn and frequently destroying communities and 
destroying our forest and our watersheds, or we can accept the 
fact that the private sector is a legitimate, skillful and I 
think caring partner that will help us solve the problem.
    Why would they be involved? First and foremost because they 
can derive enough value and in some cases like in San 
Bernardino maybe not much value from the land to help pay for 
the cost. In essence in those places where we can't make money, 
leverage tax payer funds. But there are many areas of our 
forest where we can actually make money for the treasury 
restoring the communities and the infrastructure we need and 
restore the forest simultaneously.
    Let me give you one example. It harkens back to this point 
we are only supposed to thin small trees. Well, the forest I 
know better than any other forest in the world is the giant 
sequoias. Few people realize that many of the old trees that 
they are looking at are 125 years old. They don't know that 
when the Indian tribes left, there was an influx of fir and 
sugar pine and so on that has now grown into trees three foot 
in diameter or more. And they think this is old growth.
    Well, I'm sorry to use the word old growth. They think they 
are old. They are not. The fact of the matter is that to thin 
that forest properly requires thinning some of the big trees 
that weren't supposed to be there in the first place and those 
trees have value. So I think we can actually make money for the 
treasury and bring back the forest that the explorers first saw 
and that I think most of the American people would like to see 
again.
    The Chairman. In using your example with the giant 
sequoias, you would have to take each and every forest and look 
at it and the biologists and the foresters and everybody would 
have to come in and look at that and determine how it should be 
managed, and you can't expect us to pass legislation that is a 
one size fits all this is how you manage a forest in the United 
States.
    Dr. Bonnicksen. Absolutely not. You know, I have studied 
most of the forests in North America and I would be the first 
one to tell you don't ask me how to do the best job of managing 
each and every one of them. You can't do that. There is no one 
prescription. We have very well educated foresters and 
biologists who when working together in a particular forest 
type can come up with the ideal prescription. What I think the 
Congress can do is provide the philosophy, the overarching 
vision of what it is that we want to achieve on behalf of 
society and then leave it to the professionals to help us 
achieve that.
    The Chairman. Thank you. Mr. Dessecker, as far as what's 
the best way to deal with the management of our forests in 
terms of wildlife, and I guess my question to you is similar to 
what I asked Dr. Bonnicksen in terms would we not have to look 
at each of these regions, each of these forests on an 
individual basis and say with these species that live here, 
this is the way that in your best guess is how we ought to 
manage it in terms of which areas should be open areas and 
which areas should be large canopies and what the density of 
the forest should be? And from a professional biologist's point 
of view wouldn't you have to look at it in that way to 
determine what's best for the wildlife that exists there right 
now?
    Mr. Dessecker. Absolutely. The key to wildlife diversity is 
habitat diversity. That does not mean that we have a host of 
different habitats on each and every acre. That's foolish. It's 
counterproductive from a wildlife standpoint. But somewhere on 
a given tract of land somewhere on the landscape we need to 
have young forest, old forest, open forest and all other types 
of natural habitat to provide for the native species of 
wildlife. Those are the outcomes that we want from a wildlife 
standpoint. How we get there, what outputs we provide is 
irrelevant. I think the outcome is the key.
    The Chairman. Thank you. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. Thank you to 
members of our panel for your testimony. Mr. Stahl, I was just 
going to follow up on your comments and actually read from the 
bill. In Section 103 it says and I quote, ``As provided for in 
the implementation plan, secretary concerns should give 
priority to authorize hazardous fuel reduction projects that 
provide for the protection of communities and watersheds.'' So 
in terms of the overall focus of the bill we are saying 
communities and watersheds. We go into other detail later on.
    But picking up on what you are saying and I think the 
national fire plan provides grants to local communities to do 
the very kind of work you are talking about. And I know this 
area in central Oregon has been very aggressive with our 
community officials, law enforcement, forestry officials and 
insurance companies I think have played a role too in 
encouraging homeowners to do precisely the kind of work you are 
describing needs to be done.
    Mr. Stahl. May I respond?
    Mr. Walden. Sure.
    Mr. Stahl. The bills language you quoted of course doesn't 
apply to private land, only to Federal land, and most of the 
problem for homes and communities is on the private land 
sector. You are absolutely right. There are limited funds and 
it's just a small, small fraction of the amount of money we 
spend on fighting even one fire available for communities. 
However, individual home owners are not permitted to apply for 
those funds, and so that's a change that I would recommend 
Congress look at. Right now only community associations can 
apply. So if you are a home owner that's not part of a 
community association or small town and you have a place that's 
in the forest interface zone you are not permitted to access 
those funds. And I would hope that you would look at changing 
that.
    Mr. Walden. Good suggestion. Dr. Sessions, I appreciate 
your perseverance in getting here. I understand you had some 
difficulty on the way, and I appreciate your making the extra 
effort to join us. Let's talk about the Northwest Forest Plan 
for a moment. Does it call for active thinning in the LSR to 
preserve and protect the late successional reserve?
    Mr. Sessions. I think you have better people here that 
could answer about the Northwest Plan including the Chief and 
the Regional Forester. But certainly that the understanding as 
it comes to me is that there is the active management in the 
LSRs to create the habitats for which they were designed. And 
that does include certainly thinning and that's generally 
prescribed before the forest reach certain ages within the 
LSRs.
    Mr. Walden. Have you done much study of the LSR or some?
    Mr. Sessions. Well, in terms of for what purposes?
    Mr. Walden. Any kind of study. I guess what I am getting at 
is do you believe that it's important to do that kind of work 
to manage for LSR? What has to be done to manage for LSR I 
guess?
    Mr. Sessions. Well, certainly if the objective is growing 
large trees as quickly as possible, it's a well-known 
silvicultural technique that you identify the trees you want to 
favor and you remove the other trees thereby allowing those 
trees to have more room. The prescriptions I have seen for use 
in the LSRs do exactly that. They come in with actually a very 
heavy thinning around age 40 to 60 to start to accelerate the 
development of those late successional characteristics.
    Mr. Walden. It sounds like how you would grow a garden. You 
thin out carrots and radishes and everything else and let 
everything else grow.
    Mr. Sessions. That's right.
    Mr. Walden. So how do you apply that same principle to 
forest management or that type of management criteria?
    Mr. Sessions. I would just say in the prescriptions I have 
seen the thinning prescriptions are actually very aggressive 
and quite heavy. They are not the small understory removals, 
but they remove a sizable portion of the stand to accelerate 
the development of those larger trees.
    Mr. Walden. Which is the goal?
    Mr. Sessions. Which is the goal.
    Mr. Walden. Dr. Bonnicksen, I was struck by your testimony 
as you walked through all the myths of how to treat forests, 
and I was left with the question how would you treat them then 
because you sort of dismiss prescribed burning, you almost 
dismiss thinning, these different strategies, and maybe I 
understand it incorrectly. Would you elaborate based on what 
you know about northwest forests? What do we need to do here 
and when do we need to do it?
    Dr. Bonnicksen. Well, it depends on which side of the 
mountain you are on. No. I don't dismiss any tool, any tool 
that is effective and cost effective. It's fine to me if it 
gets us to where we want to be. And from my point of view the 
place we want to go is something approximating what was here 
historically. I recognize that what we found when the explorers 
came, what they found, was a result of 12,000 years of 
management by native people to serve their needs when they 
lived here. And then we have our unique needs as well. So we 
can't replicate the forests that we found, but we can use them 
as a model for the forests that best serve our needs and build 
on what we learned from them.
    But there are some fundamental principles in these high 
frequently low intensity fire regimes, ponderosa pine, for 
example. We want a forest with 17 to 40 percent older trees in 
a patchy manner by and large the pack size a square foot is 
about two tenths of an acre all within range from several acre 
sizes and even larger in some cases. We have to have 
proportions of all the different age classes represented on the 
landscape that are similar to what was there historically. That 
includes meadows and brush and so on. And we have to sustain it 
by continually developing openings in the forest which means 
removing larger trees by the way because they are at the end of 
their life cycle and leaving snags, logs on the ground and 
using prescribed fire to regenerate fires and species and 
reduce fuels. The whole tool box is needed to achieve this 
diverse forest.
    Let me tell you one of the benefits of this aside from the 
fact endangered species become a thing of the past because we 
are providing this diversity of habitats. But one of the other 
things is making our forests fire resistant. It turns out--and 
this works by the way also in Yellowstone in the lodgepole pine 
forest. Some forests in different successional stages don't 
burn. They don't burn very well at all. Even in lodgepole 100-
year-old trees don't burn. And if you have a forest with all 
these successional stages represented in it like ponderosa pine 
in the correct proportions, the odds are that the fire will 
stay on the ground throughout most of the area. Even though it 
may burn thousands of acres, it will stay on the ground and 
only flare up here and there where it missed 40, 50 years 
before burning and there were trees in the understory.
    Mr. Walden. That's the ladder fuel?
    Dr. Bonnicksen. Right. So these little flashy spots in the 
forest which by the way historical accounts describe are where 
the new openings were created to regenerate those shade 
intolerant trees. We use timber harvesting as a tool to 
replicate those little hot spots in the forest. So we can get 
fire resistant diverse forests that looks very much like a 
natural forest full of old trees and it sustains itself 
ecologically and economically.
    Mr. Walden. Mr. Marshall, I was struck by your comment that 
I believe you said 100 percent mortality of old growth in the 
Hayman Fire?
    Mr. Marshall. Yes.
    Mr. Walden. How did that happen? None of that area had been 
thinned before; is that correct?
    Mr. Marshall. That's right. The majority of that area--the 
area surrounding Cheesman has been privately owned and so there 
has been no logging and no grazing on that land. What occurred 
however was the buildup. They had done some thinning around 
some of the structures and in some very small portions across 
that. What had happened though was as been described so many 
times today with fire exclusion and the growth of younger 
ponderosa, those stands were crowded out quite a bit and what 
resulted was a moonscape.
    Mr. Walden. And the structures were burned as well?
    Mr. Marshall. The structures--there was thinning. There was 
quite a bit of thinning around a handful of structures. It's a 
very remote location so the structures are mostly maintenance 
kind of structures. Those structures were saved.
    Mr. Walden. They were saved. OK. And the watershed you said 
would be years before you were done with the mud flows and 
things?
    Mr. Marshall. It's estimated that for 5 years without--
we're doing our best to try and turn up soils and to get some 
sort of grasses and whatever else on there. To date the fire 
burned so hot that the Governor actually took a thousand 
volunteers out a year ago and tried to do some replanting. But 
it's just not been very successful. Raking it is much like 
raking concrete. Even trying to break up those soils is very, 
very difficult. We expect probably at the very least it will be 
5 years until we stop seeing these fish kills and these mud 
slides because of the fact that these soils are just absolutely 
baked. And I will add to that that Dr. Kaufman who is kind of a 
renowned expert in that area on that particular forest 
estimates that it will be roughly 400 years before we see a 
stand of ponderosa that was in the same condition as prior to 
the Hayman burn.
    Mr. Walden. I appreciate that. Four hundred years?
    Mr. Marshall. Four hundred.
    Mr. Walden. By the way if you need help with grass seed, we 
grow great grass seed around here. We can get you a deal and it 
will help our economy. Mr. Dessecker, I am curious about the 
oaks. While we have oaks around here, we don't have the kinds 
of forests you reference. What needs to be done on those and 
how would this bill if it were to be enacted into law help you?
    Mr. Dessecker. Well, again we interrupted natural 
disturbance regimes. Oaks is a fire dependent species. We're 
not going to return fire to the eastern landscape because of 
course ownership fragmentation. We have too many houses in and 
amongst the forest be it public or private. We can't use that 
as a tool anymore. Therefore we have to utilize active forest 
management. Be it commercial or otherwise, frankly as a 
biologist I don't care as long as we maintain the forest types 
that are a benefit to wildlife species.
    1904 although it does not explicitly identify this as an 
issue, let's talk about it. But it at least helps the public 
understand that there is a reason to manage forests and that 
forest management is not in and of itself evil. And if we can 
broaden that message, help the public understand that, it's a 
step in the right direction.
    Mr. Walden. OK. Thank you, Gentlemen. Thank you, Mr. 
Chairman.
    The Chairman. I want to thank this panel for your testimony 
and answering the questions. If there are any further questions 
that we have, they will be submitted to you in writing. If you 
can answer those in a timely manner so that they can be 
included in the hearing record, I would appreciate it. So thank 
you.
    I would like to call up our third panel. Commissioner 
Dennis Luke, Deschutes County; Mr. Les Stiles, Deschutes County 
Sheriff; Mr. Tim Lillebo, East Oregon Field Representative, 
Oregon Natural Resources Council; Mr. John Shelk, Managing 
Director of Ochoco Management, Inc.; Mr. Don Johnson, owner of 
D.R. Johnson Timber Company; and Mr. Ralph Minnick, Chief 
Financial Officer of the Warm Springs Forest Products 
Industries.
    Welcome, Gentlemen. I would like to remind the witnesses 
that under Committee rules to limit your oral testimony to 5 
minutes but your entire written statements will adhere in the 
record. And I'd like to now recognize Mr. Luke for his 
statement.

            STATEMENT OF DENNIS LUKE, COMMISSIONER, 
                    DESCHUTES COUNTY, OREGON

    Mr. Luke. Thank you, Mr. Chairman and Mr. Walden. I am 
Commissioner Dennis Luke, Deschutes County Commissioner, and 
while I am elected in this county, my testimony today reflects 
that of my fellow commissioners plus our neighboring counties 
that work together very closely when the fire hits. And I know 
the Chairman comes from a large state as representative Walden 
does, and sometimes it's interesting to put the size of this 
county in perspective, and so we have put it over the state of 
Connecticut. When we have done Congressman Walden's district, 
it takes in the state of New York and most of New England. So 
this is just a very small part of the district.
    The second one we have up in the red is the Forest Service 
and BLM property. The Federal property owned in this county, 
the green, is the nonFederal land. The Forest Service and the 
BLM own approximately 76 percent of this county as you can see 
completely surround most of our communities. And so they become 
a very integral part of the fire plans here.
    The next one is a picture of the 18 Fire which occurred on 
July 23. And this was very, very close to the city of Bend. We 
had several subdivisions that were ready to put on notice to 
evacuate and it was a very destructive fire. The thing that 
saved us on this were some treated areas where the fire hit 
some treated areas, plus the wind laid down and allowed the 
crews to get on. So we were very fortunate there. And Mr. 
Chairman, I have one picture that isn't part of the record and 
I have this on my wall. This is the Awbry Hall Fire from 1990. 
This is the city of Bend right here and this is the Awbry Hall 
Fire. This scared a lot of people, we evacuated a lot of homes 
and was a very destructive fire.
    Mr. Chairman, there are no turf battles. When a fire starts 
in our region, we support each other. Emergency personnel from 
all three counties respond in a prearranged and organized 
manner. During the Deschutes County 18 Fire last month, the 
person in charge of the structural element of the fire crews 
was actually from Jefferson County. These extraordinary 
coordination efforts are necessitated by the very real threat 
that wildfire presents to our communities.
    There are a list of projects in my written testimony, but I 
want to talk about just a couple of them here. We were very 
fortunate this county to receive a project impact grant from 
FEMA, and when that grant was over, we converted and kept going 
as a local community and we renamed it Project Wildfire. One of 
the things that we do in this county is every spring we open up 
our landfills to free disposal of yard debris, and this last 
year we took in 2,394 tons of yard debris in 3 weekends free to 
our subdivisions, to our constituents. That's enough debris to 
fill a football field nine feet high of yard debris that we 
took out of our subdivisions to make them safer. That's a 26 
percent increase in customers and 13 percent increase in tons.
    Through our committee, we worked with Oregon State 
University--and I have this for your staff too--to develop fire 
resistant plants. And it has the pictures, it talks about the 
plants. These plants are not fireproof. They are fire 
resistant. Other communities have approached us and asked us to 
be able to use this. And the reason we don't have 75 of these 
is we are getting ready to reprint and bring them up to date.
    I have also given your staff a copy of an article that 
occurred in the April 2001 issue of Sunset magazine where it's 
living with wildfire on the west. Very good article. About five 
or six pages in it talks about the projects that we are doing 
here in Deschutes County and Bend.
    We have accomplished a lot over the last few years by 
educating our citizens and by completing projects that make our 
communities more disaster resistant. When these communities are 
next to or surrounded by untreated Federal lands, those 
communities are still at risk of catastrophic fire. What we are 
lacking is a comprehensive plan that is easily administered to 
treat the Federal lands immediately adjacent to our communities 
in the short term. That plan needs to be expanded for the long 
term treatment of the entire forest to help restore the natural 
health and vitality that made them the great forest of long 
ago. Fire was a natural allay of the forest, but there is 
nothing natural about the wildfires we have been experiencing 
currently or over the last few years. We need your continued 
help and cooperation to make our communities and forests safe 
again.
    This will not be done overnight, but it needs to move 
forward now. We want to thank you and your Committee for all 
your efforts, and again we want to thank you for taking the 
time to come to our community to hear our concerns. Sheriff 
Stiles is the next speaker, and this community holds a great 
deal of thanks to all our emergency personnel who put 
themselves in harms way to keep us safe. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Luke follows:]

              Statement of Dennis R. Luke, Commissioner, 
                        Deschutes County, Oregon

    Mr. Chairman and Members of the Committee:
    My name is Deschutes County Commissioner Dennis Luke. Thank you for 
taking the time to hold this hearing on this significant national issue 
that has such a large impact on our daily lives. While I am elected to 
represent Deschutes County, today my comments reflect on the types of 
activities that are taking place not only in Deschutes County but also 
in our neighboring counties of Jefferson and Crook. There are no turf 
battles when a fire starts in our region, and we support each other. 
Emergency personnel from all three counties respond in a prearranged 
and organized manner. During the Deschutes County 18 Fire last month, 
the person in charge of the structural element of the fire crews was 
from Jefferson County. These extraordinary coordination efforts are 
necessitated by the very real threat that wildfire presents to all our 
communities.
    We have accomplished a lot over the last few years by educating our 
citizens and by completing projects that make our communities more 
Disaster Resistant. When these communities are next to or surrounded by 
untreated Federal Lands, those communities are still at great risk of 
catastrophic fire.
    In 1999 Deschutes County and the City of Bend were given a Project 
Impact grant by FEMA to be one of a few counties in the nation to 
dedicate its disaster mitigation efforts toward wildfire safety, 
education, and preparedness. We were successful in involving our 
communities in creating long-term wildfire mitigation strategies by 
using a combination of local partnerships, governmental support, and 
business participation. As the FEMA grant was drawing to a close, the 
steering committee reorganized under the banner of Project Wildfire to 
continue these local efforts. One of the final projects for the FEMA 
grant was a cooperative venture with the Oregon State University 
Extension Service which produced a brochure on fire-resistant plants, 
complete with pictures and plant descriptions. Our local landscapers 
have been very supportive in the distribution of the brochure and the 
stocking of the plants. The brochure has been well received by the 
public. Other states and local jurisdictions are asking for the ability 
to use it in their areas. Another project was the construction of an 
emergency exit for a subdivision that has a potential build out of more 
than 7,000 people; this subdivision is surrounded on three sides by a 
lava flow, the Deschutes River, and the railroad. That subdivision was 
evacuated in 1990 using only a single exit. It was extremely fortunate 
that no one was injured during that evacuation.
    Throughout the late 1980's and into the 1990's the county has 
sought to address a home's resistance to fire by changing building 
codes to require fire resistant material, increase road construction in 
rural areas to facilitate emergency vehicles, provide emergency exits 
for subdivisions, and to encourage home safety by providing an avenue 
for our citizens to dispose of yard debris.
    Every Spring, we open all our landfills for three full weekends for 
free disposal of yard debris. We advertise the event and some of our 
subdivisions use the time preceding these events to stage their 
community clean up. Volunteers and youth work crews step forward and 
cleanup yards to help those who cannot do the work themselves. During 
last Spring's event an estimated 2,394 tons of yard debris was brought 
to our landfill. That is enough to cover a football field with yard 
debris to a depth of nine feet. The 2003 event saw an increase of 26% 
in the number of customers and a 13% increase in the total number of 
tons of yard debris. Throughout the year the landfill is open for free 
disposal of electronic equipment, tires, appliances, and hazardous 
waste. While this does benefit the County, we believe it also keeps 
some of these items off National Lands that make up more than 76% of 
Deschutes County. Through the use of a grant, we have removed car tires 
from Federal and private lands in South Deschutes County. We have also 
worked with the BLM to remove trash from their lands.
    What we are lacking is a comprehensive plan that is easily 
administered to treat the Federal Lands immediately adjacent to our 
communities in the short term. That plan needs to be expanded for the 
long term treatment of the entire forest to help restore the natural 
health and vitality that made them the great forests of long ago. Fire 
was a natural ally of the forest, but there is nothing natural about 
the wildfires we have been experiencing over the last few years. The 
high temperatures these fires produce sterilize the ground, burn large 
and small trees, destroy vital wildlife habitant, and put life and 
property at risk. After the fires, in most cases, it may take years 
before we can remove burned trees from the land and move forward with 
replanting the forest. During that time the land deteriorates because 
of erosion and the land becomes a weed patch.
    It reminds me of a neighborhood where the neighbors have kept their 
homes and yards in good shape. Then for one reason or another one of 
the homes becomes vacant and the absentee landlord allows his home to 
become run down, infested with weeds, bugs, and the condition of his 
home becomes a threat to the neighborhood. The Federal Government is a 
landowner of more than 76% of our County. You have let your land become 
run down. We are asking you to become good neighbors again and to help 
us make our communities safe once more. To this end, Deschutes County 
has stepped forward with an initiative to work with the Forest Service 
on four or more demonstration projects. We need your support to make 
these projects move forward in the most productive manner possible.
    Thank you for taking time to visit our community and listen to our 
story of a very real danger to our way of life.
                                 ______
                                 
    The Chairman. Thank you. Sheriff.

       STATEMENT OF LES STILES, SHERIFF, DESCHUTES COUNTY

    Mr. Stiles. Mr. Chairman, Congressman Walden, I want to 
thank you for this opportunity to be here today to discuss 
these important issues. The primary mission of the Sheriff of 
Deschutes County and all other sheriffs in the State of Oregon 
is public safety. The first and foremost primary threat to 
public safety in Deschutes County on an annual basis is fire.
    Last year the Cache Mountain Fire burned into Black Butte 
Ranch. I was in that fire. When it burned into the ranch, I saw 
firsthand when I went in to clear structures lost--and we did 
lose two homes there. I saw firsthand one of my deputies had 
just literally driven out of a wall of flame 50 to 100 feet 
high as it rolled across George McAllister Road. Although the 
picture on the far right there does not--was not taken at 
George McAllister, it is identical in nature to the level of 
burning and the amount of timber that caused that rolling ball 
of fire to come through.
    By the way the noise you are hearing are our bombers going 
overhead right now fighting the fires that we are presently 
dealing with. When that fire rolled into Black Butte and I was 
in the back end, I drove in to the fire to declare for the 
incident commander that structures had been lost. In the 
process of doing that I saw firsthand the value of thinning the 
natural forest timber. Because I saw a ball of fire that had 
been burning 100 to 150 feet high roll down to flames that were 
two and three feet tall when it hit the thinned area. If the 
area that I was in had not been thinned, we would have lost 30 
to 48 additional houses.
    From 1990 to present we have lost 42 homes in Deschutes 
County due to major wildfires. We had a major fire in 1990, the 
next major fire the Skeleton Fire in 1996, and this year alone 
in the last 8 weeks we are into our fourth major fire in 
Deschutes County. One in particular, the Davis Fire is symbolic 
of the issues we need to address today. During the Davis Fire 
within the first 3 hours that fire literally exploded. I came 
very close--within seconds we came very close to losing three 
of the deputies in my sheriff's office during that incident.
    That's not the first time lives have come close to being 
lost in fires in Deschutes County. That fire in particular 
exploded so dramatically and the fuel load was so high that the 
firefighters were pulled off the fire line. That was a good 
decision. It was one of the most chaotic fires I had seen in 
the last 3 years. The reason for that is demonstrated in that 
photograph on the right. That photograph was taken a week ago 
Sunday of the west side of Davis Mountain where the fire burned 
through.
    The real irony in this is that the testimony you heard here 
today about how to fix it, in the foreground is depending on 
your definition of old growth an old growth ponderosa 
completely toasted. It's gone. But the intensity of the fire 
brings a danger to the firefighters and to the law enforcement 
officers who are in there evacuating people out of campgrounds 
and out of houses.
    The only solution to the issues in Deschutes County are 
reducing the fuel load. It's just that simple. H.R. 1904 does 
that for us. If you don't reduce the fuel load and the 
intensity of the fires remain the same, we will be back where 
we were last year at the end of Cache Mountain Fire.
    I met with Senator Wyden 13 months ago. I gave him a five-
page document requesting Federal assistance that deals with the 
issues that we are talking about in Deschutes County. I closed 
my conversation with him with the following comment: ``If we 
fail to address these issues in a substantive manner today, I 
promise you next year we will be back here and the year after 
that and the year after that.''.
    You have heard sufficient testimony here today to indicate 
that even with the passage of H.R. 1904 and additional 
legislation, even if we start today we are still going to be 
dealing with this problem tomorrow. From the public safety 
perspective we need your help and we need a solution to this 
problem and we need to thin the forest and reduce the issue of 
fire as a public safety hazard in Deschutes County. Thank you 
for your time.
    The Chairman. Thank you.
    [The prepared statement of Mr. Stiles follows:]

    Statement of Les Stiles, Deschutes County Sheriff, Bend, Oregon

    Thank you to this Committee and to Congressman Walden for the 
invitation to speak about the issues surrounding wildland fire and 
public safety in Deschutes County.
    A quote from the introduction to the book ``Fire and Ashes'' by 
John MacLean, published in 2003, succinctly summarizes the issues we 
need to discuss today:
    ``Today nearly every policy that governed firefighting in the 
modern era is being challenged. The issues range from whether to fight 
a fire at all, especially if life and property are not threatened, to 
the degree of acceptable risk once the battle is joined. Settlement in 
the wildland urban interface--WUI or the red zone--a place where open 
lands and development meet, has multiplied at astonishing rates and 
with few controls since the 1980s, to make an already dangerous 
situation explosive. At the same time, almost a century of fire 
suppression and, more recently, reduced logging have created wildlands 
badly in need of more fires not fewer.
    Paradoxically, certain logging practices over the decades, such as 
careless disposal of slash and excessive logging of the biggest trees, 
have contributed to a buildup of brush and small trees and thus to a 
more fire prone forest. Yet the reality of more people plus more fires 
guarantees conflict. While national fire policy now calls for millions 
of acres to be deliberately burned each year, a preliminary Forest 
Service study reports that nearly half the planned ignitions have been 
delayed by legal appeals----environmental groups seeking to curtail 
logging, home owners and politicians trying to minimize smoke.
    Fires have grown more intense in recent years because of drought, 
which has been made worse by global warming. Concern about wildland 
fire and forest health, meanwhile is no longer restricted to land-
management agencies such as the Forest Service and the Bureau of Land 
Management (BLM), inhabitants of fire country, and small environmental 
elite. The environmental movement has become broadly based and, 
together with the media, has succeeded in raising national awareness of 
the values and dangers at stake. Partly as a consequence, federal land-
management agencies have been forced to change their focus from income-
producing activities---logging, mining and grazing----to custodianship 
of the land. Laudable as the change may seem to those who do not log, 
mine, or run cattle, the agencies have lost authority and cohesion as a 
result. `The Forest Service is an agency in limbo,' says Gerald W. 
Williams, the Forest Service's Chief Historian.''
    Central Oregon and Deschutes County is rich in natural treasure and 
beauty. Our mountains, crisp, clean lakes and rivers, and forests are 
widely recognized as a playground for outdoor enthusiasts and a major 
attraction for new residents. And fire has always been a part of that 
equation and a threat in Deschutes County. The Awbrey Hall fire in 1990 
destroyed 21 homes and forced the evacuation of many thousands of 
people. The Skeleton Fire in 1996 destroyed 19 homes and forced the 
evacuation of thousands of people. The Cache Mountain Fire in 2002 
destroyed two homes in Black Butte and forced the evacuation of over 
5000 people in less than two hours and a loss of significant income to 
the Black Butte Corporation. This year we have had four major fires in 
Deschutes County in the past eight weeks. The Davis Fire in June 
destroyed over 22,000 acres and almost cost the lives of three of my 
deputies. The ``18'' fire started within a mile of a large sub-division 
that, but for the grace of a north wind, would have destroyed many 
homes, within the Bend city limits. And last but not least is the Link 
fire this summer in the area of Cache Mountain's fire last year. It 
burned very close to the ``trigger'' point where we would have again 
evacuated thousands of people and potentially lost more homes. Because 
of a fire that began last Wednesday, we are again facing (for the third 
time in 12 months) another evacuation of Black Butte Ranch. The Bear 
and Booth complex fire continues to burn in Deschutes and Jefferson 
Counties and on Thursday, August 21, 2003, forced the evacuation of 
Camp Sherman and all campgrounds on the Metolius River. The four fires 
in the past eight weeks have alone destroyed approximately 30,000 
acres. The cost to the Sheriff's Office exceeds $100,000 and does not 
come close to accounting for the risk to firefighters, police officers 
and Search and Rescue members. The cost in disrupted lives, air 
quality, animal habitat and lost revenue for businesses dependent upon 
our forests, is probably unidentifiable.
    Shortly after last year's Cache Fire where we lost two homes in 
Black Butte, I met with Senator Wyden and briefed him on the issues of 
local wildland fire and my concerns for public safety. I sent him a 
paper asking for assistance at the Federal level and discussed the 
Deschutes National Forest with respect to problems ranging from 
``environmental restrictions to firefighting'' to forest thinning to 
Federal OSHA concerns about the aggressiveness with which initial 
attacks can be made to fires. To date I have received no response to 
that request.
    Because of the forest floor fuel load, thick stands of timber 
choked with small trees and blow-down dead, fire suppression efforts 
and a lack of thinning or logging, most of the forested areas in 
Deschutes County are tinderboxes waiting for an ignition source to 
explode. Prior to the Davis fire there were areas on Davis Mountain 
that were impossible to walk through because of so many downed trees. 
Further, there are many inhabited areas of Deschutes County that are 
completely surrounded by unhealthy forests with fuel loads so large it 
is almost guaranteed they will become ``catastrophic'' at the time of 
ignition.
    The primary mission of the Deschutes County Sheriff is Public 
Safety. The primary threat to Public Safety in Deschutes County is 
fire. Please know, however, that we have not been sitting idly wringing 
our hands and waiting for the cataclysm. Many of us have been actively 
involved in prevention and treatment programs such as Project Impact 
and Project Fire Free for several years. Great strides have been made 
in reducing fuel loads near homes, creating defensible space; ``fire-
proofing'' homes by changing building materials and roof material. And 
we have hard evidence that those prevention efforts paid off during the 
Cache Mountain Fire in Black Butte last year. However, in the end, 
these projects, while highly important and needed, are not sufficient 
to diminish the risk to a reasonable level. The Federal Government owns 
Two thirds of Deschutes County and we would like the government to be a 
good neighbor and participate in this effort to clean up their property 
as we have done on private property, locally. If the government does 
not take the same steps, our efforts could become meaningless once a 
``catastrophic'' wildfire is ignited.
    The challenges we face in Deschutes County, Oregon, are an 
excellent microcosm for the issues being faced around America with 
respect to fire. We have increasing population growth in the ``forested 
areas'' (wildland urban interface) surrounding the communities of Bend, 
Redmond, Sisters, Black Butte, Sunriver, and in particular the 
community of LaPine. At the same time tremendous tree and vegetation 
growth has occurred in the Deschutes National Forest. The most recent 
estimate from forestry experts is between 225 and 250 million board 
feet per year. There has been little removal of wood fiber from the 
Deschutes National Forest in the last 10 plus years, certainly nothing 
coming even close to the annual growth rate. Couple these factors with 
a forest floor fuel load of approximately 100 to 150 tons per acre 
(source--Tucker Williamson--private forester and consultant) of dead 
and dying timber; add the growth of smaller trees combined with high 
density; throw in drought conditions; add a dry thunderstorm and few 
bolts of lightning and you have a recipe for a disaster.
    The good news is that these challenges are not without solution. It 
is clear the problems being discussed today have been recognized at the 
national level. After the 2000 fire season when over 8 million acres 
had burned and the average cost-per-day of fighting a Type II or Type I 
fire was 1 million dollars, the National Fire Plan was adopted. Under 
this plan the federal fire budget rose from about 1 billion a year to 
1.8 billion for 2000, 2.9 billion in 2001, and 2.3 billion in 2002. 
This year has seen the Congress pass the Healthy Forest Restoration Act 
(H.R. 1904), which will allow for thinning of the National Forests and 
reduction in fuel loads--assuming it passes the Senate and is signed 
into law.
    The policy of ``let it burn'', which is controversial from many 
viewpoints, is not new. Elers Koch, a U.S. Forest Service Ranger, who 
fought the 3 million acre ``Big Blow Up'' Fire in 1910 stated ``I 
firmly believe that if the Forest Service had never expended a dollar 
in this country since 1900 there would have been no appreciable 
difference in the area burned over'' (Source--``Fire and Ashes''--
MacLean, 2003). Koch may have been right 100 years ago. That policy, 
today, would lead to the loss of millions of acres and many more homes 
and lives each year.
    The problem with this policy at the Federal level is that ``let it 
burn'' is premised on what is good for a healthy forest. In other words 
a forest that is ``natural''. What was a natural forest in Deschutes 
County over 150 years ago, before humans started intervening, is not 
the same forest we live with today. To quote MacLean in ``Fire and 
Ashes'' again: ``The amount of forest and grassland consumed by fire 
dropped dramatically from an average of about 30 million acres a year 
at the turn of the century, and from highs of 40 to 50 million acres a 
year in the drought years of the 1930's to an average of about 5 
million acres a year in the 1970's.''
    With increased fire protection and suppression efforts and the 
reduction of timber harvests and thinning, the fuel loads have 
increased dramatically in the last 15 years. As a result we have total 
destruction when fires are burning hotter and more destructively. The 
result is devastation. For example in many areas following the Davis 
Fire, the soil is burned and scorched at least 8 inches deep and 
completely sterilized. Nature may take care of this over time, but it 
will certainly not be in the near future. Meanwhile, the runoffs into 
Odell Creek and Davis Lake will be silt laden and increase the speed 
with which this lake becomes a marsh, fish will die off and preserved 
eagle habit could be eliminated.
    The primary solution to our fire problems in Deschutes County is 
really quite simple and at the same time amazingly complex and 
controversial. Thin the forest and reduce the forest floor fuel load. 
Because nature cannot take care of the problems in the same manner as 
she did before man's intervention, we must give her a hand and assume 
some of her responsibilities. Once the forests are thinned and healthy, 
fire will become the friend of the forests and not the devastating 
enemy it now is. Once the forests are thinned and healthy, fires will 
become easier to manage, safer to fight when appropriate, more nature's 
tool, and pose less of a problem to public safety.
    Although these actions are being taken and will help solve some of 
the problems associated with fire, there remain other challenges we 
deal with at the local level. The issues relating to wildland interface 
problems within community boundaries are primarily a local problem. We 
are dealing with the issues of Fire Free Zones through a combined 
committee of community representatives that work together to educate 
the public on how to ``fire-proof'' homes and their surrounding 
grounds. Project Impact, which was started with seed funding from FEMA, 
has allowed the community to make a number of significant changes that 
will enhance our ability to deal with wildfires. Unfortunately, the 
funding support for this program has gone away and with the severe 
budget crisis we are facing in Oregon, the discretionary local dollars 
to continue at a significant level has gone away. As a result, a 
valuable program that has an effective prevention impact in our 
communities has, paradoxically at exactly the time it is most needed, 
is unavailable. Federal assistance in this area would be invaluable not 
to mention cost effective.
    Certainly there are many definitions and opinions about what is 
best for a healthy forest. Many people express concern about the 
thinning solution, as ``that is just an excuse to bring back the 
logging of old-growth timber''. Followed by the comment that ``the only 
way we would even think about supporting this concept is with the 
imposition of diameter limits to insure old-growth trees are not 
taken''. The concept of artificial diameter limits is one that is a 
good ``straw-man'' argument to create another issue and subtract from 
the basic problem being addressed. It has been made very clear to me 
while walking in the forests before and after our fires there are trees 
of large diameter that should be removed for the health of other trees 
in the area as well as overall forest health. It is my belief, however 
that the decision on which trees should be taken and thinned should be 
left in the hands of the professional forestry experts who know what is 
appropriate to maintain a healthy forest that protects old growth 
trees. Undoubtedly there are circumstances when old trees should be 
removed.
    The issue of forest health and how best to achieve a healthy forest 
and maintain old growth timber has become so politicized and the 
various groups addressing the issue have become so polarized and 
emotional, that we are in gridlock and have been for the past 10 years. 
During that time, the fuel loads have grown larger, the forests have 
thickened until they are very unhealthy in many areas, diseased and 
dead timber has increased and millions of acres have been blackened 
taking with it uncounted numbers of animals and endangered species. 
Using the environmental protection act as a political tool, filing 
appeal after appeal and lawsuit after lawsuit to stop the actions of 
agencies charged with caring for and managing the forests has resulted 
in the catastrophic fires we are now fighting in Deschutes County.
    It is time for this type of behavior to end. It is time to address 
the problem of wildland fire and forest management in a substantive 
manner. It is time to create consensus and if necessary make unpopular 
decisions. And it is time NOW, not tomorrow. Last year when I met with 
Senator Wyden I closed our conversation with the following statement 
``if we fail to address this issue today, I will be involved in many 
more fires next year and the years after until one of them becomes the 
fire where we lose an entire community, many lives or both''.
    That statement is not an exaggeration. People who do not live here 
do not understand the close proximity of established communities and 
the forest. For example, my family and I live in Bend, a community that 
exceeds 50,000 people. We live in an established neighborhood, well 
within the city limits. Our home is close to shopping, the hospital and 
a significant medical complex and across from a school. When the 
Skeleton fire exploded in 1996, we could see the red glow of the fire 
from our front yard. During the recent ``18'' fire, we could see flames 
from the street that runs by our hospital. And many times we have found 
burned pine needles and other debris on our cars, parked in our 
driveway. And Deschutes County has other communities, such as LaPine 
and Black Butte that are actually in the forests. When a fire begins 
near those communities, the potential for devastation is understood by 
all.
    We have the power and the ability to do something--TODAY. We need 
you and the Federal government to become a partner with Deschutes 
County in finding solutions to this expensive and potentially deadly 
public safety issue. I urge you to do everything in your power to help 
make sure the Healthy Forests Restoration Act passes in the Senate and 
becomes law. I urge you to continue to develop programs and policy that 
will support prevention programs and interventions currently under way 
at the local level with Federal support.
    Thank you.
                                 ______
                                 
    The Chairman. Mr. Lillebo.

  STATEMENT OF TIM LILLEBO, EAST OREGON FIELD REPRESENTATIVE, 
                OREGON NATURAL RESOURCES COUNCIL

    Mr. Lillebo. Hello, Greg, and I appreciate this opportunity 
to address you on this important forest management issues. I 
was just looking at my testimony and relative to a fair amount 
of the other testimony, it reminded me of the old Yogi Bear 
cartoons. You know where there were the rangers and the bears 
were kind of always giving them a little bit of a hard time. If 
you guys are the rangers, I think I can safely say that, Yogi, 
the rangers ain't going to like this testimony. Anyway, I guess 
I will go ahead and give it a go.
    My group in particular is the Oregon Natural Resources 
Council. We are not a nonprofit statewide conservation Group. 
We have been around for many years and work on public land 
issues. And specifically my comments are about H.R. 1904, its 
content and what we think are needed improvements. At this time 
we are opposed to H.R. 1904 in its current form, and as I said, 
we would like to provide written recommendations to improve it.
    The bill itself in our view does not actually work or does 
not prioritize the funding to the wildland urban interface. 
That's already been addressed here to some degree. We believe 
the same thing. We should be at least as a first priority 
spending most of the money and spending most of the effort in 
that community zone, wildland interface where the houses and 
the property and the people are at risk.
    Also we have studies that have shown that as far as 
private, state and tribal land, that actually accounts for 
about 85 percent of that wildland urban interface where the BLM 
and the Forest Service appear to be only about 15 percent. So 
it would make sense also to--and there's been some discussion 
earlier--it makes sense also to focus more funds or prioritize 
on some of the private as well as the tribal and the state 
lands because that appears to be where most of the majority of 
the people are at risk. I think that might apply also on the 
east coast.
    The bill's language would allow logging in the back 
country, and we are thinking it should be prioritizing into the 
areas where the communities and houses are. There are other 
bills in Congress--I believe that was mentioned--there are 
several other bills in the Senate and some of those bills 
provide that 70 percent of the funds should be spent and the 
work done in that community on that wildland urban interface to 
actually protect the houses. To me that seems very reasonable.
    We only have so much funding and we hopefully will be able 
to get more and more as the time goes on. But it makes sense to 
prioritize right now first, and then there are areas out in the 
other parts of the forest that do need work as well. They need 
ecosystem restoration and that may involve prescribed burning, 
involve thinning, involve taking products out or get products 
as far as a result of thinning. But I think prioritizing makes 
sense, and I don' feel that this bill does that. It should 
actually state that.
    And I agree with last week's Oregonian editorial which is 
directed to the President and it reads, ``Commit explicitly to 
doing most of this first round forest treatments in so-called 
urban interface where houses and people are at risk rather than 
the back country.''.
    Another part is there is in our view is really no old 
growth protection provisions in this bill. It was addressed the 
forest plans would be adhered to, and there is--it is true 
there is some protection for old growth in those forest plans. 
So I will take back what I said here that there is no 
protection, but there is some of it. The key is that many of 
those forest plans are a decade or potentially almost two 
decades old and they only protect a very small portion of the 
actual remaining old growth.
    And so therefore again I would like to see that--we 
actually have overwhelming support nationwide I believe for 
protecting old growth. We would like to see that these thick, 
larger old growth trees are the fire resistant ones, and they 
are the ones that have lived through nature's millennia of 
ground fires, and we would like to see that these large old 
growth trees are ecologically the ones that we must retain 
while we do some burning or we do some thinning of the smaller 
diameter trees, while we do some brush removal.
    All those smaller trees have grown up after we suppressed 
fires for 60 to 80 years. So we are saying there's only a 
certain amount of old growth left. We logged for 60 years, we 
have precious few of these old growth left, and it makes sense 
to keep those. To me the notion that we log larger fire 
resistant trees to pay for the fuels reduction to me doesn't 
have a scientific or ecological basis.
    As one Congressman put it, if you have a failed kidney and 
you need a kidney transplant operation, you should not sell 
your one good kidney to pay for that kidney transplant 
operation. We need to protect those larger bigger trees. Again 
I agree with the Oregonian editorial that says, ``First, agree 
to amend the bill so that it reads clearly that no old growth 
trees or roadless areas should be logged under the guise of 
fire prevention. If the bill is not about old growth or 
roadless areas, it should say so.''.
    I think I am running out of time. I also have sections here 
about roadless areas. The same thing. We believe it should have 
provisions in the bill to protect those. The bill actually 
repeals the Appeals Reform Act which specifically gives 
statutory rights to citizens to actually appeal government 
decisions. And one thing if we are trying to build trust and 
collaboration providing for an as yet unknown and unformulated 
citizen review process, we need--if you are going to have this 
review process like you mention in your bill that's 
unformulated at this point, that new process should be put out 
and should be debated before any legislation passes.
    There's also some judicial questions we have about maybe 
interfering with the independent judiciary. We would like to 
give the final recommendations and then let the next speaker 
go.
    As far as the recommendations, several areas in legislation 
we believe that could be approved and really needs these 
provisions. It should say in the bill that it protects old 
growth and the larger fire resistant trees. That it would 
actually identify and protect roadless areas. Focus the funds 
and the work in that wildland community zone to protect the 
property, houses and communities. Provide significant 
additional funding beyond the national fire plan and beyond 
existing budgets to actually do the appropriate work on the 
ground because there is a lot to do. Maintain not lessen the 
current public input and appeal process, and not interfere with 
the independent judiciary and maintain the citizens current 
rights to legally challenge government decisions.
    And I have heard President Bush the other day and others 
say and opponents of this legislation insist that it isn't 
about killing old growth and it's not about roadless areas, and 
it is about maintaining citizens' rights. Then I just ask them 
that they clearly write that into the legislation, and I 
believe that we can all consider legislation that helps protect 
the communities and help protect our invaluable forest. So 
let's just do what we say and write it down and I think it will 
help everybody out. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Mr. Lillebo follows:]

      Statement of Tim Lillebo, Oregon Natural Resources Committee

    Hello Greg and members of the Resources Committee. I appreciate 
this opportunity to testify on important forest management and fire 
issues. Most of my comments will be directed to the H.R. 1904 fire 
legislation concerning its content and needed improvements. We are 
opposed to H.R. 1904 in its current form.
    This bill does not prioritize the funding in the Wildland Urban 
Interface (WUI) community zone where houses, property, and people are 
at risk. This bill does not significantly fund work on private, state, 
and tribal lands where the preponderance of WUI houses and communities 
are located. 85% of the WUI are private, state, or tribal lands and 
only 15% BLM and Forest Service federal lands.
    I ask the Resources Committee and the public, with 85% private, 
state, and tribal, doesn't it make common sense to first spend most of 
the money where you can help protect the most houses, private property, 
and people.
    Yes, we have many dry site ponderosa pine forests that need 
prescribed fire or small tree thinning followed by prescribed fire to 
help restore these forest ecosystems, but as first priority we should 
be focusing the limited funding on houses and community zones.
    This bill's language would allow logging in wildlands far away from 
homes and communities. I agree with last week's Oregonian editorial to 
the President which reads: ``commit explicitly to doing most of this 
first round of forest treatments in the so-called urban interface, 
where houses and people are at risk, rather than the backcountry.''
    There are no old-growth protection provisions in this bill. Again, 
the public has shown overwhelming support to protect old-growth. It is 
these thick barked larger old growth trees that are fire resistant and 
lived through nature's millennia of ground fires.
    These large old growth trees are ecologically the ones we must 
retain while we burn or thin the thick stands of small trees and brush 
that have grown in since we suppressed most ground fires for the last 
60-80 years. After a century or more of logging big trees, we have 
precious few left in our forests. The notion that we log larger fire 
resistant trees to pay for fuels reduction has no scientific or 
ecological basis. It just doesn't make sense to log off the fire-
resistant big trees. As one congressman put it, if you have a failed 
kidney, you sell your one good kidney and to pay for the kidney 
transplant operation. No way. This is failed logic. Our precious public 
forests are a great American heritage and they are more than worth 
funding investments to help protect them.
    I agree with last week's Oregonian editorial to President Bush 
which reads:
        ``First, agree to amend the bill so that it reads clearly that 
        no old-growth trees or roadless areas will be logged under the 
        guise of fire prevention'' and ``if this bill is not about old 
        growth or roadless areas, it should say so.''
    This bill has no protection for roadless areas from logging.
    The recent National Forest Roadless Area Protection Rule received 
millions of public comments with the overwhelming majority in favor of 
full Roadless Area Protection from new roads and logging. Some of these 
areas need ecosystem restoration. When funds become available, many of 
these areas could be prescribed burned with no mechanical treatment or 
thinning.
    Sure we hear publicity on the few prescribed fires that got away, 
which is very sad in some cases, but there have been thousands of 
prescribed burns that reduced fuels and were performed professionally 
by Forest Service experts.
    Again, I agree with last week's Oregonian editorial to President 
Bush which reads: ``agree to amend the bill so that no old-growth trees 
or roadless areas will be logged under the guise of fire prevention''. 
``If this bill is not about old growth or roadless acres, it should say 
so.''
    This bill repeals the Appeals Reform Act of 1992 for fuels 
reduction projects and takes away the current statutory rights of 
ordinary citizens to challenge and appeal such government decisions. If 
we are trying to build trust and collaboration, it is not a good idea 
to take away current legal rights of American citizens to challenge the 
government. The bill provides for an unknown and as yet unformulated 
citizen review process. Any new process must be known and debated 
before any legislation passes.
    The public input and citizen rights to the appeal process often 
leads to a better project on the ground.
    Some timeframes can be shortened, but these timeframes must be 
reasonably long to allow for meaningful public input. We are willing to 
have somewhat expedited time frames for fuels reduction projects in the 
1/3 mile WWI Community Zone near houses, but the public must retain 
full public participation and the appeals process outside this 1/3 mile 
zone.
    Many times, the public has improved projects by being involved in 
the project planning. One local example is the large 13,000 acres 
Metolius Basin Fuels Reduction Project. In the draft proposed Forest 
Service Alternative 150-200+ year old fire resistant ponderosa pine 
were planned to be logged. A citizens Federal Advisory Committee was 
involved and then major public input was received that objected to this 
old growth logging, which helped the Forest Service change the proposed 
alternative to not log the old growth ponderosa pine. This is the 
beauty and propriety of full and complete public input and appeals 
process.
    Under the H.R. 1904 bill, the Metolius project may have had only 
one alternative and citizens would not have had the same public input 
or appeals and the old growth pine logging could have sadly happened. 
Only one alternative does not give land managers or the public a 
reasoned choice as is rightly required by the current law. The public 
needs full NEPA process and forest managers need a choice among 
alternatives.
    We should not short-circuit the public input process.
    Studies of all of the fuels reduction projects have shown that the 
vast majority of the appeals were resolved in the normal public 
allotted time frames.
    This bill could allow 1,000 acre projects with no logging 
limitations if the area has trees that are at risk of fire, insect, or 
disease damage. Does that mean any tree made of wood? We need 
clarification and definitive protection guidelines here. Not only could 
the bills language allow these areas to be clear cuts, but there could 
be many 1,000 acre areas back to back, one after another. Greg and I 
have discussed this, and I do not think the agencies would normally 
plan 1,000-acre clear cuts, but the bills' language would not 
specifically prohibit it.
    We have many examples of good fuels reduction projects that can be 
models for future actions. I will mention three such projects.
    <bullet> Highway 20 Fuels Reduction. Sisters to Black Butte: thin 
8''dbh, mow, and prescribe burn, with one 10''dbh commercial thin 
adjacent to Black Butte Community. The project left the larger fire 
resistant trees and old growth--it is a public success story and it was 
not appealed. People like it!
    <bullet> Chiloquin Project (in south central Oregon) thinning and 
burning to protect small community in South Central Oregon-Forest 
Service said 8'' dbh limit was good to get fuels reduced and no 
appeals.
    <bullet> Crater Lake area thinning project: prescribed burning, 
small tree and commercial thin 12'' dbh to restore old growth and 
forests adjacent to Crater Lake National Park--there was commercial 
product and an old growth interpretation area with no appeal.
    Unfortunately H.R. 1904 does not have a strong prescribed fire 
provision.
    We should generally try to get the most ``bang from our buck'' to 
reduce fire risk. The least expensive way is to use prescribed fire. 
There are literally millions of acres of western forests that with 
little or no mechanical treatment could be prescribed burned. These 
prescribed burns can be relatively cheap and effective firebreaks. 
Prescribed burning is often 1/10th to 1/3 the cost of thinning the same 
acres. There are millions of acres where a small tree <8''dbh thinning 
can be done and followed by prescribed fire.
    There are also millions of acres in previously roaded lands that 
could be thinned up to 12'' dbh and provide forest products and some 
financial return. We could use the model projects I previously 
mentioned to design future projects.
    This bill interferes with our independent Judiciary. The foundation 
of our democracy is the three branches of government: Congress, 
Administrative, and Judicial; our system of checks and balances. This 
bill unreasonably restricts the rights of citizens to legally challenge 
government decisions and restricts the independent judiciary.
    The public only having 15 days to file a legal challenge is totally 
unreasonable. Also giving special weight to the government in 
litigation is unfair to citizens and violates our impartial judiciary.
    I agree with last Wednesday's Oregonian editorial to President Bush 
which reads: ``Do not go after the judicial process'' ``the first step 
in creating a healthier political climate on public lands should not be 
to restrict the ability of people to challenge government decisions''
    It's a scientific fact that the dry intermountain west ponderosa 
pine forests were born of fire. For thousands of years fire was the 
natural part of the ecosystem and despite all our efforts, fire will 
continue. It's not a question of IF these forests will burn; it's WHEN 
they will burn. We can and should join with nature and use prescribed 
fire and appropriate small tree thinning to try and restore the 
ecological balance of these fire dependent forests.
Recommendations
    There are several areas where this legislation must be improved and 
needs provisions for:
    <bullet> Protect old growth and large fire resistant trees;
    <bullet> Protect roadless areas;
    <bullet> Focus the funds and work in the WUI Community Protection 
Zone to actually protect property, houses, and communities;
    <bullet> Provide significant additional funding to do the 
appropriate work;
    <bullet> Maintain, not lesson, the current public input and appeal 
process; and
    <bullet> Not interfere with the independent judiciary and maintain 
American citizens' current rights to legally challenge government 
decisions.
    If these important elements are clearly added to the bill, we will 
have good common ground to pass legislation that helps protect people, 
communities, and our invaluable forests.
                                 ______
                                 
    The Chairman. Mr. Shelk.

          STATEMENT OF JOHN SHELK, MANAGING DIRECTOR, 
                    OCHOCO MANAGEMENT. INC.

    Mr. Shelk. Congressmen, my name is John Shelk. I am the 
managing director of Ochoco Lumber Company in Prineville, 
Oregon. Ochoco is the oldest surviving lumber manufacturer east 
of the Cascades in Oregon. My family was one of the founding 
families of Ochoco Lumber Company which was formed in 1924, 
Ochoco has 250 employees, and I am a life long resident of 
Prineville, Oregon. I support the Healthy Forest Restoration 
Act. I see it as a balanced response to the natural resources 
gridlock that currently exists on public land throughout the 
western United States.
    Our company owns about 75,000 acres of our own timberland. 
On this timberland we share a common boundary of approximately 
25 miles with the Federal government, either the U.S. Forest 
Service or the Bureau of Land Management. Last summer we lost 
60 acres of timberland and nearly $200,000 of timber to 
wildfire on the Flagtail Fire near John Day, Oregon. The fire 
started in untreated stands of timber on the Malheur National 
Forest and swept through dense thickets of ponderosa pine until 
it arrived at our property. Because we had thinned our land, we 
were able to contain the fire with the loss of only 60 acres. 
This 60 acre loss is uninsured as we are unable to economically 
purchase fire insurance for this land. We will have to bear the 
cost of rehabilitating the fire damaged land, and we will have 
to wait generations before we once again have a commercial 
stand of timber.
    We accept fire as one of the risks of owning private 
timberland. What's difficult to accept is the wholly inadequate 
response of the Federal agencies to wildfire prevention and 
suppression. Additionally private timberland owners get no 
compensation for damage to their land as a result of wildfires 
escaping from Federal lands. Whereas victims of floods and 
other natural disasters are eligible for assistance, we must 
bear our own losses unaided by anyone.
    There's been widespread alarm at the large expense of 
suppressing wildfires coupled with the extensive size of these 
fires in recent years. During the 60-year period through the 
yearly 1990s, the acres burned on national forest and the cost 
of fire suppression was relatively low. The answer to this 
issue is obvious. During most of that 60-year period there have 
been loggers in the forest. Loggers had skidding tractors and 
firefighting equipment on the job site, plus sufficient 
employees to act as a rapid response team when forest fires 
occurred near them. They were able to quickly move to the site 
of the fire and extinguish the blaze when it was still very 
small.
    Today with few active timber sales on national forests, the 
loggers are gone and the response time on a fire by Forest 
Service fire crews is frequently so long that the fire has 
burned tens if not hundreds of acres before the firefighters 
arrive at the site.
    Another important tool in economically dealing with forest 
health issue is currently in danger of being of lost and that 
is the processing plants, the sawmills, that can act as 
processors of some of the thinnings of forest clean-up 
activities. There exist in Central Oregon at least two sawmills 
capable of processing small diameter timber which would be a 
by-product of forest health activities. These sawmills could 
add value to that product that is removed from the forest and 
thereby partially offset the expense involving the thinning 
activities.
    At our small log mill in Prineville which is currently 
sitting idle due to a lack of timber we could re-employ up to 
80 people immediately if we had a sufficient supply of logs for 
these thinning activities. We process logs from six inches to 
16 inches in diameter in the sawmill and in no way depend upon 
old growth trees to operate this facility. It should be noted 
that we plan to dismantle this facility in the near future if 
we are unable to purchase sufficient logs to reopen the mill.
    I'm obviously very close to the resource issues of our 
region, forest health, wood products employment, wildfire on 
public lands and the risk public land mismanagement brings to 
private landowners. I am frustrated and amazed that this has 
become a largely partisan issue that pits one political party 
against another. This is not a political issue. It's one of 
common sense. Should we intervene in the natural process which 
is growing vegetation and trees at the rate of hundreds of 
millions of board feet per year on our national forests in 
Central Oregon? Should we do this under the strict 
environmental laws that currently afford the highest resource 
protection standards of harvesting available in the world 
today? Or should we continue in political gridlock and allow 
our national forest to be subject to uncontrolled wildfires 
that burn with an intensity that destroys everything in its 
path? The answer seems to me to be absurdly obvious that I am 
appalled at the current attempts to polarize and politicize 
this issue. Thank you.
    The Chairman. Thank you.
    [The prepared statement of Mr. Shelk follows:]

              Statement of John Shelk, Managing Director, 
                 Ochoco Lumber Co., Prineville, Oregon

    Congressman, my name is John Shelk. I am the Managing Director of 
Ochoco Lumber Company in Prineville, Oregon. Ochoco is the oldest 
surviving lumber manufacturer east of the Cascades in Oregon. My family 
was one of the founding families of Ochoco Lumber Company, which was 
formed in 1924. I am a life-long resident of Prineville.
    I am an enthusiastic supporter of H.R. 1094, the Healthy Forest 
Restoration Act. I see it as a balanced response to the natural 
resources gridlock that currently exists on public land throughout the 
Western United States.
    Our company owns about 75,000 acres of our own timberland. On this 
timberland, we share a common boundary of approximately 25 miles with 
the federal government; either the U.S. Forest Service or the Bureau of 
Land Management. Last summer, we lost 60 acres of timberland and nearly 
$200,000 of timber value to wildfire on the Flagtail Fire near John 
Day, Oregon. The fire started in untreated stands of timber on the 
Malheur National Forest and swept through dense thickets of Ponderosa 
Pine until it arrived at our property. Because we had thinned our land, 
we were able to contain the fire with the loss of only 60 acres. This 
60 acre loss is uninsured, as we are unable to economically purchase 
fire insurance for timberland. We will have to bear the cost of 
rehabilitating the fire damaged land, and will have to wait generations 
before we once again have a commercial stand of timber.
    We accept fire as one of the risks of owning private timberland. 
What is difficult to accept is the wholly inadequate response of the 
federal agencies to wildfire prevention and suppression.. Additionally, 
private timberland owners get no compensation for damage to their land 
as a result of wildfires escaping from federal lands. Whereas victims 
of floods and other natural disasters are eligible for assistance, we 
must bear our own losses unaided by anyone.
    There has been widespread alarm at the large expense of suppressing 
wildfires, coupled with the extensive size of these fires. In the last 
sixty years through the early 1990's, the acres burned on national 
forests and cost of fire suppression have been relatively low. The 
answer to this issue is obvious: during most of that sixty year period 
there had been loggers in the forests. Loggers had skidding tractors 
and firefighting equipment on the job site, plus sufficient employees 
to act as a rapid response team when forest fires occurred near them. 
They were able to quickly move to the site of the fire and extinguish 
the blaze when it was still very small. Today, with few active timber 
sales on national forests, the loggers are gone, and response time on a 
fire by forest service fire crews is frequently so long that the fire 
has burned tens if not hundreds of acres before firefighters arrive at 
the site.
    An important tool in economically dealing with the forest health 
issue is currently in danger of being lost, that being the processing 
plants, sawmills, that can act as processors of some of the thinnings 
from forest clean up activities. There exist in Central Oregon at least 
two sawmills capable of processing small diameter timber that would be 
a by-product of the forest health activities. These sawmills could add 
value to the product that is removed from the forest, and thereby 
partially offset the expense involved in the thinning activities. At 
our small log mill at Prineville, which is currently sitting idle due 
to a regional log shortage, we could re-employ up to eighty people 
immediately if we had a sufficient supply of logs from the thinning 
activity. We process logs from six inches to sixteen inches in diameter 
in this sawmill, and in no way depend on old growth trees to operate 
this facility. It should be noted that we plan to dismantle this 
facility in the near future if we are unable to purchase sufficient 
logs to re-open the mill.
    I am obviously very close to the natural resource issues of our 
region: forest health, wood products employment, wildfire on public 
lands and the risk that public land mismanagement brings to private 
landowners. I am frustrated and amazed that this has become a largely 
partisan issue that pits one political party against another. This is 
not a political issue, it's one of common sense. Should we intervene in 
the natural process which is growing vegetation and trees at the rate 
of hundreds of millions of board feet per year on our national forests 
of Central Oregon? Should we be allowed to do this under the strict 
environmental laws that currently afford the highest resource 
protection standards of harvesting available in the World today? Or 
should we continue in political gridlock and allow our national forests 
to be subject to uncontrolled wildfires that bum with an intensity that 
destroys all in its path? The answer seems so absurdly obvious that I 
am appalled at the current attempts to polarize and politicize the 
issue.
                                 ______
                                 
    The Chairman. Mr. Johnson.

               STATEMENT OF DON JOHNSON, OWNER, 
                  D.R. JOHNSON TIMBER COMPANY

    Mr. Johnson. Again I would like to thank both of you for 
coming and listening to us here today to see what it's really 
like here particularly Mr. Pombo. My name is Don Johnson. I am 
a native Oregonian. I was born and raised west of Eugene and my 
father had a little mill he built during the depression. I 
worked in it until I graduated from high school outside of 
going to school. I moved here to Riddle in 1951 and built a 
sawmill over there which is still there, and I have been in 
this business now for 53 years so I think I have a lot of 
experience. I have made a lot of mistakes and have gained some 
experience from that.
    What's our problem today? Our problem really stems from a 
group of people that have filed lawsuits, and those lawsuits 
have got into these Federal extremely liberal judges that have 
taken the Endangered Species Act and twisted it any way they 
might want to get what they want out of it. That's what has 
happened. And it isn't helped by the past Administration, and 
it nearly destroyed our natural resource industries. Without 
our industries--God has given us these trees here for man to 
use for homes and other uses, not just to look at or to leave 
to burn up. If we don't manage them like we should, that will 
happen exactly like what's going on now. Without our natural 
resource in our country, our country cannot survive.
    Those involved in the movement will say they are shooting 
only at big business. But as a small family owned business that 
has been destroyed, as you know these are the heart of America. 
These same people who are none other than terrorists just like 
any other are trying to destroy our country. They have used the 
endangered species very effectively. Our natural resource of 
course is a basis for all of our wealth and most 
environmentally clean renewal supply that we have today to 
build homes and all those great things that wood are used for.
    The Endangered Species Act has been so misused that it 
allows little groups to actually shut down family business when 
the act was in no way intended to replace or not to allow the 
human element to be in this which is a fact of the bugs and the 
bees and the birds and all those that have greater priority 
over us is the way the law is interpreted. This is where we are 
at. This is how we got to this point.
    What's the solution? I am just a redneck from Douglas 
County, but I believe the only way we are going to get this 
system under control is first would have to acknowledge these 
people are terrorists and get tough with them. We just can't 
allow them to bring our country to poverty by stopping the 
capitalistic system. We need to utilize our natural resources 
and manage our growth. We need to clean up the forest and do so 
immediately.
    Dollars that should be going to the county, to states and 
federally government are literally burned as we speak. Tell the 
families of the firefighters who just had six of their young 
people killed in this accident--in fact eight all together of 
which six of them are from my county in Douglas County. That's 
a major, major tragedy. And this was brought on because the 
fires and them working long, long hours and trying to put it 
out and wanting to get home because they had been gone for 
quite awhile and use of unwise ideas to get there. And it just 
didn't work. That's a great, great tragedy in my opinion, and 
it was totally unnecessary. Had we had not had fires burning 
here, they would not have been in that pickup or that whatever 
it is and been killed trying to get home. I think that's the 
end of mine, and I will be sure glad to answer any questions.
    The Chairman. Thank you.
    [The prepared statement of Mr. Johnson follows:]

     Statement of Don Johnson, Owner, D. R. Johnson Lumber Company

Introduction
    Good afternoon, Mr. Chairman. My name is Don Johnson and I am the 
owner of D.R. Johnson Lumber Company, based in Riddle, Oregon. In 
addition to the sawmill, laminated beam plant, and cogeneration plant 
in Riddle, my family and I also have sawmills in Round Prairie, John 
Day, Prairie City, Wallowa, and North Powder, Oregon. Additionally, I 
have one other cogeneration plant located at the Prairie City facility. 
I am proud to say that I support nearly 500 employees at my operations, 
and provide each one with family wage jobs and benefits. I have lived 
in a rural community all of my life and have a great deal of 
appreciation for the hard working families in those communities.
    I have been in the forest products business for over fifty years, 
and am a believer in wise management and sustainable use of our forest 
resources. As evidence to this, our crews are now harvesting trees on 
land we logged several decades ago. I have truly seen the cycle of wise 
use in the forests.

The forest health crisis
    Our nation faces a severe forest health crisis. Fire and endemic 
levels of insects and disease are a natural part of a healthy 
ecosystem, but our federal forests currently are not healthy and 
therefore the fires and insect and disease epidemics that we are seeing 
today are unnatural and widespread. Whether it is raging fires, 
ravaging insects, or pathogens that threaten to wipe out entire 
species, not a single region of the country, nor any person in it, is 
being spared the devastating economic and environmental consequences of 
this forest health crisis.
    Recent national forest policies have served to exacerbate, rather 
than solve, these problems. The practice of fighting every wildfire, 
coupled with a passive forest management philosophy, has created and 
exacerbated this monumental crisis. Federal land managers are unable to 
actively manage our forests to address the problems.
    The effects of wildfires are disastrous and far-reaching. The 
wildfire seasons of 2000 and 2002 were among the most destructive fire 
seasons in the last half-century. In 2002, forest fires burned nearly 7 
million acres at a cost to federal land management agencies of over 
$1.6 billion. Since 2000, South Dakota, Oregon, Arizona and Colorado 
have each experienced the largest wildfires in their respective 
history. The impacts are far-reaching: loss of lives and homes, 
displacement of communities, loss of tourism dollars, destruction of 
wildlife habitat and watersheds, and damage to timber and non-timber 
resources. The events of the past few summers have provided us with 
numerous examples of just how devastating wildfires and other natural 
events can be.
    In the past two years we have experienced large wildfires in the 
areas where my companies have operations. In 2002 the Flagtail and 
Monument Rock fires burned large acreages on the Malheur and Wallowa-
Whitman National Forests. The Biscuit Fire destroyed nearly 500,000 
acres on the Rogue River/Siskiyou National Forests. Very little salvage 
or fuels reduction have occurred on these burned areas since last 
summer.
    Again this summer we are seeing the forests burn because of dense 
and unhealthy trees. Most recently, we have had fires in the Santiam 
Pass area in Oregon. This area had a severe outbreak of spruce budworm 
attacks in the 1980's and it was clear that a catastrophic fire was 
eminent. In just the past two years, we've had the Cache Mountain Fire, 
Link Fire, and just the other day, the Booth and Bear Butte Fires 
started in this very area. These fires have destroyed valuable wildlife 
habitat, led to repeated evacuations of campgrounds and church camps, 
and destroyed two homes. As of this hearing date, the Booth and Bear 
Butte Fires still threaten homes, have a major east-west highway 
closed, and are destroying habitat we tried to protect for threatened 
and endangered species.

What is needed?
    There has been a great deal of debate recently about where we 
should focus our efforts on forest health restoration and fuel 
reduction projects. Some argue we should limit it to within a 
prescribed distance of communities and developments. But empirical 
evidence proves otherwise.
    Take for instance the Cache Mountain Fire of 2002 on the Deschutes 
National Forest. This fire started at least 4 miles from a local 
community in Central Oregon. When it was done, it traveled that 
distance and burned two homes. Coincidentally, the fire started and 
burned through an area that was scheduled for vegetation management 
designed specifically to reduce such risks but due to environmental 
groups appealing and litigating, the project still has not been 
implemented.
    Another example, again from Central Oregon, is the Davis Fire. This 
fire, origin still undetermined, started in the vicinity of the East 
Davis Lake Campground on the Deschutes National Forest. Though at least 
10 miles from the nearest community, La Pine, this fire threatened 
human lives in the crowded July 4th campgrounds, but it also put the La 
Pine community on alert. Why? Because of the conditions of the forest 
and the fact that the fuels and weather conditions were such that the 
fire had the potential to travel great distances. Fortunately, there is 
clear evidence that due to the foresight of the Forest Service and its 
Seven Peaks project, there was enough managed areas to the east of the 
origin to allow firefighters to dig in and stop the fire.
    The point here is that we cannot simply say forest health and fuel 
treatments should only occur within a certain proximity of communities 
or the interface area. There are other values, e.g. key watersheds, 
eagle nests, old-growth stands, and campgrounds that also deserve equal 
protection.
    This is why when the Western Governors' Association worked 
collaboratively on its 10-year comprehensive strategy and 
implementation plan, there was no direction on where the conduct these 
types of activities. The collaborative group, including representatives 
of the industry, environmental groups, local governments, tribes, etc., 
instead opted to allow the state and local levels to determine where 
best to focus on restoring forest health and reducing the risks of 
catastrophic wildfire.

Recent research
    I wish to highlight for the record a recent report from forestry 
researchers at the Oregon State University. This study <SUP>1</SUP> has 
found that old-growth ponderosa pine, even trees more than 250 years 
old, can increase their growth, improve their health and respond 
quickly to thinning that provides the trees with more water. The 
research, has important implications for the management of old-growth 
pine forests in the western U.S. because there are millions of acres in 
very poor condition, suffering from a century of fire suppression that 
has led to overcrowded conditions, inadequate water and nutrients, poor 
tree growth, epidemics of insects and risk of catastrophic fires.
---------------------------------------------------------------------------
    \1\ Carbon isotope discrimination and growth response of old Pinus 
ponderosa trees to stand density reductions, N. McDowell, J. R. Brooks, 
S. A. Fitzgerald & B. J. Bond, Department of Forest Science, Oregon 
State University, Corvallis, OR 97331, USA, Western Ecology Division, 
NHEERL/ORD/EPA, Corvallis, OR 97333, USA and Department of Forest 
Resources, Oregon State University, Corvallis, OR 97331,USA.
---------------------------------------------------------------------------
    The study showed that even trees that are hundreds of years old 
could increase their growth and presumably their ability to resist 
insect attack if they are given a chance. ``Some people believe that 
old-growth ponderosa pine forests are decadent, that they can't really 
respond to the aggressive thinning that would restore conditions 
similar to those we had before fire was excluded from these forests,'' 
said Stephen Fitzgerald, an Extension silviculture specialist with OSU 
and expert on the types of pine forests that dominate much of the drier 
portions of the American West.
    Historically, fire moved through many dry forest regions of the 
West as often as every 10-15 years. In areas suitable for ponderosa 
pine, this ``thinning by fire'' resulted in a park-like setting of 12-
35 huge ponderosa pine trees per acre, with very little underbrush or 
other trees. Trees 300-500 years old thrived and some lived up to 800 
years, and these healthy ecosystems supported a broad range of other 
plants, grasses and wildlife species that were associated with these 
old-growth conditions. With fire exclusion during the past century, 
these same areas now often have 1,000 to 2,000 trees or saplings per 
acre, instead of 12-35, the researchers said. The heavy undergrowth 
creates a ``ladder'' that can turn natural ground fires into stand-
replacement fires that can kill the large trees. And all the 
vegetation, starved by intense competition for water, light and 
nutrition, declines in health.
    ``Part of what's clear is that we cannot save these old-growth pine 
ecosystems simply by putting a line around them and leaving them 
alone,'' Fitzgerald said. ``If we just walk away from millions of acres 
of forest we may lose it all to fire or insect attack. To save the old-
growth ponderosa pine we still have, we'll have to act.''
    In their research, they studied the historical effect of thinning 
on several ponderosa pine stands near Camp Sherman, Oregon, which had 
60-80 percent of the tree stocking removed and probably 90 percent or 
more of the total number of trees, leaving only the largest and 
healthiest ponderosa pines. The study showed that after aggressive 
thinning, which provides more water to the remaining trees, the old-
growth trees responded immediately and dramatically. Their increased 
vigor and photosynthetic response will help make them more insect and 
disease resistant, and the change in the forest structure significantly 
reduced the risk of stand replacement fire. The trees continued a 
higher level of growth for up to 15 years following the thinning.
    The thinning regimens necessary to accomplish this depended on the 
site and its level of overcrowding, but often included removal of 
almost all small and some of the medium-sized trees, along with brush 
and other vegetation. Thinning can also help step down the fuels in 
these stands, so that fire can be re-introduced more safely. ``The type 
of thinning that was used in this study is being done in very few 
interior, old-growth forests across the West,'' Fitzgerald said. ``It's 
becoming increasingly clear that these techniques can bring these 
forests back to health and growth, and that's something we have to 
consider if we're serious about preserving old-growth pine forests. 
Simply leaving them alone may be their doom.''

Our local economies
    My testimony would not be complete if I did not emphasize how 
important resource-related jobs are to the rural communities of Oregon. 
The areas where my mills are located are surrounded by Federal land and 
thus are very dependent on the proper management thereof.
    Oregon has the dubious distinction of being among the highest 
unemployment rates in the nation. This problem is particularly acute in 
our rural communities.
    Many believe the President's Healthy Forest Initiative and H.R. 
1904 are just an excuse to cut big trees. But that's not what we're 
after. We want jobs provided by thinning and cleaning up these forests.
    My facilities, similar to many others in this industry, are re-
tooled to handle smaller logs than the past. In my company's case, with 
my co-generation facilities, I can even handle material that wouldn't 
qualify for a sawlog of any diameter.
    But the problem is that there is so little management, it's 
virtually impossible to supply even these types of materials to my 
mills.

Closing
    I hope that meaningful legislation can be passed to expedite needed 
restoration in our forests. Clearly there's a problem and clearly 
there's a common sense solution. First and foremost, members of 
Congress must realize that there's a need to fix the analysis paralysis 
from the policy-level.
    Second, members of Congress must empower the resource professionals 
on the ground and the local communities to decide what's best for their 
specific situation.
    I believe H.R. 1904 does this and I respectfully ask that the House 
and Senate pass this important and timely legislation.
    Thank you for this opportunity to submit this testimony for the 
record.
                                 ______
                                 
    The Chairman. Mr. Minnick.

   STATEMENT OF RALPH MINNICK, CHIEF FINANCIAL OFFICER, WARM 
               SPRINGS FOREST PRODUCTS INDUSTRIES

    Mr. Minnick. Mr. Chairman, Representative Walden, committee 
members, good afternoon. I am Ralph Minnick, Chief Financial 
Officer of the Warm Springs Forest Products Industries, a 
wholly owned subsidy of the Confederated Tribes of Warm Springs 
on whose behalf I am here today. Thank you for a chance to 
testify this afternoon on H.R. 1904, the Healthy Forest 
Restoration Act, and in particular on its biomass provisions in 
Title II.
    The Warm Springs Reservation is about 45 minutes north of 
here and half of our 650,000 acre reservation is timber and 
immediately bordered by national forests. We have been actively 
harvesting our forests since the 1930s and is the primary 
source of our private government's income. We have our own 
sawmill which employs about 135 people with an annual payroll 
of about $6 million, and we hire work crews so we have 
additional payroll of about $7 million.
    Because of our mill's importance to the local employment, 
we try to keep it operating, but despite that soft timber sales 
and reduction of our harvest rate from accelerated levels in 
the past have placed the mill under economic pressure. We had 
to eliminate the second shift at the mill cutting 65 jobs. We 
are actively seeking new economic opportunities. One such 
opportunity is biomass generation. We have examined the 
Commercial Utilization Grant and Value Added Grant provisions 
in Title II of H.R. 1904 and support them both.
    Our mill has two power boilers that drive three steam 
electric generators principally to generate five million watts 
of electricity needed by the mill. But they are also hooked up 
to the local electrical grid so we can sell electricity in the 
northwest market place. We also have two process boilers that 
run our drying kilns. All four boilers run on fuel. If we were 
to operate those systems year round, they would consume about 
86,000 bone dry tons of wood fuel a year. Of that our mill 
produces about 52,000 bone dry tons a year. If run year round, 
we would have to buy most of the additional 35,000 bone dry 
tons at the local chip markets.
    Right now the northwest chip market is a little tight and 
you have to pay about 33 bucks a ton for a steady supply of 
fuel. With the electrical prices the way that they are, if we 
had to pay more than $10 a bone dry ton, it is cheaper to shut 
down the power boilers and buy the mill's electricity from our 
local utility. So we don't buy many chips and our power boilers 
don't run very often.
    However, the Commercial Utilization Grant program could 
easily help stem that difference. $33 a bone dry ton converts 
into $16.50 a green ton and within H.R. 1904 maximum of $20 a 
green ton. If more wood fuel comes out of local forests, that 
price could decline. So by our calculation, the Commercial 
Utilization program could enable this state to buy thousands of 
tons of forest a year.
    H.R. 1904 Value Added program would also be helpful. For 
instance, we need a portable chipper for Warm Springs logging 
crews to directly move biomass fuels to our local forests. A 
used portable chipper is about $175,000. And it's maximum 
$100,000 Value Added Grant would be helpful. If possible, 
however, hopefully that maximum could be increased to $500,000 
which was the maximum in the now sidelined Senate energy bill 
version of the biomass system. The increase in capitalization 
system would allow a wider range of communities particularly 
those in more distress and marginal locations to get into a 
biomass program.
    With regard to the Senate's version of H.R. 1904 as 
reported from the Senate Agriculture Committee, I'd like to 
note our strong support for tribal watershed assistance program 
and the inclusions of the tribes in the new public land and 
rural community forestry enterprise programs. They are needed 
and would be helpful.
    Finally the Intertribal Timber Council of Warm Springs and 
other tribes are pursuing the idea of the Senate bill to grant 
tribes preference and stewardship contracting on Federal lands 
around those reservations to protect our trust timber assets. 
This is just a pilot project limited to no more than 12 
qualified tribes. The preference would not operate to displace 
existing contractors. We think it's a good idea and hope we can 
get adopted in the Senate bill and very possible in Congress. 
Mr. Chairman, that concludes my testimony.
    [The prepared statement of Mr. Minnick follows:]

   Statement of Ralph Minnick, Chief Financial Officer, Warm Springs 
  Forest Products Industries, Confederated Tribes of the Warm Springs 
                         Reservation of Oregon

Introduction
    Mr. Chairman, Members of the Resources Committee, I am Ralph 
Minnick, the Chief Financial Officer for Warm Springs Forest Products 
Industries, a wholly owned subsidiary of the Confederated Tribes of the 
Warm Springs Reservation of Oregon. On behalf of the Warm Springs 
Tribal Council, which has asked me to testify today, I thank you for 
this opportunity to talk about H.R. 1904, the Healthy Forest 
Restoration Act, and in particular about Title II, its Biomass 
provisions, which is of particular and timely importance to Warm 
Springs Forest Products, to the Warm Springs community, and to the 
Tribe.

The Warm Springs Tribe and Reservation
    The Warm Springs Reservation covers 650,000 acres in north central 
Oregon, running from the crest of the Cascade Mountain Range down the 
eastern slope to the canyon of the Deschutes River. It has always been, 
and will always remain, the home of the Confederated Tribes of Warm 
Springs. Most of our 4,200 Tribal members reside in the Reservation 
community of Warm Springs.

The Warm Springs forest and sawmill
    Half our Reservation is forested, in Douglas fir and other conifers 
at the higher elevations, ponderosa pine further down, and juniper and 
sage at lower elevations. This is prime commercial forestland, and has 
been actively harvested since the 1930's. In 1940's, a sawmill was 
privately built at Warm Springs, and in 1967, our Tribe purchased it. 
In the early 1970s, we acquired two used boilers and three steam 
turbine generators to burn our hogged fuel and generate electricity. 
This electricity was principally for the mill's own use, but, 
facilitated by the Tribes' involvement with a nearby hydroelectric 
project, we also tied it into the local electric system, which enabled 
us to also sell our electricity into the broader Northwest market 
place.

Slow-down at the mill
    The harvest of our Tribe's timber is a principal source of income 
for the Warm Springs Tribal government, and logging and work in the 
mill provide significant employment for our community. Our forest 
products enterprise, Warm Springs Forest Products Industries (WSFPI), 
provides 135 full time jobs and an annual payroll of over $6 million. 
Local loggers working with WSFPI generate additional revenues of over 
$7 million a year.
    Today's forest-related revenue and job figures for Warm Springs, 
however, are down substantially. The soft timber market and a reduction 
in harvest from past accelerated levels recently prompted the mill to 
eliminate the second shift, with a consequent loss of 65 full time 
jobs. And our mill, the last still operating in north central Oregon, 
remains under economic pressure.
Exploring biomass potential
    With this difficult financial picture, we are actively exploring 
other potential sources of revenue, and with our boiler--generator 
power plant and the proximity of several National Forests, we have been 
closely examining the potential for biomass generation at Warm Springs 
Forest Products Industries.
    In the early 1970s, WSFPI purchased our power plant from the 
Fairbanks Exploration and Mining Company. Originally erected in 1927 in 
Alaska, the plant was disassembled and shipped to Warm Springs, where 
it was rebuilt and put back in operation in 1976. During 
reconstruction, the two Babcox & Wilcox power boilers were converted 
from coal-fired units to Dutch oven hogged fuel-fired units. They 
operate at 650 degrees f and generate 250 pounds per square inch of 
pressure. They are tied to three General Electric steam turbine 
electric generators rated at 3.75 megawatts each (3.0 mW at 80% 
capacity).
    Separately, WSFPI also has two hogged-fuel process boilers, 
operating at 350 degrees f and 125 pounds per square inch, to heat our 
lumber drying kilns.
    The WSFPI electric power plant is tied into the Pacific Power 
electrical system, and the enterprise has sold electricity to Pacific 
Power in the past. However, due to the cost to produce power in these 
aging units and the current wholesale price of electricity, we are only 
periodically producing power for our mill operations, depending on our 
accumulation of chips.

The availability of biomass fuel
    Another key factor in our examination of biomass generation is the 
presence of significant amounts of potential wood fuel in our area. Our 
power plant, operating to generate a steady 4.6 mW, would require 
46,600 bone dry tons of woody material a year. Please note that, in our 
experience, most biomass fuels sales are conducted in bone dry tons. It 
requires approximately two green tons of material to produce one bone 
dry ton. Our two process boilers for our kilns require 39,228 bone dry 
tons per year. To operate our power boilers and our process boilers 
would require 85,828 bone dry tons a year. Our sawmill, processing the 
full annual allowable cut from our Reservation, produces 51,750 bone 
dry tons annually, leaving us with a potential need of 34,078 bone dry 
tons a year. Some of that need could be met with material from our 
Reservation, but while we don't have exact figures at this point, it 
would substantially less than half. It is our understanding that the 
surrounding National Forests could easily provide whatever balance 
would be necessary. It has been reported the Deschutes National Forest 
has over 500,000 acres in need of thinning and fuels treatment. At a 
minimum, a treated acre should produce two bone dry tons of material. 
If 50,000 acres a year are treated in the Deschutes National Forest 
alone, at least 100,000 bone dry tons of material could be generated a 
year for ten years. Clearly, there is sufficient biomass material 
available around central Oregon for us and other generators.
    We should also point out that these excess woody materials in those 
National Forests are in dire need of removal. According to the Central 
Oregon Intergovernmental Council's report ``COPWRR Strategy Framework, 
Reducing the Risk of Wildfire in Central Oregon by Removing and 
Utilizing Forest Fuels,'' December 2002, over 740,000 acres in 
Deschutes, Jefferson, and Crook Counties are in fire Condition Class 2 
or 3. 500,000 acres (31%) of the Deschutes National Forest was at 
``abnormally high risk from large stand replacement infestations, 
disease outbreaks and wildfire, predominantly in the ponderosa pine, 
mixed-site species, and lodgepole pine plant associations.''
    Federal and State agencies, as well as the Warm Springs Tribe, 
recognize that catastrophic fires in overstocked stands are a serious 
potential in Central Oregon. Reducing the risk of catastrophic fire, 
insects and disease is top priority. Over recent years, including right 
now, our Reservation and several nearby National Forests were, or are 
being, significantly affected by wildfire.
    <bullet> On July 9, 2002--The Eyerly Fire begins on the Warm 
Springs Indian Reservation along the Metolius arm of Lake Billy 
Chinook. Over the next 18 days the fire burned over 23,000 acres of 
Reservation, Deschutes N.F. and private lands until containment on July 
26. The fire burned into the Three Rivers Subdivision where 18 homes 
were destroyed.
    <bullet> On July 13, 2002--The 747 fire begins in the Black Canyon 
Wilderness on the Ochoco N.F. Over the next 27 days the fire burned 
nearly 17,000 acres of National Forest and private lands until 
containment on August 8.
    <bullet> On July 23, 2002--The Cache Mountain Fire begins on the 
Deschutes N.F.. Over the next 10 days the fire burned nearly 3900 acres 
of National Forest and private lands until containment on August 1. The 
fire burned into Black Butte Ranch where 2 homes were destroyed.
    <bullet> On June 28, 2003--the Davis Fire starts on the Deschutes 
National Forest. The origin was near East Davis Lake campground on the 
Crescent Ranger District, Deschutes National Forest. The Davis Fire was 
declared 100% contained on July 6, 2003 at approximately 21, 181 acres 
in size.
    <bullet> On July 23, 2003--the 18 Fire starts on the Deschutes 
National Forest near Bend. The Woodside Subdivision of Bend is put on 
evacuation alert. The 18 Fire burned in mixed conifer and sagebrush and 
burned about 3,800 acres. On July 26, 2003, it was contained.
    <bullet> And as of the writing of this testimony, the Bear Butte 
fire, ignited just last night in the Deschutes National Forest 
Jefferson Wilderness, has grown to more than 4,000 acres, the majority 
of which has spread to our Reservation and is now burning toward our 
commercial timber stands.
    The removal and disposal of forest residue in Central Oregon is 
needed. It will help preserve our neighboring National Forests, in 
which Warm Springs has substantial trust, treaty, and cultural rights 
and interests. It will help protect our own Warm Springs forest 
resource, which the U.S. has an obligation to protect as a major trust 
asset. And it could be a source of biomass economic development for 
Warm Springs Forest Products.

Prospects for Warm Springs biomass
    Our examination of local biomass potential shows us that, presently 
for Warm Springs Forest Products, it is only at the financial margin. 
Our aging power plant does not operate at peak efficiency. To generate 
4.6 mW over a year, it will burn 46,600 bone dry tons, or roughly 
double that amount of green tons. Even though there is a tremendous 
amount of potential fuel nearby, with such large volumes, its handling 
and transportation costs are a significant factor. And the current 
wholesale price of electricity is determinative, either as an avoided 
cost, if we were to dedicate our generated power to the mill, which 
requires about 5 mW, or as a potential power purchase price to draw us 
into the market.
    At today's electricity prices, if we pay more than $10 a bone dry 
ton for fuel for our power boilers, it is cheaper to shut them down and 
buy the mill's electricity from our local utility. Additionally, wood 
chips are not plentiful in our area today, and buying a steady supply 
commands about $33 a bone dry ton. So, we don't run our power boilers 
much and we buy most of our electricity.
    A Commercial Utilization Grant of up to $20 a green ton in Section 
302(a) of H.R. 1904 could dramatically change that. As I discussed 
earlier, to run our power boilers all year, in addition to our process 
boilers, WSFPI would need 34,000 bone dry tons beyond what the mill 
produces from our annual allowable cut. Some of that additional need 
could come from the Reservation, but the bulk of it would have to be 
purchased in the marketplace. For discussion purposes, let's say we 
would have to buy 25,000 bone dry tons in the open market. With a bone 
dry ton roughly equating to two green tons, we would need 50,000 green 
tons. If a bone dry ton commands $33, a green ton ought to command 
about half that, or $16.50, an amount well within the $20 per green ton 
maximum authorized in H.R. 1904 for Commercial Utilization Grants.
    The point of the above hypothetical exercise is to demonstrate 
that, at assistance of up to $20 a green ton, the Commercial 
Utilization Grant program could have a significant impact on WSFPI's 
operation of our boilers, burning tens of thousands of green tons of 
forest residue a year. Moreover, if fuels removal activity accelerates 
in our nearby National Forests, the local price of wood fuel should 
decrease.
    We also support the Value Added Grant Program in Section 203(b) of 
the bill. At the $100,000 maximum grant level now in the bill, it 
could, for instance, help WSFPI acquire a used portable chipper for 
about $175,000. Currently, our lack of an in-the-woods chipper prevents 
us, and the Warm Springs tribal member logging crews we hire, from 
directly bidding on biomass forest projects for our mill. If the 
Committee wanted to make the Value Added Grant benefits available to a 
wider range of communities, and I must say that could include Warm 
Springs, we suggest that, if possible, the legislation adopt the 
$500,000 grant limit proposed in Section 533 of the reported version of 
S. 14, the Improved Biomass Utilization Grant Program in the now-
sidelined version of the Senate energy bill. Again, a broader range of 
assistance under these grants would enable a wider array of communities 
and potential operators at otherwise marginal or distressed locations 
to viably operate biomass plants.
    Also with regard to the Value Added Grant program, we ask that, in 
the final bill, the definition of ``preferred communities'' be 
clarified to include Indian tribes. Otherwise, it is possible that 
tribes could be excluded from the first--and perhaps only--round of 
such grants. H.R. 1904 as reported from the Senate Agriculture, 
Nutrition and Forestry Committee, we note, makes this adjustment.
    We strongly support both the Commercial Utilization Grant and Value 
Added Grant provisions.

Comments on the Senate version of H.R. 1904
    If I might take this opportunity to briefly further comment on the 
Senate reported version of H.R. 1904, we support the inclusion of the 
separate tribal watershed program in Section 303, Title III. Water is 
only as clean as the last watershed through which it has passed, making 
coordinated and cooperative watershed management across different 
jurisdictions particularly important. Moreover, many tribal 
communities, including Warm Springs, depend upon forested watersheds 
for domestic water supplies, making their management and protection 
especially important.
    We also support the inclusion of tribes in new Title VI, the Public 
Land Corps, and in new Title VII, the Rural Community Forestry 
Enterprise Program. Both would be a great help to Warm Springs.
An idea: tribal preference in stewardship contracting adjacent to the 
        reservation
    Finally, I would like to make a plug for language granting tribes 
preference in stewardship contracting on National Forest and BLM forest 
lands bordering or adjacent to Indian trust forest land. Our forests 
are essential to our economic and cultural well-being, and as assets 
held in trust by the United States, the U.S. has a duty to protect 
them, including protecting them from fire or disease from adjacent 
federal public forests. To facilitate such protection, several timber 
tribes and the Intertribal Timber Council have been working with the 
Senate on a pilot project limited to no more than twelve timber tribes 
around the country. The tribes would have to voluntarily apply and 
qualify in terms of capability, the significance of their forest 
resource, and their exposure to potential threat from federal public 
forests. The preference would only apply to tribes meeting stewardship 
contracting criteria, and could not displace any already operating 
stewardship contractors. If this were to be adopted in the Healthy 
Forests bill, Warm Springs would apply and hopefully participate. It 
would, we believe, allow the U.S. and concerned timber tribes an 
opportunity to team-up in the protection of Indian forest trust assets. 
If the chance arises, we hope the Resources Committee could support 
this idea.

Conclusion
    Mr. Chairman, Committee Members, that concludes my testimony. Warm 
Springs Forest Products Industries and the Confederated Tribes of Warm 
Springs strongly support H.R. 1904's efforts to facilitate biomass 
generation. We hope our comments have been helpful, and we thank you 
again for asking Warm Springs to appear before you today.
                                 ______
                                 
    The Chairman. Thank you. I thank the panel for your 
testimony. I'd like, if I could, to put all of this in a little 
bit of perspective in listening to Mr. Johnson, Mr. Shelk, and 
Mr. Minnick talk about some of the challenges that you have 
right now. When I was first elected to the house 11 years ago, 
this was an issue that was just beginning in terms of Congress 
responding to it. And there was--at that point in time I think 
there was broad support but little consensus in terms of when 
we needed to do and how we should move forward.
    The first version of the Healthy Forest bill was introduced 
in 1995. And as I am sure you are well aware, that bill didn't 
go anywhere. And part of the reason it didn't was opposition 
from the Administration at the time, opposition from a number 
of the environmental groups, and for the past I guess 8 years 
we have been refining and working and trying to figure out how 
we move forward in trying to respond to some of the challenges 
that people face in the real world.
    And this was about 3 years ago Mr. Walden stepped in and 
took this issue on with a vengeance. And I think anyone who has 
served in the House for the past 3 years has had the 
opportunity to talk to Mr. Walden about this issue whether they 
wanted to or not. And one of the things that Greg has brought 
to all of this was a real passion for trying to solve the 
problem. And it wasn't necessarily an ideological fight as much 
as it was we have got a problem. How are we going to fix it?
    And in this last bill that passed the House, at the very 
last minute before--after the bill had passed committee on a 
large bipartisan vote, after the bill had passed the 
Agriculture Committee on a large bipartisan vote we had a 
number of members who stepped forward at that point and said I 
don't like the bill. And we were into negotiations again. I 
guess it was the 2 weeks before the bill actually came to the 
House floor I spent more time with Greg--and I like Greg, but I 
spent more time with Greg during that period than I ever wanted 
to trying to negotiate with folks on both sides of the aisle 
concerns that they had. And some of those concerns have been 
brought up here today, and we try to address every single one 
of those concerns of the bill.
    And it's kind of interesting listening to some of the 
testimony that we have heard and some of the comments that I 
have read in the paper because what the bill originally was 7 
years ago it's not today and what it was 6 months ago it's not 
today. We tried to address every one of these concerns.
    And it comes down to fairly broad agreement that this is a 
problem and we need to do something about it. Everybody admits 
that except for a few on the very fringe of this issue that 
nobody really takes seriously. And in trying to move forward 
with that, it became apparent that one of the biggest problems 
we had in moving forward with all of these projects was that 
every one would be or nearly every one would have a lawsuit 
filed against it.
    And in the TAO report that came out recently, it's 
interesting that 52 percent of the projects in this urban 
wildland interface were appealed by environmental groups to go 
forward, and yet today a lot of it is we have got to 
concentrate on those areas. When we started this debate and we 
talked about the wildland urban interface, most of the 
environmental groups didn't want to talk about that. They 
wanted to talk about the health of the entire forest and how 
important it was to practice ecosystem management and to look 
at the entire forest and the health of that forest. And as we 
tried to compromise and move, it seems like we have had a 
moving target all the way along.
    And I can say that Mr. Walden has contributed greatly to 
that bill not only the structure of it and what it's made up 
of, but the simple fact that we were able to pass it was 
because of the work that he put into it. And I don't think 
anyone can dispute that because it was a compromise. It was an 
effort to address the concerns that people raised and to 
continue to move to improve and try to move forward with a bill 
that would actually accomplish something. And that has been the 
goal from the very, very beginning of this process.
    It's somewhat frustrating to try to go through all this 
because I hear a lot of the same arguments today that I heard 
10 years ago even though we have tried to address those 
concerns, and the lawsuits and the appeals have continued from 
the very beginning. I think that to be honest there are some 
that just don't want any of this work to be done at all 
regardless of what the outcome is or how we do it or why we are 
doing it or anything else.
    And I do want to thank Mr. Walden for the effort that he 
has put forth because without the effort that he put forth, we 
would not be at this point right now. And I appreciate that a 
great deal. Mr. Walden, I will recognize you for your 
questions.
    Mr. Walden. Thank you, Mr. Chairman. I appreciate your 
comments very much and your leadership of our Committee so we 
can move this bill through and pass it on the House floor. Mr. 
Lillebo, if I might respond to your comments. I will see your 
one editorial from the Oregonian and match it with four from 
the Bend Bulletin I would like in the record, one from the Wall 
Street Journal, one from the Grants Pass Daily Courier, one 
from the LaGrande Observer, and one from the Central Oregonian 
all in support of the legislation. Mr. Chairman, I would like 
to have those put in the record.
    The Chairman. Without objection.
    Mr. Walden. And with all due respect to my friends on the 
editorial board of the Oregonian, Portland is not quite as 
threatened as by fire as Bend, Prineville, LaGrande or John 
Day. You raised the issues that get raised against this bill, 
and I appreciate that dialog although I obviously don't 
necessarily agree.
    And I'd like to start first by reminding everybody that the 
provisions of this bill already are focused on only 20 million 
of what the Forest Service tells us is I believe 190 million 
acres of Federal forest land subject to catastrophic wildfires, 
disease and bug infestation. So we have already said we are 
going to narrow this to 20 million of 190 million acres.
    Then if you go to page eight of the bill and actually read 
it on the authorized hazardous fuels reduction projects and go 
to line 20, we talk about the focus of the bill. And line 20 
says, One, Federal lands located in an interface community or 
intermix community. Two, Federal lands located in such 
proximity to an interface community or intermix community that 
there's a significant risk that the spread of a fire 
disturbance event from those lands would threaten human life 
and property in the interface community or intermix community. 
Three, condition class three or condition class two Federal 
lands located in such proximity to municipal water supply 
system or to a stream feeding a municipal water supply system 
that a significant risk exists that a fire disturbance event 
would have substantial adverse effects on the water quality of 
the municipal water supply including the risk to water quality 
posed by erosion following such a fire disturbing event.
    I have to tell you just as an aside, we spent a day or two 
writing that language as to whether it was substantial adverse 
effect going back and forth with Sherry Bollard and some others 
that I think are pretty strong environmentalists to get in 
place what they could agree to.
    And then number four, condition class three or condition 
class two Federal lands identified by the secretary concerned 
as an area where wind throw or blow down or the existence or 
threat of a disease or insect infestation poses a significant 
threat to forest or range land health or adjacent private 
lands. And then five, Federal lands not covered by paragraph 
one, two, three or four that contain threatened or endangered 
species habitat but only if Sub A, nature fire regimes on such 
lands are identified as being important for wildfires 
identified as a threat to an endangered species, threatened 
species or its habitat in the species recovery plan prepared 
under Section 4 and on and on and on.
    And so having spent a lot of time working through those 
priorities knowing this bill only affects 20 million of the 190 
million acres, I felt we had put focus on where it was needed 
most including the wildland urban interface.
    You raise the issue of roadless, and the Oregonian raised 
the issue of roadless. As I recall reading the bill you won't 
find a mention of roadless in the bill. Now you are smart 
enough to know if we don't change the rules, the existing rules 
stay in effect. Right?
    Mr. Lillebo. The existing rules seem to be changing daily, 
Mr. Walden, with the Presidency changing them. And the initial 
roadless rule that protected the various roadless areas has now 
been changed and it is very open ended depending upon--
    Mr. Walden. My point is, though, this bill doesn't even 
mention roadless. It doesn't. And so it does specifically say, 
however, we won't go into wilderness areas, national monuments, 
I think refuges, other areas that were singled out because 
people said we don't want you in there. We actually think a lot 
of the environmental side of this equation say we don't want 
you to mention roadless. We want you to be silent about it. So 
we are in this conundrum of which group, you know. Anyway so I 
raise that.
    I do agree with you that we need more money to do this 
problem, solve this problem. The President agreed with you. He 
said that in his comments. The Speaker of the House in Medford 
on Monday last week said if we pass it, we will fund it. Now we 
will probably fight over how much that figure is, but we got a 
boat load of work to do out there, and we are going to end up 
having to pay for it because we are the landlords of the 
Federal lands. We should be the stewards. Hopefully we will 
recover some along the way. Hopefully we will produce some jobs 
in these rural communities that have been upside down as well. 
And so I guess I will just have to agree to disagree. I think 
we have put the emphasis where it's needed most.
    Mr. Shelk, I was trying to sort through your comment 
about--
    Mr. Lillebo. Excuse me. May I just respond?
    Mr. Walden. Sure.
    Mr. Lillebo. Thank you. I appreciate it. I think most 
people do agree that we need to do some things in the forest to 
try to reduce the fire risk. I think everybody has gotten that 
idea. I think it's very understandable. And I think we need to 
do prescribed fire, and I believe that's one of the main things 
we support. We need to do some thinning depending on the areas. 
And I think there would be many jobs and economic activity and 
potential wood products as a result from some of the thinning 
that we could use.
    We also need to, as I said, protect the old growth, and we 
would like to see that actually labeled in the bill to protect 
the old growth. And I don't see any objection to that, and I 
didn't see any from you, and I don't see any objection to that 
from President Bush. I mean the concept. But we would like to 
see that actually put in the bill. So I would just like to say 
there are obviously things that we would like to see. And also 
the funding. I do appreciate you recognizing that because there 
needs to be some more funding to actually accomplish the 
appropriate work for thinning the small trees and then 
protecting the old growth fire resistant trees. Thank you.
    Mr. Walden. Thank you. Mr. Shelk, I was trying to work 
through your issue of partisanship and figure out where you 
were headed with that. Because we had 42 democrats vote for 
this in the House. 17 co-sponsored this bill including three of 
the chairs of committees today. The democrats were in the 
majority of the House and it passed at 59 percent of the House. 
Maybe you weren't referring to this legislation, but as I look 
at it, we finally put together a formula that unlocked the 
bipartisan majority on what Tim might agree is the most 
significant change in forest management policy in many years to 
pass the house. Can you elaborate more on what you meant?
    Mr. Shelk. Sure. About a month an half ago in the Oregonian 
there was a full page ad that essentially supported one forest 
health bill that was not your forest health bill, and that bill 
specifically said thinning of the urban interface. And it was 
signed by a variety of people most of them urban, most of them 
west of the Cascades, and most of them in a political party 
other than yours. And it appalls me that people with public 
office in the state of Oregon recognizing the problem we have 
feel that they have to take a particular political and a 
partisan position on this particular issue.
    Mr. Walden. I haven't seen many forest fires around the 
city of Tigard either. I notice the mayor signed that one. I 
appreciate that. Mr. Shelk, if this bill were to go in effect 
and you were able to cut small diameter out of the Ochoco 
again, would that allow you to restart do you think? How much 
volume would you need?
    Mr. Shelk. Our sawmill takes about 25 million feet a year 
to operate on a single shift. If we were to have 12 to 14 
million feet a year of small logs that came from public lands 
that we didn't have to depend upon the local log or private log 
association in Central Oregon, we would be able to restart. And 
the 80 to 85 employee number that I gave you is just direct 
employment. That doesn't include loggers, contract loggers that 
don't work for us.
    As hard pressed as this state is to create new jobs and tax 
revenues, it seems to me amazing that other people haven't 
picked up on that particular issue that we could re-employ an 
awful lot of people with family wage jobs and family wage 
benefits just by harvesting these trees that are probably 
likely to either die or burn.
    Mr. Walden. How small diameter can you get down to with 
these?
    Mr. Shelk. I mentioned six inches.
    Mr. Walden. Mr. Johnson, how small a diameter can your 
mills deal with and what about the biomass provisions?
    Mr. Johnson. We can go down to five inches. However, we try 
to keep it to six. And what was your second question?
    Mr. Walden. The biomass provisions in this legislation that 
would provide a $20 green ton subsidy for the brush and all 
that comes out for cogeneration facilities?
    Mr. Johnson. We have two cogeneration plants, one over in 
Prairie City over here in eastern Oregon. We currently are 
using our waste from the sawmills to fire that plant. We don't 
really have enough demand to go outside and get very much of 
the stuff you are talking about. You have got such a huge, huge 
amount of it out there, two to three hundred tons to the acre 
or more in some cases. That's a huge pile of chips and waste. I 
just cringe when I think what's going to happen here one of 
these days if this thing continues on. In eastern Oregon it's 
getting worse all the time, getting more down and dead stuff, 
the bugs, the fire. The fires are going to create more fuels 
for fire. It's just going to continue on until there is not 
going to be much left here.
    Mr. Walden. Thank you. Mr. Minnick, I just wanted to 
comment briefly on your remarks regarding tribal inclusion in 
the bill. I think that was a good addition. It was something we 
probably should have done in the House. And so I fully support 
that effort, and I look forward to working with you on that. I 
just want to thank the Commissioner again and your colleagues 
for your assistance with arranging the facility and all for the 
hearing.
    Mr. Luke. If I might. I appreciate Mr. Stahl's comments 
about building codes. When I had the privilege of serving with 
you in the Oregon House, we did change the law in Oregon so 
destination resort CC&Rs could not require fire, things that 
burned on roofs and those kind of things. And it takes a while 
to change that. I believe that happened in '93. Deschutes 
County has changed its building codes, and the city is starting 
to come along. So we do not allow those kind of things on 
houses on their interface anymore, and all communities should 
be doing that.
    Mr. Walden. Thank you. Yes, Mr. Johnson?
    Mr. Johnson. I want you to know I think it's a pretty darn 
good bill and I am very grateful that you managed to get it in 
there and I thank you very much for that. But the bill and 
problem we have out here is more a legal problem at this point 
than anything else. I think in Malheur National Forest we have 
had five different salvage sales that were put up and purchased 
that we did anywhere some of them and they filed lawsuits and 
stopped it. We even had the Federal judge out on the property 
to look at it. And we thought once he looked at it, he would 
understand what's going on. But he didn't care. He ruled 
against us. And so that has been going on here.
    We have people here in the Forest Service that really want 
to manage the forest, but they have not had an opportunity to 
do that since the President had become the President we have 
now. And we need to--I don't know how you solve the Federal 
part. Maybe you guys go tell them what to do. I hope that's 
what it is. But it hasn't worked very well so far.
    Mr. Walden. I appreciate it. Mr. Chairman, those are all 
the questions I have and I thank you for allowing us to have 
this.
    The Chairman. Thank you. Before I excuse the panel, there 
is one thing I do want to ask Mr. Lillebo and that's dealing 
with this urban wildland interface. And this is something that 
really bugs me because we tried to work through this and why 
the environmental community has gone back to stressing the 
urban wildland interface after arguing against it in previous 
years and now that seems to be the big issue.
    When we looked at this and we have had a number of hearings 
in different parts of the country, and I remember specifically 
in Arizona them talking about the situation that existed there 
and how if they had done something on the interface, it 
wouldn't have made any difference. That they had to deal with 
the valley or the canyon coming into town. That that was the 
major thing that they had to with deal with. And I have had 
different foresters and different people in other areas and in 
Montana and other places where we have had hearings that have 
talked about the need to actually get into the forest and do 
this work back in the forest and not just right around the 
houses.
    And Mr. Stahl talked earlier about just some common sense 
stuff about keeping things away from your house and not having 
a flammable roof. And I don't think anybody is going to argue 
with him about any of that. That's pretty common sense stuff 
when it comes to protecting your house. But when it comes to 
doing this work on a broader basis, I think there is a 
disconnect between what some of the foresters and biologists 
and others have talked about versus what you are talking about. 
And I really don't understand why you think that unless all we 
do is talk about that urban wildland interface you are not 
going to support the bill. You have got me on this one.
    Mr. Lillebo. I will address that. We have been talking 
about ecosystem restoration for years and years. In fact for 
half a century we were mainly cutting old growth forest both on 
the west and the east side. That was kind of the main stay on 
the public lands. That has changed to a great degree in the 
last 10 or 15 years. And I believe that we should be moving 
toward ecosystem restoration. And in most cases as I said in my 
testimony and as I said most of the people probably believe we 
should be doing prescribed fire using nature as a tool to help 
reduce the fuels and so forth and that helps restore the 
natural ecosystem. And in some areas we can also do thinning of 
the smaller trees leaving the large fire resistant trees.
    And what we are saying is that--as I said I mentioned a 
bill or two that had 70 percent of the funding and the work 
should be prioritized in this first few years or first round. 
It may only take a year or two if you have enough money. But 
that should be prioritized in that community to where the 
people and the houses are and that makes sense to me.
    Mr. Walden. Let me step in. That's the problem right there 
is that in every case that may not be the priority. And if we 
dictate that 70 percent has to go there, if that's not what 
they need, then we are basically throwing money away.
    Mr. Lillebo. I will address that. What I think is if you 
have 70 percent allocated to that community, I believe that 
what money we do have we will easily be able to spend that in 
areas that do need fire risk reduction around the communities 
or wildland urban interface. 30 percent or what's left over may 
fit just for that area you are speaking of that may not have as 
much of that urban interface, and we can use funds for that 
there to do that prescribed burning and thinning of the small 
diameter trees that may actually do ecosystem restoration out 
in the forest. So I think there's room there.
    And then as I believe some of the other speakers have said, 
as time goes on we will be able to move on out into those 
areas. But I think at this point we need to prioritize on those 
communities. So we might be saying somewhat of the same thing. 
I'm not sure. It doesn't sounds like it.
    The Chairman. I think you are but I am not sure.
    Mr. Lillebo. I'm not sure. That's why I would like to have 
it written into the bill in the way that I was referring to it.
    The Chairman. The way that we have gone back and forth with 
this bill and the compromises that have been made and with the 
testimony that we have received, we feel like we have tried to 
hit that balance. And I am sure there is more things that you 
would like to put in the bill and there is things I would like 
to put in the bill. But if you had your way or I had my way, 
the bill would never pass. So what we have tried to do is reach 
a balance of compromise.
    As Greg said earlier, this thing passed with almost two 
thirds of the vote. It's pretty slim pickings out there the 
guys that voted no. And this was about the biggest consensus on 
a resource issue that has been before Congress in over a 
decade. And sure, there's going to be things that everybody 
wants that weren't in the bill, but I really feel like that 
compromise was reached on it.
    Mr. Lillebo. And we are saying that without having 
specifics on the old growth and those things that I mentioned, 
then I think that those could be added and I would like to ask 
you to actually do that.
    The Chairman. I am afraid if we went back and opened it 
back up and started to include more things, that there would be 
a lot of things that people would want in there. But I 
appreciate this panel's testimony. I know that all of you have 
made an effort to be here and to testify.
    In order for us to, I think, more fully understand the 
impact of these issues and I think the depth of people's 
feelings on these different issues, we have made a real effort 
on the part of the House Resources Committee to get out and do 
field hearings and to bring Congress to the people more and to 
get people outside of Washington, D.C.
    As I said earlier, this is the tenth state I have been in 
in the last 3 weeks and have had the ability to listen to a lot 
of different people on issues that come before the Committee. 
But I feel it's extremely important that we make this effort 
because I know all of you make a great effort to try to inform 
us.
    I want to thank the hospitality of my colleague, Mr. 
Walden. He has obviously been a very valuable Member of 
Congress and the Committee for a long time and has worked 
extremely hard on issues that are important in Oregon. So I 
thank him for having us here and for insisting that we come.
    And I'd also like to add to submit testimony for the record 
you can e-mail it to the House Resources Committee. It's the 
Forest Health Subcommittee. They will give you the e-mail 
address on the way out so that you can have a chance to grab 
your pencil and you can write it down. So those of you who did 
not have an opportunity to give oral testimony can submit 
written testimony for the record. Again I want to thank all of 
the witnesses today, thank you, Mr. Walden, and the hearing is 
adjourned.
    [Whereupon, at 5:00 p.m., the Committee was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
